<html>
<title> - DEFINING NASA'S MISSION AND AMERICA'S VISION FOR THE FUTURE OF SPACE EXPLORATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
 DEFINING NASA'S MISSION AND AMERICA'S VISION FOR THE FUTURE OF SPACE 
                              EXPLORATION

=======================================================================

                                HEARINGS

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                           MAY 9 AND 19, 1997

                               __________

                           Serial No. 105-84

                               __________

Printed for the use of the Committee on Government Reform and Oversight







                      U.S. GOVERNMENT PRINTING OFFICE

46-559                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001





              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
                          Ianthe Saylor, Clerk
          Mark Stephenson, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    May 9, 1997..................................................     1
    May 19, 1997.................................................   151
Statement of:
    Aldrin, Buzz, astronaut, Apollo 11; Walter Cunningham, 
      astronaut, Apollo 7; Ron Howard, director, ``Apollo 13''; 
      and Story Musgrave, astronaut and scientist................    11
    Carpenter, Scott, Mercury 7 astronaut; Captain Eugene Cernan, 
      Gemini 9, Apollo 10, and Apollo 17 astronaut; and Buzz 
      Aldrin, Apollo 11 astronaut................................   152
    Glaser, Peter, vice president, Arthur D. Little, Inc.; 
      Richard Berendzen, professor of physics, American 
      University; David Criswell, director, Institute for Space 
      Systems Operations, University of Houston; and David Webb, 
      consultant, Space Science and Engineering..................    58
    Ouellette, Joshua, student, Academy of Science and 
      Technology; Seth Potter, professor of Applied Physics, New 
      York University; Bob Zubrin, president, Pioneer 
      Astonautics; Tom Rogers, Near-Term Commercial Space 
      Transport Opportunities; and John Lewis, astrogeologist....   189
Letters, statements, etc., submitted for the record by:
    Aldrin, Buzz, astronaut, Apollo 11, prepared statements of..17, 165
    Berendzen, Richard, professor of physics, American 
      University, prepared statement of..........................    70
    Cunningham, Walter, astronaut, Apollo 7, prepared statement 
      of.........................................................    27
    Glaser, Peter, vice president, Arthur D. Little, Inc., 
      prepared statement of......................................    60
    Hastert, Hon. J. Dennis, a Representative in Congress from 
      the State of Illinois, prepared statement of...............     4
    Potter, Seth, professor of Applied Physics, New York 
      University, ``Applications of Thin-Film Technology in Space 
      Power Systems,'' and ``Energy and Information from Orbit: 
      Technologies for the Greenhouse Century''..................   206
    Rogers, Tom, Near-Term Commercial Space Transport 
      Opportunities, prepared statement of.......................   199
    Webb, David, consultant, Space Science and Engineering, 
      prepared statement of......................................    82
    Weldon, Hon. David, a Representative in Congress from the 
      State of Florida, prepared statement of....................     9


 DEFINING NASA'S MISSION AND AMERICA'S VISION FOR THE FUTURE OF SPACE 
                              EXPLORATION

                              ----------                              


                          FRIDAY, MAY 9, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 8:30 a.m., at 
the Smithsonian Air and Space Museum, Sixth and Independence 
Avenue, Washington, DC, Hon. J. Dennis Hastert (chairman of the 
subcommittee) presiding.
    Present: Representatives Hastert, Souder, and Portman.
    Also present: Representative Weldon.
    Staff present: Robert Charles, staff director and chief 
counsel; and Ianthe Saylor, clerk.
    Mr. Hastert. The hour of 8:30 having arrived, the 
Subcommittee on National Security, International Affairs, and 
Criminal Justice will come to order.
    Good morning and welcome. We have a very exciting hearing 
before us today with some dedicated and thoughtful and 
generally extraordinary witnesses. Let me say on behalf of the 
entire subcommittee and all those assembled here, it's a real 
privilege to have such a spectacular group of witnesses 
appearing before us today. So gentlemen, thank you very much 
for giving us your time. I want to thank everyone involved in 
making this hearing possible, especially the Smithsonian 
Institute of Air and Space Museum, NASA, and the special 
witnesses who sit before us this morning.
    I'm going to keep my opening statement brief this morning 
in deference to our distinguished panels. I do want to say a 
little bit about why we are having this hearing, why we are 
having it here in the space museum, and why the topic of space 
and exploration and NASA oversight is a matter of American 
importance. This national security subcommittee is part of the 
Government Reform and Oversight Committee of the U.S. House of 
Representatives. As such, we share oversight responsibility 
over a number of national security issues and also over NASA.
    Let me say that the Science Committee in the U.S. House, 
under the chairmanship of Congressman Sensenbrenner, and the 
hardworking Space Subcommittee, chaired by Congressman Rohra-
bacher, have been and continue to be exceptional leaders in the 
oversight of NASA. Their work is critical in defining NASA's 
mission, keeping costs down, and keeping NASA on track--as a 
matter of fact, just passing out the authorization on NASA 
recently.
    We are trying to move forward through a series of hearings 
on NASA's vision and America's vision for the future. I believe 
we may be holding joint hearings on some of these topics, 
possibly with the Committee on Science. Let me talk about a 
vision for a moment. In a time of tight budgets, the American 
Congress and NASA must be ever-conscious of the costs and the 
benefits of investments made. We also must struggle to truly 
understand that there are benefits, short-term and long-term, 
direct and indirect, that come from affordable space science, 
human space exploration, space-related technologies, 
aeronautical engineering breakthroughs and, really, the basic 
education and inspiration of our kids.
    These issues, so often forgotten in the public dialog, are 
a part of what has made this Nation great in the 1960's and 
1970's. I can remember as a kid growing up in the 1950's--I 
date myself--I think of the classic, the 1957 Chevrolet. 
Everybody remembers that. But as that car came out I also 
thought--I remember a lot of times standing out in the dark in 
the corn fields of Illinois, so to speak, watching Sputnik go 
over.
    And the inspiration and the push that that gave us as a 
country to excel, to move forward, to plan and to achieve. And 
that is something that we can't forget, we should not forget, 
and we should not let go of. I think certainly the cores of 
concerns surrounding the cold war was part of that. And as a 
Nation we didn't flinch in the face of that mounting threat. We 
met the challenge. We got the job done. We set our eyes on the 
Moon, and getting Americans there safely and returning them 
back to Earth.
    And we recognized the importance of mastering space both to 
our national security and to our long-term future. Let me say 
that the Air and Space Museum has created a spell-binding 
display here. To our left--as I understand, this area will open 
shortly--the display which chronicles the United States-Soviet 
competition to get to the Moon and to master space also tells 
another story with long-term implications. It reveals the 
extraordinary level of cooperation that has characterized 
United States-Russian relations over the past decade, and the 
great hope for international cooperation in space that may lie 
ahead.
    And the ahead part of this is what I really want to focus 
on. In the late 1960's and early 1970's, as this Nation rushed 
to secure our future in the face of a looming national security 
threat, we also inspired the world. Not least, we inspired our 
young people. Young Americans swarmed to the study of math and 
science and engineering. I think the impact on our youth is 
important. I wasn't always in Congress. For many years--for 16 
years, as a matter of fact, almost two decades--I coached and I 
taught. And during that period of time I saw what American 
youth can do if we challenge it.
    During the 6 years that I spent in the Illinois legislature 
I helped to create a math and science academy, because I 
thought we had to challenge our very best children, our very 
best kids, and bring them in with our very best teachers so 
that they could excel. And we hope that some day those 
graduates of that math and science academy may be taking some 
of your places. Although those are big shoes to fill, we have 
to create those types of people to be able to fill those shoes.
    In reference, just let me say that the personal computers 
that we all tap on every day, the microwave ovens, the plastics 
that preserve our food, the printed circuits, hundreds of 
medical advances, image technologies from MRI to the CAT scan 
and thousands of smaller technological advances, including 
aeronautical design, and advances that make commercial aviation 
safer, all can be directed directly to the space program.
    Let me say that I personally have a commitment to the study 
of math and science and to the study of space. I hope that we 
can produce those gifted kids, and those kids have a vision and 
a dream that they can begin to achieve some of the things that 
you have worked for and dreamed for also. I, today, would ask 
that behind us the lunar module mock-up--that's in front of us 
today--the one that Mr. Aldrin and Neil Armstrong took to the 
Moon, the command module mock-up, the same type that Mr. Aldrin 
and Walt flew, is over to our left. The Hubble space telescope, 
which Mr. Musgrave miraculously fixed on his historic space 
walk, one of his six space shuttle flights, is also over to our 
left.
    We are privileged to have these astronauts with us today 
here on our first panel. We are also privileged to have us with 
us the director of a movie that truly captured the Nation's 
imagination and caused all of us to skip a few heartbeats from 
time to time. The film, which many of you have seen, is 
``Apollo 13,'' which poignantly retells the triumphant story of 
the explosion in outer space aboard our Moon-bound Apollo 13 
flight, the flight that carried astronauts Jim Lovell, John 
Swigert, and Fred Haise.
    The movie is a gripping tale of death at the doorstep and 
disaster at the doorstep of the Apollo program. In speaking of 
astronauts they'd also say it's one of the most realistic 
pieces that have probably ever been produced for the American 
public. They brought those men home safely. And that's what the 
story of Apollo 13 is all about. Ron Howard, we're pleased to 
have you here with us today. This hearing is about the 
practical oversight of space development but also about the 
need for vision. As a Nation in Washington, the Speaker of the 
House has spoken about this, and I look forward today to 
hearing our outstanding witnesses give their views on this 
crucial topic. At this time I'd like to ask Mr. Souder if he 
has any opening statement.
    [The prepared statement of Hon. J. Dennis Hastert follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.001
    
    [GRAPHIC] [TIFF OMITTED] 46559.002
    
    [GRAPHIC] [TIFF OMITTED] 46559.003
    
    Mr. Hastert. Mr. Portman.
    Mr. Portman. No.
    Mr. Hastert. Also with us today--we welcome and are very 
pleased to have with us Dr. Weldon, who represents the Kennedy 
Space Center. And I know, Doctor, you have an opening 
statement.
    Mr. Weldon. Mr. Chairman and members of the subcommittee, I 
want to thank you for allowing me to appear with you today. And 
Chairman Hastert, I want to thank you for calling this hearing 
and applaud your efforts to give NASA a greater visibility on 
Capitol Hill and with the public. I also want to thank our very 
distinguished panelists for taking time from their very busy 
schedules to be here today.
    I know each of you in many ways are probably busier than 
Congressmen, so it's especially a pleasure to have all of you 
here and take the time out to make the statement in your 
support of our Nation's space program. The space coast, which 
makes up most of my Florida district, includes NASA's Kennedy 
Space Center, home to our Nation's space shuttle fleet, and the 
launch site for all U.S. manned missions. It adjoins Cape 
Canaveral Air Station, which hosts most of our Nation's 
commercial and military space launches as well as adjoining 
Patrick Air Force Base, which is home to the U.S. Air Force's 
45th Space Wing.
    So a love and interest for all things related to space runs 
through my congressional district. And I have been an outspoken 
proponent for NASA and our Nation's space efforts. The people 
of the space program, along with everyone else in our Nation, 
sit captivated every time we have a launch from Florida. Every 
year hundreds of thousands of people from across our country 
and around the world line central Florida's highways and 
viewing areas to see the space shuttle lift off. The space 
program motivates our children and inspires scientists, 
engineers, and explorers who constantly probe the unknown 
secrets of our world and the universe.
    And despite some recent difficulties, NASA is still a 
symbol of our Nation's preeminent position as a scientific 
leader in the world. NASA is making important investments in 
such programs as the international space station, the next 
generation reusable launch vehicle, which will help the U.S. 
regain market shares of commercial launches. And NASA is 
leading the way in search of planets outside our solar system 
and other scientific endeavors that probe the boundaries of our 
scientific, medical, and engineering knowledge.
    As vice chairman of the Space Subcommittee, I am committed 
to assuring NASA has the resources it needs to move forward 
with its mission. We must continue to invest in the space 
station despite some recent difficulties. And we must continue 
to safely and efficiently fly the space shuttle fleet. And we 
must foster the development of reusable launch vehicles which 
promise to dramatically lower the cost of getting into orbit.
    However, we must also balance our human space flight 
program with a robust and ambitious science and unmanned 
exploration program. I sat transfixed with the rest of the 
world in the summer of 1994 when Jupiter was bombarded by the 
Schumacher-Levi comet, bringing the tiny dimensions of our 
world into the universal perspective. I anxiously await the 
data and pictures that our recently launched probe to Mars will 
bring, as well as the fascinating story that should emerge from 
our mission to Saturn later this year.
    So we need to have a balanced program. Automated probes and 
robots can serve us well in the initial phases of exploration 
and to explore where humans may never be able to go. But in 
order to truly get a sense of the alien world, we have to be 
there to touch it and feel it. I support a return to the Moon, 
maybe to stay this time, and a mission to Mars. Technically, we 
can do these things now. But we must find the political and 
economic will to make it happen. We must also foster our 
commercial space sector.
    I firmly believe the future of space exploration will 
depend in a large part on the private sector's role. And I want 
to give every business an opportunity to use space as an 
economic resource. We need to take a hard look at how the 
Federal Government interacts with our commercial space 
community, and make sure we are not hindering their growth 
potential.
    Finally, I would like to make a point that is very often 
overlooked in our annual debate on the space program. I support 
the space program for a variety of reasons, among them the 
scientific and medical benefits as well as economic growth, 
international competitiveness, and a stepping stone to future 
human exploration of the solar system. However, I also strongly 
believe that our civilization's future lies in space. As you 
look through history, civilizations that cease to explore and 
expand their technological frontiers cease to exist. They may 
choose not to expand and explore for a variety of reasons, but 
the end result is the same: the civilization stagnates and 
becomes a part of history. Our Nation and in fact our world is 
at such a threshold. In space lies the future of the human 
race. And to turn away from that challenge now could set us 
back as much as a century or perhaps more. Of course, if we 
stopped exploring space tomorrow, we probably wouldn't feel the 
immediate impact. It would come to our children and to our 
grandchildren, who would lose the drive to explore. And with 
that would be lost the historic opportunity of our Nation. Mr. 
Chairman, thank you again for calling this hearing and allowing 
me to join you today. I hope this can begin a fruitful dialog 
of the future of our Nation's space program. I look forward to 
the testimony of the panelists and I thank them for joining us 
today.
    [The prepared statement of Hon. David Weldon follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.004
    
    [GRAPHIC] [TIFF OMITTED] 46559.005
    
    Mr. Hastert. Dr. Weldon, we certainly appreciate you being 
here today and your opening statement. Let me add that Tom 
Barrett, our ranking member from Wisconsin, was very supportive 
of this hearing, and was not able to make it for personal 
reasons back in his district. If I may, I'd ask our first panel 
to stand to be sworn in before I formally introduce each of you 
in turn.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
responded in the affirmative. Please sit down. Now I'd like to 
formally welcome our first panel. Of course, Dr. Buzz Aldrin is 
a man who needs no introduction. All of you know that he 
piloted the lunar module on Apollo 11, the first manned mission 
to the Moon. And he is one of the first men to walk on the 
Moon. You may also know that Dr. Aldrin was already a war hero 
before he ever became an astronaut, having flown 66 combat 
missions in Korea. Also, Dr. Aldrin is a scholar who earned a 
Ph.D. from MIT for his scientific work on space flight.
    Mr. Walt Cunningham was a Marine fighter pilot before 
coming to the astronauts. He flew the Apollo 7, which was the 
first manned Apollo mission, in 1968. Since then he has built a 
career as an extremely successful businessman, engineer, and 
civic leader. We thank you for being with us here today. Mr. 
Ron Howard, of course, is a well-known actor and movie director 
who directed the award-winning film, ``Apollo 13,'' along with 
many other Hollywood blockbusters which I'm sure we've all 
seen.
    And last, but certainly not least, Dr. Story Musgrave is 
the astronaut who accomplished the daring and successful repair 
in space of the Hubble telescope. He has flown numerous 
missions on the space shuttle and has earned academic honors 
for his work in aerospace, medicine and physiology. We thank 
you all for coming. Dr. Aldrin, please proceed with you, and be 
followed by Mr. Cunning-ham and Mr. Howard and Mr. Musgrave. 
Thank you very much.

    STATEMENTS OF BUZZ ALDRIN, ASTRONAUT, APOLLO 11; WALTER 
CUNNINGHAM, ASTRONAUT, APOLLO 7; RON HOWARD, DIRECTOR, ``APOLLO 
       13''; AND STORY MUSGRAVE, ASTRONAUT AND SCIENTIST

    Mr. Aldrin. Thank you very much. Mr. Chairman, Members of 
Congress, it's a great pleasure for me to be here today. As you 
know, I have more than a passing interest in space. And I 
appreciate the chance to say a few words about the 
possibilities that await this Nation, especially if we make the 
right choices. I also want to the thank the Air and Space 
Museum, which has really outdone themselves by allowing this 
first ever hearing in this great hall.
    It's been nearly 30 years since Neil and I walked on the 
Moon, yet that day is as vivid to me as I know it is to many of 
you. It was historic in its meaning for all mankind since it 
was an achievement that Americans and all mankind shared in and 
continues today. There were a few risks, of course. When we 
finally set the lunar module down, with Neil piloting and me 
calling out the number for him, on July 20, 1969, we had only 
an estimated 16 seconds of fuel left in the descent stage.
    On the surface if we had fallen and a suit ripped, there 
wasn't much chance of surviving that. If the one ascent engine 
didn't fire or the computers on board malfunctioned, we would 
never have left the Moon. If the rendezvous with Mike Collins 
in the command module hadn't gone flawlessly there were other 
rather unsavory consequences. But the mission was built on the 
know-how and knowledge of thousands of dedicated Americans.
    It was also built on faith and a national commitment. I was 
for- tunate and proud to have been chosen for Apollo 11. And 
I'm here to give back to a Nation that gave me an unparalleled 
opportunity: the chance to land and walk on the Moon, and to be 
the first mis- sion ever to do so, and then to continue to 
carry a message of en- couragement for an ever-better future in 
space.
    My message today is also a call for action, a call to all 
Ameri- cans, especially young Americans, to reach out for the 
stars, reach for greater knowledge, have faith in the future, 
and help re-inspire a renewed national commitment to human 
space exploration. First I want to talk a moment about space 
and about those three words: knowledge, faith and commitment. 
Then briefly I want to touch on five specific aspects of space 
flight that beckon us as a Nation.
    My chief message is this: America must dream, have the 
faith to achieve the dream, and develop the fullest possible 
knowledge of the possibilities that await us. Even the best 
trained and the brightest engineers, scientists, business 
people and political lead- ers, if they have no vision, are 
mere place holders in time. We must dare again to take risks as 
a Nation. And we must see again that this generation of 
Americans--those alive today--have at their fin- gertips the 
technology and the recent history necessary to trigger a 
cascade of vast new discoveries for this living generation and 
those that will follow.
    Some would say that we have an obligation to use the 
talents and insights that we've been given. Those of us who can 
remember the power and majesty of the Apollo program's 
accomplishment, let me say as I sit here before you today, 
having walked on the Moon, that I am, myself, still awed by 
that miracle. And I can still re- member the feeling of 
exhilaration as I look here at the lunar mod- ule behind me--I 
recall backing down that ladder to the lunar sur- face. But 
that awe in me and each of us were what this Nation and people 
can bring forth when we try, should be, must be the engine of 
future achievement, not the slow, dimming light from a time 
once bright.
    It's not the obligation, however, that I wish most to talk 
about. It's the vision, the faith in brilliant opportunities 
that await us. These are what bring me here today. In a book 
that Neil Arm- strong, Mike Collins and I wrote in 1970 called 
``First on the Moon, ``Arthur Clarke offered a truly visionary 
epilogue. Clarke made a number of predictions. Some of those 
predictions, like the emergence of this space shuttle, reduced 
payload cost to space, and a satellite-driven communications 
network as well as other break- through technologies, have come 
true. Others, including routine commercial flight to and from 
space, space tourism, settlements on the Moon by the early 
2000's and human exploration of Mars in our lifetimes are yet 
to be realized.
    But each of these advances requires three things: 
knowledge, faith, and commitment. Knowledge that we can achieve 
these feats for all mankind, faith in ourselves, in things 
larger than ourselves, and in the importance to mankind, that 
we use the opportunities at our fingertips, and a new found 
national commitment to do what God has given us the power to 
do. In short, I'm here today to issue a call for national 
action.
    This is an incredible, uncontainable country: America. We 
have the power in our national consciousness to dream as few 
dare to dream, and the power in our national talent pool and 
convictions to make come true that which we dare to dream. I'm 
here to say, let the race begin. Let us reawaken America to the 
power of a compelling dream. And the ability with determination 
to achieve that dream. And what is the dream of which I am 
talking? It's John F. Kennedy's dream: to reach the Moon and 
beyond.
    Written in giant letters, giant new steps and leaps. As 
Kennedy so powerfully said, ``We do not do these things because 
they are easy, but because they are hard.'' Yes, this is the 
dream of Arthur Clarke, but also of America's most forward-
looking engineers, her proud and growing astronaut corps, and 
NASA's gifted leadership of men and women. Lighting our way is 
the legacy left by past greats, names like Wernher Von Braun, 
Gerry O'Neill, Thomas Paine, and Carl Sagan.
    It's the dream of those great and dedicated men and women 
who were a part of Apollo. But it's also the dream of 1,000 
budding American entrepreneurs, who are, at this very moment, 
laboring to make space flight safe, economical and no less 
routine than transcontinental air flight. These are men and 
women of America's private sector. Expanding space flight was 
Robert Goddard's dream, and the dream of those who made 
possible Mercury, Gemini, Apollo and the shuttle. And there is 
more.
    The inspiration I want us to willingly embrace today, 
again, is common to all Americans and all humanity. I know many 
of you felt it because I've spoken with you. I think those 
political leaders who feel this inspiration are in sync with 
America's heartland and with our future. America and her 
fascination with space is again alive, and we're on the verge 
of moving again, moving as a Nation, moving the tectonic plates 
of historic achievement.
    I would beckon you to let yourselves dream again. And you 
may yet hear what I hear ricocheting about the American public: 
excitement and a willingness to take risks again. Behind that 
excitement and willingness--a slow, growing call for renewed 
action. Last month Americans were thrilled to the appearance of 
the comet Hale-Bopp. They were riveted by a reliving of Apollo 
13's mission. And let me say here, Ron Howard did a magnificent 
job in producing that movie, keeping it faithful to the facts. 
And Americans were even thrilled by memories brought to the 
surface by when the Star Wars trilogy was re-released earlier 
this year.
    Last month, we also learned that one of Jupiter's moons--
Europa--also appears to have an ocean greater in volume than 
our own and a hot center. And the implications of that 
discovery are far from small. Yet most Americans don't yet know 
the best of it. We have within our grasp the technology to get 
everyday citizens into space routinely and safely for the 
thrill of a once in a lifetime ride and adventure.
    We also have the technology to cost-effectively return to 
the Moon again. We're even at the threshold of being able to 
affordably get to Mars with manned missions. And I'm helping 
NASA and Houston to chart an evolutionary strategy for Mars 
with very promising, long range sustainability. Let me say 
this: every American whose heart beats faster at the news of 
possible water on the Moon or possible life on Mars or when 
they hear of an affordable lottery ticket into space for the 
fun of it, or the chance to safely visit orbiting space 
resorts: a trip that will soon be no less safe than driving 
cross-country to see the Nation's marvelous Air and Space 
Museum.
    These Americans know what I'm talking about. So I say let 
us join together as a Nation undivided, and reawaken these 
wonderful and achievable dreams. Let us dare to think about the 
future. Let's talk again about a permanent presence on the Moon 
and sustained interplanetary travel with all it's discoveries. 
Let's draw up the plans and let's begin the investment. These 
events are achievable. And perhaps, if you look closely at the 
largely unknown advances we've made since Apollo 11, even 
within our lifetime.
    Let's think again as we did in the 1960's as a great and 
ambitious Nation remembering cost efficiencies, but having 
faith and a renewed commitment to explore and experience space 
and its richness. Today we have the knowledge and technology to 
tap unlimited energy potential in near Earth space and 
unimaginable resource potential beyond. Indeed, last week was 
historic for Congress's balanced budget success. And I 
congratulate Congress with the vision that it took to achieve 
that success.
    But imagine having space-based solar energy assets and 
space-based resources that truly keep this planet pollution 
free and make budget deficits literally unthinkable by their 
shear richness. That's what awaits us if we make the right 
investments. The future I allude to has yet to be built. But 
all this is not fiction. It's very close to being fact. A 
clean, green, non-polluted Earth drawing on abundant space-
tapped energy from our Sun, passenger travel to and from space 
for commercial and adventure activity, the step by step advance 
to Mars, even low-cost cycling missions to and from that planet 
and then beyond.
    All these goals are worth pursuing and well within our 
grasp. Once more, they will reenergize this Nation, and if 
Apollo is any example, spur rippling economic growth. You know 
the Apollo program's miraculous achievements were built on a 
dream by this Nation's leaders and our people. Let us take 
stock of ourselves and our place in history of mankind. And let 
us not be timid or content to rest on our laurels. Already a 
generation has passed since we walked on the Moon. I will say 
it again, and pray, as I did when we sat on the Moon, that we 
can start this engine.
    Greatness requires knowledge, faith and commitment. The 
investment in public determination to reawaken the dream will 
start here with Congress and today's leaders. Before closing I 
want to touch on several specifics. And on questioning I'll 
gladly go into more detail.
    First, refinding the inspiration that we had in Apollo and 
that the entire Nation had. Reawakening the dream is vital for 
America's children; for your children and my children. I need 
only note that America's children flocked to math and science 
in the era of Apollo, both during and after those historic 
missions. Since then there has been a clear erosion of our 
inspiration and fascination, the curiosity and the calling of 
science, and especially the countless sciences tied to space 
and space flight.
    We can and must re-inspire our children. We live through 
historic achievement based on well trained minds. They should 
have that experience. And their generation should have the 
reservoir of that training for their sake and the Nation's.
    Second, I think we have to get serious about investing in 
the best next generation reusable space transportation options. 
There are several options. And they're all worth study and 
investment. One I'll briefly allude to, however, is the so-
called Star Booster two-stage deliverer. The common sense of 
this approach and the economical nature of the investment 
cannot be oversold. And I'll gladly get into more of this on 
questioning or after.
    Third, I cannot stress the nearness and excitement that 
surrounds giving every American a real shot at getting into 
space safely and for the pleasure of that experience. I call it 
the drive for space tourism because that's what it is. The 
investments are already being made. And we need chiefly to 
support them with complementary efforts at NASA and a general 
reduction in outdated regulations restricting private sector 
rocketry and space exploration.
    Fourth, we must again look seriously at and invest in 
technologies which support, both at NASA and in the private 
sector, manned missions and a permanent presence on the Moon. 
There are endless spinoff and commercial development arguments 
for this investment. But the one argument that I feel is most 
compelling is, the mission is larger than ourselves. We were 
called together as a Nation and as a species by the Apollo 
missions to the Moon. And there is simply no measure of the 
good that these explorations brought to us all, not least by 
bringing the global community closer together.
    Finally, the importance of now seriously looking at and 
investing in manned missions to Mars leading toward permanent 
sustainability there could not be greater. The time is upon us 
to move into the investment stage and to look at making 
practical the technologies that we know have, but could only 
have dreamed of in the 1970's. We can do this. And we must free 
the private sector from regulations that hamper the sort of 
experimentation that will make this a reality. Even as we 
support NASA's research and development we must reach out and 
do what we're able to do. And we can do this within our 
lifetimes.
    In closing, let me say that space is our final frontier. 
And that frontiers are essential for the advance of humanity 
and for advance of individuals within the community of man. Our 
children will thrill to the achievements we set forth to 
achieve, and we can achieve them if we are willing to dream, to 
embrace the knowledge, faith and commitment, and to relight 
that engine which will take us all first into space, then to 
the Moon and Mars, and, finally, to the stars. As I like to say 
with my feet firmly on the ground, on Earth today, as surely as 
they were on the Moon nearly 30 years ago, let's join together 
and shoot for the stars, ad astra. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Aldrin follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.006
    
    [GRAPHIC] [TIFF OMITTED] 46559.007
    
    [GRAPHIC] [TIFF OMITTED] 46559.008
    
    [GRAPHIC] [TIFF OMITTED] 46559.009
    
    [GRAPHIC] [TIFF OMITTED] 46559.010
    
    [GRAPHIC] [TIFF OMITTED] 46559.011
    
    Mr. Hastert. Thank you, Dr. Aldrin. At this time, Mr. 
Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman and members of the 
subcommittee. You do me honor by inviting me to share my 
thoughts with you here this morning. And it's a pleasure to be 
here with my associates. Buzz and I entered the space program 
the same day. Story Musgrave, who bridges the period between 
the golden age of manned space flight--Apollo--and the current 
shuttle era. As we sit here amongst the artifacts of the golden 
age of manned space flight, I would like to talk a little bit 
about a movement which has been away from the chance of 
dangerous adventure and toward a risk-free society.
    In 1961 President John F. Kennedy announced to the world: 
``We will land a man on the Moon and return him safely to Earth 
in this decade. We choose to do this not because it is easy but 
because it is hard.'' What a truly audacious statement. At that 
time not a single American had yet been into orbit. It took 
vision, initiative, leadership. It took someone willing to 
stick their neck out, someone willing to risk failing.
    Economic problems and social progress were serious issues 
in 1961, too, much as they are today. So was the budget. 
President Kennedy knew that even in hard times you cannot take 
your eyes off of the future. While responding to the needs of 
today we must also invest in tomorrow. Today man's landing on 
the Moon is history. Against enormous odds, with the whole 
world watching, a group of engineers, scientists and managers 
accepted the challenge, took a risk, and changed the way that 
we perceive our world. And incidentally, they kept the spirit 
of adventure alive for one more generation.
    We went after Moon rocks. But the real payoff was probably 
a surprise to all of us. The real payoff was what happened to 
us back on Earth. Apollo changed all of us inside. For a brief 
period during the time of Apollo, our society felt good about 
itself again. We felt together. The Moon landings proudly 
proclaimed to others that we accepted no limits on what we 
could accomplish. Yes, we knew it was risky. But there was 
never any doubt that the potential gain greatly exceeded the 
risk. And success carried with it the promise that our children 
and our grandchildren would be exploring the frontiers of the 
universe.
    After Apollo 11 in 1969, Australian Prime Minister Jack 
Gordon put it very nicely, I thought, in his message which 
said, among other things--he ended up by saying, ``May the high 
courage and technical genius which made this achievement 
possible be so used in the future that mankind will live in a 
universe in which peace, self-expression, and the chance of 
dangerous adventure are available to all.'' What a wonderful 
dream.
    In the past 28 years, what has happened to that chance of 
dangerous adventure? Today the once rambunctious American 
spirit of innovation and adventure is being paralyzed by the 
desire for a risk-free society. Security and a risk-free 
existence have replaced opportunity and the chance of dangerous 
adventure as the goal of most Americans. What has happened to 
the sense of dedication, commitment, the stick-to-it-iveness; 
the spirit of adventure that made us great? Are we doomed to a 
future where our resources will be used only to feed our 
existence and never for dreaming and reaching?
    This country was established by risk takers. Without risk 
takers there would be no U.S. Constitution today. The 56 men 
who signed that amazing document knew they were risking death 
when they pledged their fortunes, their lives and their sacred 
honor to achieve independence. And this country was built by 
those who met a challenge and accepted the risk, not cautious 
nay-sayers, built by those who wanted to live, not simply 
exist. It's the Christopher Columbuses and the Neil Armstrongs 
who move us forward, not the Ralph Naders. With a Ralph Nader 
at the head of a wagon train we would never have made it across 
the plains and over the Rockies.
    Today we hear incessant talk of limits, usually expressed 
as a shortage of funds. Any grand aspirations we might have are 
at the mercy of political institutions: some of the most risk-
averse groups in our society. Our only real limits are those we 
place on ourselves. In a country which has survived many 
crises, none has been more important than the current crisis of 
will. Today we fail not because of our inability to do 
something, we fail because our unwillingness to tackle it in 
the first place. We are simply unwilling to take the risk.
    The Apollo program was a catalyst to education for a whole 
generation of students. The inspiration of another grand 
objective is as important to this generation as the successful 
implementation of Apollo was to America in the 1960's. But we 
have ducked such a commitment. And education has been on a 
downhill slide for years. We do a further disservice to today's 
students: our next generation of leaders. The relationship 
between challenge, risk and, responsibility and leadership is 
also being neglected. Leadership requires confidence in oneself 
before you can instill confidence in others.
    And how can you have self confidence if you have avoided 
risk all your life? I believe every generation has an 
obligation to take some risks, to raise society to some higher 
plateau, to free men's minds for a look at new worlds. The 
society which does not utilize its knowledge and capabilities 
to push back boundaries begins to decline and is replaced by 
those societies which do utilize their capabilities.
    A good example: at the height of its glory the Chinese 
fleet sailed for India 60 years prior to Columbus' search for 
India. The Emperor called the fleet back and burned it. China, 
to this day, has not returned to position as significant world 
power. America is at a crossroads. Are we to maintain our 
technological leadership and invest in our future or will mire 
ourselves solely in the problems of today and squander our 
future? The choice is ours. Let us acknowledge that the chance 
of dangerous adventure is a basic need of the human spirit, and 
commit this to a new grand challenge.
    In the next century no one will care how carefully and 
cautiously we survived the last third of the 20th Century. But 
they will celebrate our willingness to accept risk, to make a 
commitment to expand our universe and to change forever the way 
we looked at our world when we decided to land a man on the 
Moon. You and I cannot set foot on distant planets, but we can 
set our minds on the future, and, perhaps, return to a society 
where peace, self expression and the chance of dangerous 
adventure are available to all.
    I have taken the liberty of outlining a space policy that 
meets those needs. The full text is available to you, 
gentleman. But I summarize here just the principle points 
before I compete. America has lost the vision of its role in 
space. We have forgotten why we go into space and what benefits 
we derive from space exploration. For the past 35 years the 
space program has been a primary change engine for American 
technological advance. These advances have fed the private 
sector in their search for commercial applications and thereby 
added to our economic strength.
    What is desperately needed now is a clearly defined, easily 
understood and consistent policy for U.S. space activities. 
Point No. 1: preeminence in space as a national policy. 
Preeminence among the space faring nations of the world 
requires but one thing--that we decide to do it. This can only 
occur if it a matter of national policy. No. 2: a long range 
goal for NASA. A national space policy should encompass NASA, 
the private sector, and to some degree the Department of 
Defense. It should promote not only the exploration of the 
heavens but also the defense of America. NASA's long range goal 
should be no less then the exploration of our solar system. 
This goal bypasses the problem of repeatedly having to sell new 
starts. It embraces both manned and unmanned activities.
    No. 3: the space station is a good start. It's value, 
however, as an inspirational agent has been compromised by 
wavering commitment, dragged out funding, and turning it into a 
foreign policy program. No. 4: space funding--excuse me, I 
didn't finish with point No. 3. International partnerships 
should be based on substance, not appearance and not politics. 
And we shouldn't have to subsidize our partners.
    No. 4: space funding must be both adequate and predictable. 
Predictable Federal funding is essential if the private sector 
is expected to make future commitments and long range plans. 
NASA should stop overselling programs at their inception and 
Congress should be realistic about accepting the true cost of 
achievement and leadership. No. 5: space research and 
development is an investment. Space research and development 
funding is not in direct competition with entitlement programs. 
It is an investment which keeps America prosperous, and is 
vital, and enables us to support entitlement programs.
    No. 6: assured access to space through a balanced launch 
fleet. America should balance the access to space provided by 
the space shuttle with programs to develop expendable launch 
vehicles and a new heavy lift vehicle.
    No. 7: space and national defense. A national space program 
has a legitimate and vital role to play in the future defense 
of this Nation just as railroads, shipping and aviation did 
once they came into being. The overall military space program, 
per se should not be treated not as space policy issue but as a 
military defense issue.
    No. 8: cooperative ventures. One characteristic of U.S. 
leadership in space has been its openness to international 
cooperation. In the future, such cooperation should be based on 
equitable contribution as well as equitable return. It should 
capitalize on the unique strengths of each partner with each 
partner carrying his own load. No loss leaders. No. 9: strong 
leadership and clear priorities are required. A personal 
commitment from the President, whomever that may be, is 
paramount, but requires Congress for approval and funding.
    NASA, the private sector, and the Pentagon must be 
challenged to accomplish it. The program must be clearly 
communicated to the American people who must subscribe to it. 
Everything possible should be done to prevent space disasters. 
But we must be willing to persevere in spite of disasters and 
risks. Those are my nine points. I'll just finish by saying it 
is time for another leap forward for mankind. Commitment to any 
policy costs money. We are all aware of the current budget 
constraints. Congress, in meeting their obligation to the 
present should not forget their obligation to the future as 
well. Thank you.
    [The prepared statement of Mr. Cunningham follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.012
    
    [GRAPHIC] [TIFF OMITTED] 46559.013
    
    [GRAPHIC] [TIFF OMITTED] 46559.014
    
    [GRAPHIC] [TIFF OMITTED] 46559.015
    
    [GRAPHIC] [TIFF OMITTED] 46559.016
    
    [GRAPHIC] [TIFF OMITTED] 46559.017
    
    [GRAPHIC] [TIFF OMITTED] 46559.018
    
    [GRAPHIC] [TIFF OMITTED] 46559.019
    
    [GRAPHIC] [TIFF OMITTED] 46559.020
    
    [GRAPHIC] [TIFF OMITTED] 46559.021
    
    Mr. Hastert. Thank you, Mr. Cunningham. Mr. Howard.
    Mr. Howard. Thank you. It's a pleasure to be here. There's 
an old joke that many of you probably know which starts when a 
fellow arrives in heartland America and announces, ``I'm from 
the government. I'm here to help you.'' Not that funny of a 
joke, but you probably recognize it. I think it must be equally 
unsettling, though, here in Washington, when somebody arrives 
and says, ``Hi. I'm from Hollywood. I'm here to tell you what 
to do.'' So let me just start by saying that I really only come 
to offer my heartfelt opinions and a few reflections. I'm not a 
policymaker, certainly not an astronaut. And frankly, I'm 
humbled by the people that I share this panel with, and also 
exhilarated, I need to add, by the remarks and the wisdom 
already offered.
    So I'm not an expert. I just love this country. And I 
appreciate this opportunity to be able to throw in my 2 cents 
about our future, since it depends directly on the decisions 
that we made today and in the very near future. First, space 
has always fascinated me. And I will forever be awed by the 
unparalleled inspiration that went into the Apollo program and, 
for the record, also into the Mercury and Gemini programs.
    That inspiration moved me as a boy, and it still moves me 
today as a man. I grew up in an America that was ambitious, 
courageous, unafraid of the unknown, ready to take risks in the 
name of curiosity, discovery, knowledge, human progress, the 
thrill of victory, and the preservation of the Nation's 
security. Two of the men who made that happen, Messieurs Aldrin 
and Cunningham, are here beside me today. They sat atop the 
Saturn 5--mightiest rocket ever created--and were launched into 
space on a pillar of fire, more than 7 million pounds of 
thrust.
    That took courage and conviction, years of training, and 
hard work. It also took believing--a believing, dedicated, 
unafraid Nation. As many of you would imagine, I admire that 
achievement as much now as I did then. And this is part of the 
reason that I directed ``Apollo 13,'' the movie. Before I get 
into a few forward-looking thoughts let me just pause and tell 
you why that movie, ``Apollo 13,'' was produced by my partner, 
Brian Grazer, and myself.
    That movie, featuring the heroism of three astronauts, 
tireless and ingenious NASA personnel on the ground and 
thousands of determined Americans, represents the best that 
America as a Nation can bring forth. The seeming impossibility 
of landing a man safely on the Moon and returning him to Earth 
was fresh in the American mind when Apollo 13 was launched. 
Apollo 11 and man's first steps on another celestial body--the 
Moon--had occurred just 9 months earlier, in July 1969.
    Little did America know that Apollo 13, and the unforeseen 
explosion that rocked that little island in space, would call 
upon this great Nation to add impossibility to impossibility 
and bring human lives safely back against insurmountable odds. 
Every readout said that it couldn't be done, particularly in 
those first few hours. Every gauge spelled disaster, except the 
gauge of our national character. And in that single gauge 
America, those who knew and worked, those who supported Apollo 
and just prayed, found out who they were, found out who we as a 
Nation are.
    We are a Nation that does not give up, not on a dream, not 
on a single human being. And in that incredible conviction, so 
poignantly aired by Gene Kranz's prediction that this would be 
our finest hour, we again took stock of who we were as a 
people.
    Well, that was nearly 30 years ago now. And the reason I'm 
sitting here today before you is, I think, another crisis of 
sorts is upon us. Call it a slow motion Apollo 13.
    In 1997, we must again take stock of who we are as 
Americans. Apollo 11's plaque left by Buzz Aldrin and Neil 
Armstrong on that same Moon that you see up there every night 
says we, this Nation, reached out and touched that place for 
all mankind. All mankind means every nation. And it means the 
generations to come--my kids, your kids, their kids. And that's 
the real point.
    Today, we must see that space exploration, space 
development, space science, space medicine in our future both 
here on Earth and out there depends on the courage of our 
current convictions. And just as Apollo 7, 11 and 13 defined us 
as a Nation, so do the decisions before Congress and this 
Nation today. Apollo was a magnet that in the 1960's and 1970's 
pulled our best and brightest kids into the study of math, the 
rainbow of sciences and engineering. Industry and educators, 
parents and policymakers were all exhilarated by the long-term 
goals that were set beginning with President Kennedy's pledge 
to reach the Moon in a decade.
    And the benefits of that exhilaration are well beyond 
counting. The steep climb in education is why we all enjoy 
microwave ovens, personal computers, innumerable new medicines, 
electronic, avionic and basic mechanical advances. Our national 
security was preserved. Our commercial base and job 
opportunities widely expanded. Technologies which protect the 
environment and make for cleaner energy leaped ahead, and the 
sheer ripple effect propelled us forward.
    The real impact runs even deeper. Exploring space and the 
unknown is a human quest and an American dream. Without dreams 
we wither. The thrill of achievement is only a memory that you 
and I have as a generation which lived through Apollo, because 
we were well served by leaders who had the long-term in mind. 
Now we are the leaders, in a manner of speaking.
    Given the progress that we've made in space exploration 
since the Apollo era, historians, I believe, will hold that is 
was not simply curiosity, a pioneering spirit or a quest for 
scientific gain that carried us from the Earth to the Moon. But 
instead, in a political conflict, our country, motivated by 
patriotism and a dose of national fear, came from behind and 
prevailed in a space race. It's a great triumph, to be sure, 
but hardly the primary we would like to assign that great leap 
forward.
    Somehow without the political threat hanging over our 
heads, our national appetite for exploration has been curbed. 
And that is a shame. Because I believe that the leaders who had 
the vision and the foresight to fuel our early space programs 
had it right. The future still belongs to those who will dare 
to succeed and continue succeeding in space. I'm of the mind 
that curiosity is not merely a human quality but is, in fact, 
an instinct which drives us. Human exploration of space has 
begun. People are going to explore the galaxies and make untold 
discoveries and gains in the process.
    And as a patriot I hope our legacy will be that the United 
States of America took that lead in space and never looked 
back, that we grew and learned and excelled not out of fear but 
for the betterment of humankind. Now, that legacy is ours. 
We've earned it. These astronauts and thousands of others 
working with them have dedicated their lives to putting us into 
that position. The legacy will be ours if we are willing to 
reach for it.
    To quietly take the position that given our stature at the 
moment we can always reassert ourselves in the area of space 
exploration if and when it becomes politically more pressing or 
necessary, that is an assumption perhaps bordering on arrogance 
that I hope we don't indulge in. Wouldn't it be tragic if our 
program somehow became an odd, ironic footnote when the story 
of mankind's movement into space is written, when we could have 
been pivotal players.
    Now, you all are Members of Congress and hold the Nation's 
future, our future in space and the opportunity for progress 
and greatness in this realm in your hands. I come from an 
industry that dreams for a living. Together, we must, for our 
kids and our Nation's long-term future, think big. We have to 
embrace renewed discussion of a mission to Mars and a permanent 
human settlement on the Moon. We have to tell the Nation about 
the incredible discoveries that have already come out of the 83 
shuttle missions. This year alone we'll get four new 
inoculations from a 1988 shuttle experiment and we'll save more 
than $1 billion in medical costs alone from a revolutionary 
breast cancer detection technology made possible by the shuttle 
program's imaging research.
    There are hundreds of stories like that one. And they call 
on us not to give up, indeed to dig down, read that gauge 
again, that gauge of our national character. ``Apollo 13'' is 
just a movie. And of course, lest we forget, it's a movie of an 
extraordinary real life mission. And that was just one mission. 
But the messages that James Lovell, Jack Swigert and Fred Haise 
sent to us should reverberate down through the ages. And it's 
been almost an age since they sent it.
    The message is this: When you next look up into the night 
sky, don't just see the past and sigh about the risk and the 
grandeur of what we did up there, instead, look again and see 
the future, see the importance of investing in, thinking and 
talking about, living and learning from the great place that we 
call space. My hope is that this hearing is the start of 
something really big, the start of an American reawakening 
about the magnificence and calling of space.
    My hope is that here in Washington and out there in homes 
of those who see or learn about this hearing, that there will 
be a new resolve to see in the night sky the faces of our 
children, the silent call of those who would have the benefit 
of prideful memories and discoveries from space just as we 
have. What I hope these thoughts trigger, if nothing more, is a 
serious rethinking about the terrible and wonderful 
significance of space. For all mankind, we as Americans have a 
destiny. It is a wonderful destiny, one that I know many of you 
believe in, one that the men on my right have risked all for, 
one that I tried to capture in ``Apollo 13,'' the movie. And 
now I hope that we may be able to reach together to reawaken 
America and to fulfill. Thank you for inviting me.
    Mr. Hastert. Thank you, Mr. Howard. At this time, Dr. 
Musgrave.
    Mr. Musgrave. Thank you very much, Mr. Chairman, for 
inviting me to this grand hearing in a really grand setting. 
I've had the privilege. And it's an incredible privilege of 
having been an astronaut for 30 years--space is my calling, 
it's what I am, it's what I do. As most of you know, I'm an 
incredible romantic and idealist. And so I have some ideas 
which may be a little divergent from others'. I am considered--
I see Walt smiling--I'm considered to be organizationally and 
politically naive. And maybe that's to an advantage in a place 
like this.
    But I've had the privilege of living the things that space 
are: exploration, discovery, brand new kinds of science that 
increase the knowledge of the universe and ourselves, to see 
and to develop some of the grandest technologies, to look down 
upon Earth, to communicate the vision of our home from out 
there, to help to instill a spirit of stewardship of our home 
is space, of Earth, to help to stimulate ecological issues, to 
learn all the time, to be exposed to the heat of the kitchen 
where performance is the bottom line day after day, both on a 
personal basis but also as an example of life long learning and 
education, to go out and talk to people, to talk to kids, to 
show them what education is all about, show them what it can 
do, show them how what we do in space is an entry point for 
their learning principles in the classroom.
    I've had the extraordinary privilege of representing you 
all in space. There's millions of people that could have done 
this. Every time the door opened I put my foot in it. And I 
lived this thing to the greatest extent. And I gave all I could 
to this. But it's an incredible privilege to help humanity see 
what this incredible cosmos, this universe, this Earth, the 
planets, the stars and everything else is all about. Space 
flight is such a neat thing because it bridges all kinds of 
disciplines, the kinds of things that the telescope is showing 
us and all the other grand observatories, and the satellites 
that look at planets and the Earth.
    They're not maybe quite powerful enough to yet, but if you 
look at Hubble images and others, we're tending to ridge that 
gap now between astronomy and philosophy, between cosmology and 
theology. Those are incredibly important things because they 
touch even at the elementary school level. They help to show us 
our universe. They help to show us as human what our place is 
in the universe. They help to show us--which is extraordinary 
important--what it means to be human.
    Thanks in part to what we do in space, we are becoming 
global creatures, not just people of a certain town, a certain 
State, a certain Nation. I think it has helped to globalize the 
culture and humanity. As we push on into space we become solar 
system creatures and eventually universal creatures. We will 
think about, we will have a feel, we will have a geometric 
sense of where we are in the universe. And I think that will 
better our value system if we think of ourselves as a universal 
culture.
    I think a space program, in the long-term distance, will 
help to guide us a as a species--a species ethic. I have a wish 
list, as naive as it may be, for what we ought to do--five 
things in the future of space, five actions which if you were 
to give me a wish list what would I like to see happen. No. 1 
is low cost access to space. We've been into space for about 40 
years now, and we have made no headway at all in terms of 
reducing the costs of space flight. I've got to put that as the 
No. 1 priority. All of the fantastic potential and the dreams 
which Buzz so eloquently set forth, they can only happen if we 
reduce the cost.
    We can't launch a bunch of telescopes and we can't get 
interprivatization, commercialization, studies of the Earth. 
Cost of space flight is the basic common denominator which is 
going to allow everything else to happen. It will allow space, 
in ways, to pay for itself. It will make all those things which 
Buzz set forth as potentials for future space flight. They can 
only happen if you reduce the cost of space flight.
    I've never worked in Washington. I've never, you know, been 
at that level. I have been in the trenches for 30 years. And so 
I'm not sure how to implement this. But if I was where you were 
I would establish the mandate for lowering the cost of space 
flight as the No. 1 priority of space. At some level I would 
force NASA and DOD, the contractors, the industry and the 
commercial and private sectors who want to use space and who 
are driven by the market, to get together--and I would give 
them a mandate. And there is only one bottom line. And that is: 
lower the cost of space flight. I would not specify to them 
that it has to be a single stage or a two-stage or a multi-
stage.
    I would leave the best thinkers in the business to come up 
with the right solution, the most simple and elegant technology 
to get that job done. Most of the conversation we've been 
talking about here today is from the 60's, from what you call 
the golden era of space. There's a reason for that--is that we 
had an extraordinary hard line task to do. And that is, go to 
the Moon. Going to the Moon defined the way we did business.
    We had to get there in 8 years. And we were told to do 
that. And we went and we did that. In 8 years we launched four 
programs--Mercury, Gemini, Apollo--and we were well on our way 
to a hugely successful space station program, and we did that 
within a decade. Because we had a mandate to go do it. And we 
only had one line. We had one statement at the bottom line: to 
the Moon and back in this decade.
    That harnessed our energies. It focused our efforts. That 
bottom line built the entire structure. It built our 
organization and the way we did business. I think if we have a 
single hard line and you made us go do it in the near term, 
NASA does have some very, very high tech ideas, technological 
development, very futuristic ideas. But the technological 
challenge is absolutely immense. It is very, very speculative. 
And we may get into a very, very long-term technological 
development process and we may find out that we can't get there 
that way. And then we will band-aid that and back off into 
something else.
    I would like to see a hard bottom line that says, everyone 
go out there: low cost to space in roughly about 5 years, not 
15 and not 20. And it's totally reasonable. Kennedy says, go to 
the Moon. The same year we launched a Saturn. The programs back 
then were 2 or 3 year programs. And I'll get to that a little 
later. I think that is the highest priority we have--is 
reducing the cost of space flight.
    No. 2: I think we ought to examine the way we do business. 
I think we need to confess to ourselves what our victories are 
and what our failures are, what we're good at and what we're 
not so good at. I think we need to be extraordinary hard-nosed 
realists about how we are really doing. A space station should 
not take 20 years. It took 10 years to launch four programs in 
the 1960's. If we want to do a space station in 5 years we need 
to get the will and the courage, and we simply need a deadline; 
and put it on paper and go do it.
    I think to do all the things here that Buzz, that Walt and 
that Ron put forward, I think the bottom line says just simply 
get on with it. Get on with low cost to space. Get on with the 
station. And do it. When you all gave us the privilege such as, 
go to a space station, and you say you're going to support it 
and you let us embark on that initiative, we need to go do it 
and we need to have hardware in orbit within 4 or 5 years.
    It's a perfectly reasonable thing to do. It's only a matter 
of setting ourselves a hard standard and living with it. And I 
think the approach--even though I won't spend that many details 
on it--the approach ought to be: come up with a simple, 
elegant, beautiful flying machine. Start there. Do not expect 
the design to evolve from 20,000 users. Come up with the best 
possible beautiful machine within 1 year, as a concept. Spend 1 
other year modifying that to meet the major users.
    Spend 1 other year to get to a critical design. And then 
next year, 4 years later, start budget hardware. Just like we 
marched in the old days, there's no reason why you can't flow 
the decisions. You start with critical decisions that cascade 
into other places. You attach names and dates and you start 
marching around that flow chart that's around the room. We 
simply get on with it. That was No. 2.
    No. 3, I would like to see a start embarking on what the 
human program will be beyond the space shuttle. I think we need 
to start on that now. I would like to see us have simple, 
elegant human machines like a reusable capsule, which is 
totally forgiving. It is low-tech. We already have the 
technology to do that. It is totally capable. And it has high 
margins in terms of reserves and other kinds of capabilities. 
I'm not saying that is the way to go. But I'd say we should not 
forget some of that grand technology.
    We need to include that in our thinking about what we ought 
to be doing, because the technology is great. The capability is 
there. And it's cheap. And we know how to do that today. We 
ought to include that kind of thing in our thinking.
    No. 4: I would like to see--evaluate our priorities in 
terms of how many resources we are spending to reach the 
quest--the far our things which Buzz and Walt alluded to--and 
how many resources are in Earth orbital programs. I would like 
to see human programs which do not devour our entire space 
effort. We need human programs that we fly humans to when we 
need humans in space. But we don't have to fly humans when we 
don't need to fly humans. And a reusable capsule is one way to 
approach that. A specific payload module could be another part 
of the thing. You fly a specific payload module. That's more 
details than we need to get into here.
    But I would like to see us pursue--the way to guarantee 
human space flight is to have a human space program that does 
not devour all of our resources. Another point is our 
collaboration which Walt mentioned. Our collaboration with 
partners is essential. We do need to collaborate. I love the 
partners that we have. But we need to do intelligent, creative 
partnering. We need to look at our strengths and our 
weaknesses, and we need to optimize how we collaborate and how 
we do partnership.
    We do not want to go into massive programs and try to weld 
cultures--how to weld different cultures, weld different 
technologies and weld ourselves together--it does not serve 
either of us or serve space flight. Partnering needs to be very 
creative and very intelligent. And it needs to be very 
selective.
    My last point is, is that there is huge grass roots support 
out there. The Congress has supported space flight incredibly 
for the last 35 or 40 years. We thank you for all that support. 
It has been absolutely loads of support. With all I do out 
there with the media but also out there hands on with the 
kids--yesterday I met with 500 high risk underprivileged kids. 
And I told them about space. I mixed it up with them. They do 
not consider themselves apart from the space program--or the 
support of them. The safety net from them is in competition 
with space because they want to do Buzz's dreams.
    They want to be part of that. They don't want that to go 
away. That is their hope. That is their future. It's their 
science. It's their technology. There is huge grass roots 
people support for space. But such as to not let them down, I 
think the key thing that we are doing in the space industry is 
we have got to get on with it. We've got to simply do it. It 
doesn't mean it is any less in terms of its capabilities or its 
qualities. We've simply got to, when we get the initiative and 
the resource to do something, we've got to get on with it. 
Thank you.
    Mr. Hastert. Thank you very much. And thank all our 
panelists. Very enlightening. I think some great vision for us 
to focus on. First I would like to allow 5 minutes to Mr. 
Souder, from Indiana, to ask questions.
    Mr. Souder. First I just wanted to clarify for the record 
with Mr. Aldrin. You weren't claiming to be the role model for 
Buzz Lightyear, were you?
    Mr. Aldrin. I was told they surveyed names and they looked 
on a typical one, a catchy one. And I'm happy about the choice.
    Mr. Souder. They picked Buzz, right? And Dr. Musgrave, to 
start with yours because it related to some of the others, are 
you suggesting that currently we have too many missions 
regarding NASA and can't do any of them with enough funds to 
back it up, given the limited budget?
    Mr. Musgrave. I don't work in Washington, sir, and I don't 
work the budget. And you know, I'm coming from here looking up. 
I do not think it's a matter of resources. We said this station 
is going to cost $8.4 million back in 1984. By next year--
1998--we will have spent $20 billion in 14 years. And there is 
not a single nut or a screw in orbit. If we simply get on with 
things in a logical fashion in which we set hard decisions, 
dates on the decisions and attach names to those decisions and 
make it happen, that is the answer.
    Mr. Souder. One of the problems--and at least of those of 
you who have been in space--Mr. Aldrin started out by saying, 
had this happened or this happened or this happened you would 
still be on the Moon. One of the problems that we have when we 
get into defense contracting--for example ITT Aerospace is in 
my district with a number of plants. They have to make radios 
that actually outlast their operators. In other words, they put 
so much into making it perfect because of what Mr. Cunningham--
and I hesitate to say Mr. Cunningham; by Mr. Cunningham, I mean 
this Mr. Cunning-ham--that you said we're risk averse. And 
that's the cost of a lot of these products.
    In other words, people look at it and say, well, we could 
do that for a lot less. We could build a hammer for less than 
$700. But you can't custom make a hammer that survives in all 
sorts of temperatures and all sorts of things with no risk. 
What tradeoff, as people who have been out there in space, 
would you be willing to make in the safety versus the risk if 
that achieves some of your low cost objectives?
    Mr. Cunningham. Well, I believe that, as we look at space--
--
    Mr. Hastert. Would you please? It's kind of noisy. If you'd 
pull that up closer I think it would be helpful.
    Mr. Cunningham. OK. As we look at space--and I'll restrict 
my remarks to that--we need to, all of us, acknowledge that 
there are gains to be made through the utilization of space--
No. 1. No. 2: there always will be risks in space flight. It's 
the most--probably the most dangerous environment that man has 
ever gone into. So we know there is always going to be risks 
there.
    These risks--and we're not going to be able to reduce them 
to zero--but at some level they can be acceptable relative to 
the potential gains from it. And we ought to reduce those 
inherent risks as much as we can, and then get on with the job, 
as Story says. Now, I don't believe it can be zero. But the 
problem that I was addressing is that in our society today, 
everybody is being raised to think that no risk is acceptable. 
So how can you come to an intelligent assessment of what is 
acceptable. I mean, no risk seems to be the rule of the day.
    Now, we also have things to learn about risk. And we have 
learned over the years--I don't think I'm the only one up here 
that would say--if we look at the Russian space program, 
they've accomplished a tremendous amount with equipment that I 
would certainly consider much less sophisticated than we have. 
I don't endorse all of the things that they do. And I think 
there are some problems. But we have learned along the way that 
you don't have to have so many belts and suspenders as we have. 
We're seeing it right now in the Mir Space Station. And you can 
still get by and you can still have some safety.
    Mr. Souder. That's especially meaningful given you were 
backup on Apollo 1. And certainly the Challenger and the other 
things that occurred have, in a sense, scared the American 
people. And it's so visible when there is a failure that there 
is a fear that the budget will evaporate. It's on national and 
international TV day after day when there's an accident.
    Mr. Cunningham. I would like to say something about that. 
Because as I think back on it. The risks always seem to be 
bigger to those outside of the program. I don't recall--I think 
it was about 3 weeks after the Apollo 1 fire, that our backup 
crew was promoted to the prime crew for the next mission. And 
other than a reasonable engineering judgment about having to 
fix a lot of things--and we didn't even know what they were--I 
don't recall ever having concern that there was going to be 
some untoward risk. I knew that we were going to do the best 
job that we could. It was part of what went with the job. And I 
don't remember ever spending 1 60-second minute stopping and 
thinking about it.
    But today every time something happens there is that 
concern. And for example, after the Challenger accident, I 
personally was concerned that Congress would find that too 
discouraging even to keep funding some of these programs. And 
we shouldn't. The very price of progress is risk. And I don't 
want to seem callous about human life. But lives are given up 
for progress every day.
    Mr. Hastert. Some of our members would like to ask another 
round of questions. And we'll do that. Mr. Portman from Ohio.
    Mr. Portman. Thank you, Mr. Chairman. And thanks for the 
inspirational message from all of you. It was great to hear 
from each of you as to your perspectives. And I'm getting a 
little pumped up about the space program here. I've 
traditionally been more of a deficit hawk on all programs 
including the space station as an example, Dr. Musgrave. And 
I've not been able to support that for some of the reasons that 
you've outlined. But I probably come here as a lot of 
Americans, having enjoyed Mr. Howard's movie immensely, and 
having grown up watching Buzz Aldrin and my constituent, Neil 
Armstrong--and want to see it done in a way that's cost 
effective and continues to be inspirational, particularly to 
our younger generation.
    Dr. Weldon has the Kennedy Space Center as his constituent. 
I have Neil Armstrong as my constituent. And I really 
appreciate it, Buzz, your talk with me earlier and your remarks 
today. My question to the whole panel--and I will direct it to 
everyone, but sort of building on what Dr. Musgrave was talking 
about--is how can we, in an era of balanced budgets--I remember 
in 1969, the space program really got underway after the 1961 
inspiration with regard to Apollo 11, we had a balanced budget. 
I think we actually had a little surplus that year. And now 
we're $3 trillion in debt at last count and running annual 
deficits.
    On the cost-effective side of it, I couldn't agree with you 
more in terms of really saving the program. In other words, if 
it's not cost effective I don't think we will have the kind of 
grass roots support that you're talking about. Do you have some 
specific priorities, Mr. Cunningham, Mr. Aldrin, Ron Howard, 
that you think are the top priorities that we ought to focus 
on? You talked about some about the various programs and gave 
us a nice laundry list. How would you prioritize those?
    Mr. Aldrin. I think reusability in our launch systems is 
primary. And I think affordability and reasonableness. We 
designed, finally, a shuttle system after several compromises. 
And it didn't quite live up to our expectations. The space 
station, as Story pointed out, was going to cost a lot less, 
going to be completed sooner, and it didn't live quite up to 
our expectations. And the national aerospace plane is no longer 
really a project. I think we should have a little caution about 
how we chart the course and what we expect out of the next 
commitment that we make. We should make sure that it's within 
our grasp. And most toward--I just don't think the American 
people are going to want to see us not quite make our objective 
the next time.
    Mr. Portman. Was one of the problems--and I know there are 
lots of issues. I don't want to get into the space station too 
much. But in a general sense, in terms of cost effectiveness--
Mr. Cunningham talked about international partners and the 
degree to which we should be subsidizing them. I think you said 
that we need to set up a deal that's tough in advance, and not 
subsidize our international partners.
    And some of you have touched on the issue, I think, 
indirectly, of the politics here. In other words, with the 
space station here, you might have different constituencies out 
there in different Members' districts--that Mr. Cunningham, in 
your comments you were saying that shouldn't be a factor, we 
should do this on the basis of the merits. And Dr. Musgrave was 
saying let's get on with it and do the right thing with our 
private sector partners. Is that part of the problem generally?
    Mr. Cunningham. Well, I think over the years--I can recall 
back in the days of Apollo, one of the things that they were 
looking for was to try to make that there was some contractor 
in every state of union, because it could grab the interest of 
the Congressman. I believe that that is--while that may be 
politically the right thing to do--I don't believe that that is 
economically or even on principle the right thing to do.
    You asked a question about the budget and how do we do 
these things. If you look back over the budget--and in my 
proposed policy I make the comment that the Federal budget has 
gone up by 165 percent in the last 30 years and the NASA budget 
has gone down by 50 percent in terms of real dollars. So you're 
tying to get more and more for less and less, is one of the 
things. Second, if you take a look at the budget for the last 
30 years spread out here broken down by national defense, 
general science, mandatory payments, interest and then other 
domestic programs, it's pretty simple to see that the only 
monetonically increasing function is other domestic programs 
over the last 30 years, being paid for out of the hides of the 
rest of categories, and most notably national defense, which--I 
object to that, as well. And the general science in space 
category has gone down until you almost can't see it on this 
particular chart.
    Another specific suggestion I might make is that when you 
find that through a recalculation that the tax revenues are 
going to go up over the next 5 years be $225 billion, that you 
contribute some of that, you find some ways of using that for 
something other than just additional entitlement programs.
    Mr. Portman. I see my time is up. Let me just make one 
final comment. Maybe Dr. Musgrave or Mr. Howard could respond 
to. You started, Dr. Musgrave, saying that you are naive about 
politics and government.
    Mr. Musgrave. Yes.
    Mr. Portman. Let me suggest this morning that you may be 
least naive of all of us by focusing, again, on the cost 
effective issue here as your first priority. And then really 
down the list I think all of your priorities were on target in 
terms of the political reality that we face. Do you have any 
comments on my earlier question?
    Mr. Musgrave. No, I don't, sir. I think that will let space 
open up. That will let space get privatized. And that will let 
the commercial sector--that will let it become market driven. I 
don't know exactly what the forces are. In terms of launch 
capability, the United States is only launching 25 percent of 
commercial satellites. We used to do 100 percent. And I don't 
know exactly what is going on. Right know there are satellites 
waiting to be launched and there is no launch vehicle to get on 
this.
    It came out in the space Congress in Cocoa Beach last week. 
This satellite is waiting to go and there is no launch vehicle 
anywhere in the world to do that job. I do not know why the 
market has not driven the large aerospace companies to come up 
with on their own--with a launch vehicle. And since that has 
not happened, I think we, the government, needs to take the 
lead. Once we have those vehicles, we can hand it over to 
industry.
    Mr. Howard. If I could add, just to kind of again--being 
kind of a simplistic point--but, you know, coming from a 
business that is always trying to sell sort of simple ideas 
that people can grasp and decide to embrace--a movie idea, a 
television show and so forth--one of the things that we talked 
about a lot when we were making ``Apollo 13'' and talking about 
the space program and our love of it and its hope for the 
future and so forth, one of the things that was discussed was 
that in sort of a public relations tactic and strategy it might 
be valuable to actually come up with two lists: one, as I 
mentioned in my comments, sort of a list of things that we 
really have gained. And actually try to put a number on that, 
try to come up with some calculation that says, this has 
generated X-number of dollars for our economy. This is what we 
estimate.
    Here's probably what it cost to generate the technology. 
And then, second would be to say, here are our projects--and 
whether it's the station, whether it's going to Mars, whatever 
that objective--as you're saying, the objective that wants to 
be set and established--to actually come up with a list of 
three or four key objectives, knowing that sort of broad 
science is a part of it, and there are going to be discoveries 
that nobody can quite calculate. But come up with a handful of 
objectives and project the same kind of numbers to them, so 
you're actually saying to the people, here's what it has cost, 
but look. If it's actually like what we were able to generate 
out of the Apollo era with the technologies and the shuttle era 
and so forth, look how much we stand to gain on a military 
level, on a security level, on a business level, in terms of 
living, lifestyle.
    Mr. Portman. Sounds like the boys in Washington, doesn't 
he? It's got a pretty good----
    Mr. Musgrave. We've got to continue to touch people too. 
Not just their intellect and the numbers, but you're got to 
touch them right down here. And not just in the visual. And 
space flight does that. Images and the kind of stuff. And 
shedding light on people's place in the universe.
    Mr. Portman. And you all have done that this morning very 
effectively.
    Mr. Hastert. Thank the gentleman from Ohio. And I know you 
have another engagement and you have to leave us. But thanks 
for being with us this morning. At this time I'd like to turn 
to Dr. Weldon, from Florida.
    Mr. Weldon. I thank the chairman. And I, too, also want to 
thank all of the panelists. This has really been very enjoyable 
for me. And I could really sit here all day and talk space with 
you. Let me begin, though, by asking Mr. Howard--you know, I 
saw ``Apollo 13.'' It was a great movie. I took my daughter. 
And needless to say it was a big hit on the space coast of 
Florida, where I hail from. But I don't follow the trade press 
when it comes to Hollywood movies. Was that movie a big hit or 
a medium hit? What would you say it was overall? You don't have 
to give me numbers or anything like that.
    Mr. Howard. It was a huge hit.
    Mr. Weldon. A huge hit.
    Mr. Howard. World-wide.
    Mr. Weldon. World-wide? Is that right?
    Mr. Howard. My most successful film to date by double--
double any film in terms of just ticket sales and revenues.
    Mr. Weldon. Well, that's fascinating to hear that. So it 
was very popular in Asia and Europe and other places?
    Mr. Howard. Very.
    Mr. Weldon. Because I remember during that crisis of Apollo 
13 how they were actually praying for the astronauts in the 
Vatican. And I think the Pope had the Italian people praying. 
So I could readily see how it could have a huge worldwide 
appeal.
    Mr. Howard. There's also--you know, we did a lot of 
international publicity for it. And you know, while there might 
be a degree of cynicism always expressed about America from 
journalists abroad, when it came to the subject of the space 
program, they were absolutely fascinated and continued to be--
the vast majority of journalists that I spoke to--inspired by 
it. And you know, I think their sense is that it's one of the 
great accomplishments that America has offered. And you know, 
they're fairly dubious about America in other areas and other 
ways. But here's one that pretty much everybody seems to agree 
was a great, great accomplishment.
    Mr. Weldon. Did you get any feedback in terms of the impact 
it had on children? You know, if we're going to talk about 
man's future in space, we have to talk about kids and 
education. Because if we are going to go to Mars and we are 
going to go onto other solar systems, it's going to be the 
children. And I know my daughter very much enjoyed the movie. 
And she's still in grade school.
    Mr. Howard. Well, you know, I was very pleasantly surprised 
by the way children responded to the movie. And I didn't 
necessarily expect that. I initially went in to the film 
thinking it was more or less a historic drama, a kind of a 
techno-thriller. And I'd always been a great proponent of the 
space program and followed it. But I didn't really understand 
and still don't pretend to, honestly--but I didn't really 
understand that monumental endeavor that the space program 
represents, the years and years of diligent, focused work.
    And if I could add one thing about the astronauts that I 
met and actually worked with in trying to understand the 
mission and research the mission, all men well into their 60's 
as I was working with them. And the comment that we all had was 
that they shared one thing: an unbelievable passion and 
intellectual endurance. I mean, when you sat down and started 
talking about these missions, we could go on until 2 or 3 a.m., 
and the 30-year old guys were burned out and the 65-year old 
guys were ready to talk some more and understand and explain.
    And there's something very stimulating about that. And I 
think that I tried to get that feeling into the movie. And to 
answer your question, I was very pleasantly surprised by the 
way younger audience members responded to it, not just in terms 
of box office, but in terms of the letters, the way the film 
has been used to teach not only the history of the space 
program but also physics and basic science in schools. So I 
think, for that moment, I think the film helped stimulate 
people's imaginations.
    Mr. Weldon. Well, I'm glad to hear you talk about that 
passion issue. Because I know I see a lot of that in my 
district. A lot of those men and women who worked in the space 
program, they're still excited, they still want to go back to 
Mars. In closing, I'd just like to open it up to the other 
panelists. Can we really put a dollar value on these kinds of 
things? You know, when we start talking about going back to the 
Moon and going to Mars, I'm very well versed as a physician 
with the medical spinoffs and the impact that that's had on 
improving people's health and the material science 
breakthroughs that have occurred. But just in the impact that 
it has had in the hearts and the minds and the passions of 
people, and particularly our young people, is it right for men 
and women in Congress to always be putting a dollar value on 
this program? I think not. I think it's our future.
    Mr. Cunningham. I think you can put a dollar value on many 
of things such as the statistic that Ron has already mentioned. 
But whatever you come up with in a dollar value it's going to 
be greatly undervalued because you're not going to be able to 
appraise what it does for the indomitable human spirit, what it 
does for education.
    I'm involved with the organization called Space America 
Foundation. And we are preparing lesson plans and trying to get 
a series of--for science and chemistry and a variety of courses 
in the texts of schools that uses about 30 video tapes from the 
space program. The lesson ties in physics, mathematics and you 
name it. And there's great enthusiasm from both the students 
and the teachers from being able to use examples from the space 
program in their lesson plans for their teaching. So, it's a 
tremendous motivation.
    Mr. Musgrave. If we just look beyond that curtain there 
you'll see what's going on. It's right there.
    Mr. Aldrin. You talk about trying to get a monetary value. 
People can estimate what the Apollo program cost us. But what 
I've learned in the last 27 years is that when I speak to 
people sooner or later there's almost a compulsion for them to 
tell me where they were when Neil and I walked on the Moon. And 
I'm trying to understand what that means. To me it means that 
they value not the rocks that they brought back or what they 
said, but what happened in their lives. Something happened that 
caused them to remember in a very positive, a very satisfying 
way, a particular moment. And I just stimulate the recalling of 
that. And that's valuable to them. How do you put a dollar sign 
on that when you multiply it by millions of people around the 
world. I look forward to the year----
    Mr. Weldon. Do you want me to tell you where I was?
    Mr. Aldrin. I'm trying to remember where everyone was, 
Congressman. When I look at the year 2030 I think there are 
going to be people alive that are going to cherish the moment 
and the sense of value that they experienced in their lives by 
seeing a nation step up and make a commitment shortly after the 
turn of the century to establish a foot-hold on Mars and see 
that grow.
    In 2030 they're going to say, this started out with five 
people, seven, and it's now grown. We have 25 people thriving 
on the surface of Mars. And this is being supported 
internationally. Think of all the things that will come from 
the nations of the world dedicating themselves to the survival 
and the improvement of that small growing community. If the 
asteroid comes and blows us all up, that may be the future of 
humanity. And don't think that's--sooner or later a responsible 
society needs to guarantee their own survival. And survival, I 
think, takes an advanced, stimulating spirit of humanity. And 
that's what the space program is all about. It's not the 
balance sheet, what we get out of it in terms of dollars.
    Mr. Weldon. Thank you.
    Mr. Hastert. I thank the gentleman from Florida. We'll come 
back to some more questions from this panel. First of all, Dr. 
Aldrin, a couple of things. You talked about the--and let me 
just say that this is an interesting hearing we're having. 
Usually we're looking into the problems in government and 
somebody breaking the laws and where dollars are misspent and 
all these types of things. In a sense, you bring us today some 
vision that we don't usually get to look at and luxuriate. And 
really, for a backdrop for where we go in the future as 
politicians and Members of Congress and just the nature of our 
work, we don't do the vision thing enough to use as a backdrop 
of where we've been, and what steps we need to take to get 
there.
    So, I think this is a very, very good exercise for us. And 
I really appreciate your time in helping us do this. Dr. 
Aldrin, you talked about the Star Booster approach based on the 
use of existing hardware. Please tell us about that briefly.
    Mr. Aldrin. I believe we need a rugged, resilient approach 
to access to space, to bringing down the cost of that. And I 
think that's best done by a multi-stage vehicle and using 
something that exists and then making it reusable. The Boeing 
Co. has recently embarked on a sea launch program. And they've 
chosen for their rocket not an American rocket, not a French 
rocket, but a Russian rocket--Ukrainian rocket, really.
    It's in, I think, the first stage, with an airplane wrapped 
around it called a Star Booster--has multiple applications--
first stage with a reusable upper stage or a capsule on top of 
engines and tanks. As Story mentioned, we can put payloads on 
top of that. Then that can be strapped three or four of them 
around a core stage, like the external tank on the shuttle, and 
now we've got the hotel in space for the tourists to go to. And 
that hotel in space needs the same booster that it takes to go 
to the Moon and Mars. I think the public support will be behind 
the reusable spacecraft and rocket systems that will help them 
get access to space.
    Mr. Hastert. You peaked my interest when you were talking 
about solar energy. I happen to sit on another committee on 
energy and commerce issues. One of the things that we're 
talking about--again, in the 60's and 70's we were talking 
about nuclear energy and it was going to be for the future and 
electricity was going to be too cheap to meter. And today, 
we'll probably not build another nuclear reactor in this 
country. You talk about solar energy. How does that work and 
how do we bring it to Earth?
    Mr. Aldrin. I think in later panels--I know for a fact that 
we have experts who can tell you how to harness the energy of 
the Sun and solar in a better way than on the surface of the 
Earth. And then solar panels in space direct energy to where 
it's needed on the Earth. Some of the economies of beaming this 
energy from the distance of the Moon using lunar resources to 
do this prove to be a superior economic approach to doing this.
    Mr. Hastert. Dr. Musgrave, you talk about why we haven't 
been able to step up to the plate, so to speak, and take the 
risk and why the private sector hasn't done that. And certainly 
somebody from government--I've come out of the private sector 
originally--shouldn't be pointing fingers at the private 
sector, but I would suggest that probably as long as the 
Federal Government was going to take the economic risk and 
build the equipment and do the research and be involved--
unfortunately we get bogged down in the bureaucracy of the 
system where the private sector doesn't. Also, it costs us much 
more to do it. But as long as we're willing to do it, the 
private sector is not going to take that risk. You want to talk 
about that a little bit just in your viewpoint?
    Mr. Musgrave. You're probably right, sir. But since, in 35 
or 40 years it hasn't happened and our entire space program and 
infrastructure depends upon that I think that we ought to do 
it.
    Mr. Hastert. That the government ought to do it?
    Mr. Musgrave. Yes, sir.
    Mr. Cunningham. If I may answer that a little bit?
    Mr. Hastert. Sure.
    Mr. Cunningham. I'm a venture capitalist. It's what I do 
for a living. Invest in early stage companies getting started. 
I can assure you that when there is a profit to be made in 
space that private enterprise will certainly by willing to come 
in and make a profit. It can't be forced. It can't be able to 
look like it's a phony deal and there really is no profit in 
it. So, I take a slightly different perspective that maybe the 
only way that it's ever going to be able to get private 
enterprise involved in it is to have the infrastructure 
established by governmental bodies in one place or another.
    Whether that's the cost of transportation, which is the key 
to making a profit in space, or whether it's establishing power 
systems in orbit that you then can plug into if you send your 
own satellites up and the like. But I don't believe that 
private enterprise--and I see all these deals that come down 
the pike--are not going to do it in space until there is a 
profit to be made in space.
    Mr. Hastert. Mr. Howard, I just want to say I also enjoyed 
your movie. I happened to watch it at 40,000 feet halfway 
across the Pacific. It gave me a little bit of consternation 
from time to time. I wondered how do you get down from there? 
But let me ask you--and, again, from somebody who is out of the 
government sector--but when you make a movie you have a goal 
and you have so much money to make it, and you have a time 
line. And the longer that time line stretches out, most of our 
people here who have been very much involved in space say, just 
do it. Is that the attitude that you kind of take with a movie 
that if you stretched it out too long you can't afford to do 
it?
    Mr. Howard. Well, yes. You know, it's a much different 
situation because the film distributor is making an investment 
in a specific project. But that film distributor has a need. 
And that need is movies or television shows.
    Mr. Hastert. To have a product.
    Mr. Howard. And so the real question is going to be not so 
much will they have the movie. Certainly they're going to 
decide on movies. How much do they want to spend on each 
individual one? And will that film return? And for that reason 
there is always--that's why it's such an impossible business to 
predict. And it's so maddening for people who get into it as a 
business, even though companies grown and make profits.
    Movie making--everybody sort of imagines that it's 
completely out of control--egomaniacs running around in this 
totally undisciplined fashion. But the fact of the matter is, 
that if any movie project goes more than about 10 percent over 
its budget, everybody is in trouble--the director, the 
producer--everybody is humiliated. It's a bad mark. And so, 
they've somehow--movie people have been able to learn how to 
work toward a number. And that's often what it boils down to.
    They make an estimate, they agree, and then there's a kind 
of a fluidity. There's a kind of a give and take as they go, 
working toward the objective, keeping the number in mind. And I 
think that's how filmmakers are expected to try to live up to 
the targeted number. Sometimes it doesn't work at all. But 
generally, as I said, there's usually about a 5 to 10 percent 
differential.
    Mr. Hastert. Well, my time has expired. But the three 
gentleman previous who have spoken basically said, as I 
understand it, that one of our problems is that we are risk 
averse in our country. And part of that is a political problem 
that we have, as well. But as Mr. Aldrin said, that we never 
have probably explored this country or done the things that we 
need to do if we were going to worry about risk all the time. 
And there is a certain aspect of doing it, saying that this is 
the job to do, here is our task, move forward and get it done, 
and to do it within a certain limit on dollars or expenditures. 
I hope that we can take that philosophy and start to move that 
forward. I think that's a very positive thing to come out of 
this hearing. Mr. Souder.
    Mr. Souder. One of the things that all of you are really 
addressing and that we face is how to motivate people. Part of 
our job as leaders is to lead and part is to be representative 
of where the people are. And if we get too far ahead of the 
people we're no longer here. And this is a mixed bag in the 
general public. It's fine to say, oh, we like the shuttle, but 
don't take my Medicare check, I want my road, don't raise my 
taxes. And so we have to also catch their imagination. And I 
wanted to start with Mr. Howard but then ripple this through, 
because each of you touched on this.
    You're in a very unique position, because the baby boomers 
grew up watching you grow up as Opie, Richie Cunningham. Then 
you made the transition into making movies that impact and 
reflect a lot of our lives. You're in a very unique position to 
influence the biggest groups of people in the society. And I 
commend you for having done so in a way that motivates.
    Mr. Howard. Thank you.
    Mr. Souder. But as you go into that, you touched on 
something that Mr. Cunningham alluded to. And I wanted to mix 
these two points. One is, as clearly science can motivate to a 
point, but it's doubtful--my dad left me a Buck Rogers gun and 
we had the Jetsons, but the truth is that in spite of all the 
rhetoric we wouldn't have had a space program without the 
Sputnik and without concern for the military questions, that 
while movies like ``Apollo 13'' were moving and had a big 
audience, Steven Spielberg has tapped into another thing, and 
with the adventure movies, ``Star Wars,'' when you look at the 
sales of ``Independence Day,'' those were really militaristic 
versions of how outer space works.
    And that captures the people's minds. And looking at what 
motivates people, well known consultant, Dick Morris, says it's 
love/hate or love/anger and hope and fear. Part of this is 
hope, part of it's fear and how to capture this. And you said 
in your statement the importance of the hope and the vision. 
But there also has to be, this is important for us as a Nation. 
And clearly, when you make movies, you had adventure in your 
movie, the suspense of whether somebody was going to die. I 
mean, it was a human story in addition to capturing the vision 
of space.
    Mr. Howard. Right.
    Mr. Souder. We also--and one fundamental thing here is that 
while science is important we do some things that may or may 
not be politically important because of the future of the 
country, but Mr. Aldrin was saying and the others--Dr. 
Musgrave, and Mr. Cunningham said to a degree too is--the core 
question is, is it space that catches people's imagination or 
is it humans in space?
    Is it the human aspect that when they think of a colony on 
Mars, a battle in space, what does this mean to us? Are we 
going to travel out there? Is it very--are we so oriented 
ourselves that that has to be--those two things have to be the 
key parts with science being something we do because it's 
important and we see the benefits? Could you address that some 
as somebody who is especially motivating people--because if you 
don't motivate them you don't get them there----
    Mr. Howard. Right.
    Mr. Souder. And then each of you kind of touch on that. 
Because you've all been addressing this. How do we capture the 
human imagination, not just in kind of theory of what people 
should want to do. But how do you actually move them to say, 
yes, we'll spend more money on this and we'll sacrifice a 
little to do it?
    Mr. Howard. Well, you know, there are probably a few things 
that leap to mind. One is, since we're not involved in a sort 
of a veiled military conflict or the fear of one at the moment, 
there is a kind of, sort of like the spirit of accomplishment. 
And I think we can apply a sort of a nationalism to that, 
although I agree with Dr. Musgrave that one of the things that 
I love about the exploration of space is this idea that it 
pulls us all together. But at the moment, I think, in the way 
that we love to see Americans win gold medals. I think that 
we're, as a Nation, very proud of what we've accomplished and 
that there is a very legitimate reason to fear that somehow we 
will not sustain this lead in this area.
    This would be tragic. I don't think that is anything that 
very many American want to think about or face. I've had 
conversations with astronauts talking about how they've had 
more inquiries from other governments about ideas that they've 
put forth than the American government. However, I'm not an 
expert and I don't know whether these individuals' ideas really 
had merit or not.
    But the fact of the matter is that we are not the only ones 
looking into the possibilities of space exploration. Yes, we're 
still in the lead. And I think that is a reason to fear, to 
have some fear. And while there's not a direct opponent, that 
the idea of just sort of kicking back and saying, we've done 
that, is poor thinking. And I think that can be dramatized. And 
that was also why I was making the point earlier about 
everything that's been achieved and the possibilities for 
achievement.
    If there is a superior energy resource that can be 
achieved, then as a Nation wouldn't we like to be the ones that 
present that to the rest of the world? Wouldn't we like to be 
in the lead? I think that there are ways of presenting it as 
very important to our lives in the future. Of course, there is 
always this spirit of adventure and the pioneerism. We're a 
Nation of pioneers; everybody relates to that.
    Mr. Souder. I would like to hear the other three panelists 
address this too. If you could expand in addition to national 
pride, is there a reason to fear that if somebody got there 
first they could control us or other nations if they had the 
wrong motives or control energy sources and not be necessarily 
as willing to share with mankind?
    Mr. Musgrave. I might go back to the question that went to 
Ron. The kinds of science that people can really appreciate are 
the data that comes to them in a direct, perceptual sense. It's 
hard for them to understand maybe an equation when they're not 
experts in that discipline. But when you can present something 
which is directly perceptual such as an aesthetic visual image 
of astronomical data or of looking at Earth or other things, 
that really does work. I have found the human experience, they 
do vicariously want to go into space.
    We are just representative of them and have that privilege. 
But if we penetrate the head and the heart they are far more 
appreciative in terms of what you give them as opposed to a 
list of what you did and a chronological history of events that 
occurred if you give them what is going on in your head, your 
experience of the work that you are doing, your perception of 
how your body is doing in this environment that it was not 
designed to be in, then that touches. If you present it and let 
them live space through a character the same way Ron's movie 
does or the Spielberg ones, it is always through some 
characters that the drama takes place. So to let the public lie 
that through a personality, I think, is important.
    Mr. Cunningham. I've always--I think almost always found 
that when I'm abroad there seems to be more grass roots 
enthusiasm about space and about what we're doing. Some of it 
you might put in the--probably the nature of envy in the sense 
that they don't have the same level. Maybe they would get more 
blase if they did; but I doubt it. I think that's kind of a 
characteristic of the Americans. We tend to get this tremendous 
accomplishment. Then we start taking it for granted and we just 
get blase about it saying, ``I already did that.''
    I've also always been confused by the fact that for the 
last 20 years at least I've listened to the debate when they 
start talking about the space budget--usually it's a fight 
every year--and Congressman say, well, I don't see the support 
in my district, or it doesn't seem to be a gut level issue. And 
yet in my involvement with that same public out there, I always 
feel--it's at least a 90 percent positive response even when I 
discount it for the fact that they're talking to an astronaut 
and would like to encourage me. There always seems to be a gap 
between what you gentleman may be getting from your district 
and what I would see if I was out there in that district.
    And I sometimes wonder when we look at these priorities--
because we have those tradeoffs. I'm at the age when I'm 
concerned about Medicare now, too, myself. But there has to be 
some sacrifices someplace. But is it the public's priorities or 
sometimes could it not be the politicians defining the public's 
priorities by making appeals to the electorate in certain 
areas. There is no question that when it comes to pocket book 
issues it's a more effective appeal to somebody if you're going 
to give him something than it is if he sees that you're 
spending something for it.
    Going back to John F. Kennedy's statement. He wasn't 
reflecting any grass roots push to announce a program like 
this. I mean, he was stepping out in front. And I don't think 
it's ever going to be the grass that's going to demand one of 
these kinds of programs.
    Mr. Souder. Can I interrupt you just a second?
    Mr. Cunningham. Yes.
    Mr. Souder. The fact is, though, I remember a bomb shelter 
in our basement when we were putting things away and we were 
fearful of the Russians getting up there. I think there was 
more grass roots to do something that you're--I understand, 
maybe not in the way he was. But there was a grass roots 
support that was driving from a defense standpoint.
    Mr. Cunningham. Also there's also no question that there 
really was a space race. And that was essentially a battle in 
the cold war--is what it really boiled down to.
    Mr. Souder. Yes.
    Mr. Cunningham. But when I'm talking about going to putting 
a man on the Moon, that went beyond just defending against 
rockets in space.
    Mr. Souder. Yes.
    Mr. Cunningham. I think it takes somebody to verbalize this 
vision. It gets accepted by the public if it appeals to their 
heart. Something in here has to grab you that makes you excited 
about it.
    Mr. Aldrin. I think if I understand you, the public 
participation and identification and association with what 
we're doing in space is essential. Look at the popularity--the 
world's most popular museum is where we are right now. The 
popularity of space camps, of Challenger centers--the young 
people and adults want to see a hands-on participation, when 
it's, in the next several years, someone having an experience 
for a limited time to control the movement of a robot on the 
surface of Mars--sure, it's a robot, it's a machine--but there 
is a person and he's looking forward to his involvement in 
doing that. Vicariously, through virtual reality, I think 
people want to get involved and be a participant in this. 
That's why they come to all these museums. I think that that's 
why they want to participate--maybe it's vicariously--in 
cheering the winner of a random drawing of shares for a ride to 
go into space or they're taking a chance of some sort and then 
getting a little bit of a surprise. I think it's that kind of 
participation and involvement which is absolutely essential to 
broaden and give concreteness to this thin veneer of support 
for adventure that has often weighed against the press of the 
immediate demand. I think we need that continued involvement.
    Mr. Souder. Thanks for your efforts here today and also 
just across the country in helping boost interest.
    Mr. Hastert. Dr. Weldon, do you have any questions?
    Mr. Weldon. I just had a quick one for Mr. Cunningham. How 
did we get to where we are, assuming your analysis here is 
correct--and I believe there is some validity in what you're 
saying--going from a society that's willing to take chances 
to--a risk free society. You know, was it Vietnam? Was it 
Hollywood playing a role? Or is it the trial attorneys? I mean, 
how did we transition to where we are now, assuming your 
analysis is correct? Is it all of the above?
    Mr. Cunningham. No. I think I could be a little bit more 
specific than that. It's quite a political statement. I believe 
that for 30 or 40 years in this country we have been moving 
toward what's been characterized as a liberal philosophy that 
wants to do things for people, not hold people responsible, not 
challenge them. You know, every time you turn around there's 
talk about safety nets instead of meeting obligations, taking a 
challenge, being responsible for yourself and your own results.
    It takes a lot longer discussion than I have here to say 
how that slippery slope got started. And each time it moves 
slowly and inexorably along we almost forget where it started 
at one time. But I believe that is a part of it. It's a 
difference in the kind of philosophy that has been projected in 
this country for many years. I think I see a swinging of the 
pendulum back to some degree. But as long as we don't hold 
people accountable for their actions so that when they do take 
a risk they see that there's both a possibility for reward and 
failure.
    I'm one of those that believe that it's a tremendous luxury 
that we have in this country--is the right to fail. Because 
without the right to fail there can be no real wins, no real 
victories. It's the opposite side of the same equation and we 
have to have that opportunity. You have to be able to see the 
failure in order to know that you want to succeed next time. 
How many people do you know; how many stories have you heard in 
this country of those who have tried and tried again and 
eventually they succeed tremendously?
    We have the greatest society in the history of the world to 
allow that to happen. If we don't kill it, it will go right on 
happening. But it's our responsibility to see that it doesn't 
stop.
    Mr. Weldon. So if I understand you correctly, it wasn't 
Hollywood, the trial attorneys, it was Washington, DC that has 
led us down this path?
    Mr. Cunningham. Of those--the characters that you named, I 
would say yes, Washington is probably more responsible than the 
others.
    Mr. Weldon. Well, I've only been doing this 3 years, sir, 
don't hold me accountable.
    Mr. Cunningham. I don't hold you responsible.
    Mr. Weldon. I yield back the balance of my time.
    Mr. Hastert. Well, I thank this panel. You've been 
incredibly candid. You've given your time and I know it's a 
precious commodity. We've had you before us almost 2\1/2\ 
hours, which is more than we should ask anybody to have to do. 
Thank you very much.
    I just have to be remiss. We've talked about Mr. Howard's 
film. Dr. Aldrin, I understand that you're writing a book, 
``Encounter With the Tiger.'' It's a space analogy and taken 
from a lot of your own experiences. And I'm sure you're going 
to get a lot more people involved in what space is all about 
through this endeavor. So, thank you very much. And thanks for 
being with us today. We really appreciate your candidness and 
contribution.
    If I may, I would ask our second panel to come forward. If 
I may ask, I would ask our second panel to stand and be sworn 
in before I formally introduce each of you.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
responded in the affirmative. Please be seated, gentleman. I'd 
like to formally welcome our second panel: Dr. Peter Glaser, 
who served as a project manager for Apollo 11, Dr. Richard 
Berendzen, a professor of physics at the American University, 
Dr. David Webb, who serves as a consultant to developing 
university and research programs in space science, and Dr. 
David Criswell, who serves as director of the Institute of 
Space Systems Operations in the University of Houston.
    And gentlemen, I'm going to ask you if you could kind of 
summarize your statements. We'll try to keep them in 5 to 7 
minutes, in that area. Your written testimony will be entered 
into the record. So gentlemen, thank you very much and please 
be seated. Dr. Glaser.

 STATEMENTS OF PETER GLASER, VICE PRESIDENT, ARTHUR D. LITTLE, 
    INC.; RICHARD BERENDZEN, PROFESSOR OF PHYSICS, AMERICAN 
   UNIVERSITY; DAVID CRISWELL, DIRECTOR, INSTITUTE FOR SPACE 
  SYSTEMS OPERATIONS, UNIVERSITY OF HOUSTON; AND DAVID WEBB, 
           CONSULTANT, SPACE SCIENCE AND ENGINEERING

    Mr. Glaser. Mr. Chairman, I am delighted to be able to----
    Mr. Hastert. If you'd all pull those mics up. It's noisy in 
here. You almost have to talk right in them to get a good 
coverage. So I'm sorry. Dr. Glaser.
    Mr. Glaser. I'm delighted to be invited to speak on a 
subject which has been of interest and my major effort over the 
past 40 years. And that is to look at the Sun and see the best 
way that we can get solar energy converted in a way which we 
can then beam back to Earth to serve the major needs we see in 
a global sense.
    When I first came up with this concept in 1968, officially, 
when I talked about it, it looked like science-fiction. 
President Kennedy's plan to land a man on the Moon within 10 
years was considered a great gamble. I believe that this 
subject from power from space for use on Earth is a logical 
outgrowth of all the work that we have done in the country in 
space because it is not just something that people will admire 
as a result of prowess. But people will require, because of the 
necessity to continue to live a better life and to ensure that 
we not destroy the ecology of the Earth by going the wrong way.
    Therefore, I am an enthusiast for solar energy in space and 
on the ground. I have had the privilege of testifying before 
both Senate and House committees, and I would refer much of the 
basic and a lot of the information that I have presented there 
for you to examine. I also will present you more updated 
information. Now, it's important that NASA and the Department 
of Energy studied this whole solar power satellite aspect from 
1970 to 1980, and the conclusion was that no single constraint 
was identified which would preclude the development of solar 
power satellites--just a name I've given it--for either 
technical, economic, environmental or societal reasons. That 
was the conclusion.
    Now, in the year 1995-1996 NASA performed a study. And that 
study concluded--I just got the final report--new technologies 
and system approaches developed in the past 15 years have the 
potential to make solar power satellites far more feasible than 
was traditionally believed. That was the latest information 
from NASA. I believe that power from space should be an 
integral part of global development goals. It is an acceptable 
approach to decrease the unsustainable rate of population 
growth by meeting the insistent demands for higher living 
standards.
    Currently we the population reaching some 10 billion people 
by mid 21st century, and one half will live in cities by 2000. 
And the current migration of 150,000 people per day into cities 
will increase to about 250,000 with some major effects. Today 
we hope to reach the goal of 3 kilowatts per person, which is 
about 30 billion kilowatts. Now, that's thousands of modern 
nuclear power plants with problems we have not solved yet.
    Therefore, increasing energy supplies and generation 
methods compatible with the ecology at affordable costs will be 
required on a global scale. There is a widening recognition 
that power from space is relevant and beneficial to life on 
Earth. And the growing international interest is approved there 
of. Because today people are working on the subject in Canada, 
in China, in Europe, India, Japan, Russia, Ukraine, and 
certainly the United States. And these are things that are in 
the literature for everyone to see. This is not just some 
hearsay.
    Space power systems have been demonstrated of increasing 
scope with wireless power transmission across limited distances 
on Earth, maintain high altitude long endurance aircraft 
forever, if you want, up in air, and beaming power from a 
rocket from a spacecraft, which was done by the Japanese. We 
know that we can do this kind of technology because it is based 
on 100-year old science and technology developed by Hertz, 
developed by Nikola Tesla.
    I have proposed a SPS--solar power satellite--development 
program to permit near, mid and long-term benefits of this 
application. We need to have an appropriate framework for these 
operations. Because this eventually will be international, just 
as communication satellites are international. And this 
international technological community has shown that the 
objective of solar power from space for Earth can be realized, 
and that well-planned future efforts can achieve the promise of 
space endeavors which you have just heard from the previous 
panels.
    All of these things can be the basis for doing the 
applications I'm talking about. I know the first development 
steps are always the hardest to take, to demonstrate that the 
promise of power from space is real, by placing increased 
reliance on the inexhaustible energy of the Sun will ensure 
that all forms of life can continue to flourish on Earth. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Glaser follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.022
    
    [GRAPHIC] [TIFF OMITTED] 46559.023
    
    [GRAPHIC] [TIFF OMITTED] 46559.024
    
    [GRAPHIC] [TIFF OMITTED] 46559.025
    
    [GRAPHIC] [TIFF OMITTED] 46559.026
    
    [GRAPHIC] [TIFF OMITTED] 46559.027
    
    [GRAPHIC] [TIFF OMITTED] 46559.028
    
    Mr. Hastert. Thank you, Dr. Glaser. Dr. Berendzen.
    Mr. Berendzen. Thank you, Mr. Chairman. Thank you, members 
of the committee. And congratulations on holding this hearing 
and where you decided to hold it and when. You know, we're 
surrounded by the icons by this Nation of this century. They're 
precious to us. A moment ago, I went on the outside and looked 
at the people. There are thousands of them: men and women and 
children and grandchildren and grandparents of every race, 
creed, color national origin, male, female. Do you have any 
doubt of the interest of space across this Nation?
    Those are not astronauts. Those are not scientists. Those 
are not engineers. But it's the most popular museum in the 
history of the world. And think of what is here today. Behind 
us we have lunar landers. Think of the museum a century from 
now if we have the proper verve. Mars landers. Not just lunar 
rocks, but Mars rocks, asteroid rocks, water from the moon of 
Titan, even hydrocarbons from the distant Titan itself. And 
then consider what all we might do. Even communicate with human 
beings and habitats elsewhere.
    I happened to be at the opening night of Mr. Howard's 
spectacular film. I saw in northern Virginia in a crowded 
theater. At the end of the film for the first time in my entire 
life, I saw everyone in that theater--that jaded audience of 
Washingtonians--rise to their feet as one, cheering, 
applauding, screaming in adulation, in part because it was such 
an expiring movie, but also because it was sheer Americana. It 
was we, we did and we will again. Well, if I may turn to my 
comments.
    Those who came before us expanded their compass and went 
beyond. History shows that the peoples who pursued their quests 
maintained a national vitality and reaped rewards beyond their 
initial hopes. Our forbearers also looked at the night sky in 
awe. Many people today want to reach the next frontier, to 
venture from cradle Earth and to voyage to other worlds. Humans 
crave exploration. They want to do more than survive. Today we 
are poised to explore the greatest frontier of all with humans 
and machines working together.
    As this millennium ends this Nation can leave an inspiring 
and challenging legacy for the 21st century. It can set long-
term plans to explore the solar system, place humans on Mars 
and build outposts off of our planet. For such long-term, far-
reaching efforts the final rewards will differ from what we 
forecast today. Moreover, the most important things in life, 
those we cherish the most, do not permit a cost-benefit 
analysis. Try computing the cost-benefit of patriotism or 
courage or love. But with limited resources and pressing needs, 
the Nation should consider its desire for and commitment to 
exploration.
    How much do we really want to visit other worlds? Are we 
willing to pursue work that will bring immediate benefits, but 
whose major rewards will come in the future. We shall find no 
hospitable world trivially ready for colonization, and the 
effort to get there will be substantial. But consider the 
potential benefits. From a major stimulus of technology, 
research and development and science education to epochal 
findings in planetary sciences and many other fields. Such 
endeavors will boost diverse industries, stimulate much of our 
national economy, and create jobs at all levels and many 
disciplines, and present a unique, even historic opportunity 
for American leadership and the world community by focusing 
efforts of many nations on this greatest of all human 
adventure.
    Of this we can be sure. Humans will explore Mars and go to 
the furthest reaches of our solar system and beyond. The 
insightful question is not if humans will do so, the right 
questions are who will do it and when. With proper planning, 
the United States can offer the answer: Americans early in the 
next century. T.S. Eliot stated, ``We shall cease from 
exploration and the end of our exploring will be to arrive 
where we started and know the place for the first time.'' Was 
he right?
    Also, will our voyages of discovery return us to where we 
started: to our planet, our Nation, ourselves? Through long-
term space exploration we can establish our niche in time. 
Centuries from now, even voluminous history books will truncate 
much of what engrosses us today: recessions, political races, 
even mini wars. In time all these will become brief entries in 
the sweep of human achievement.
    But a few extraordinary accomplishments will tower forever. 
Apollo 11 landing surely will be one of these. Human landing on 
Mars will be another. And proof of the existence of life, 
present or past, on another world would stand as a benchmark in 
all of time. We wish to explore for tangible reasons too. Such 
efforts will increase our understanding not only in scientific 
fields, but also in management, business and even the arts and 
humanities. Yet another drive compels us to explore. For we are 
Americans. No other people in modern history have benefited so 
much from exploration or contributed so much to it as the 
people of this Nation.
    It is our tradition and our culture. It was from the 
experiment of our democratic society to the reaches of our 
scientific quest. We are explorers. Without exploration we 
could not be. For the next generation, for the Nation's third 
century, space exploration will constitute a natural continuum 
of the American adventure.
    What, then, should this exploration be? Superficially it 
would be a plan to take robots and then humans to Mars and 
eventually elsewhere in the solar system. But saying only that 
would no more encapsulate it than saying that Yosemite is just 
real estate or the Star Spangled Banner is just a song. Space 
exploration constitutes many things, tangible and intangible. 
Among them, science and technology. That to enable the 
exploration and that that the exploration will enable. Economic 
benefits prompted by significant stimulus of the Nation's most 
advanced technologies. Quality of life. All those space 
exploration deals with other worlds, it's applications are 
actually down to Earth.
    Space exploration could make our lives more comfortable and 
even more secure. Education, both for future scientists and 
engineers and for scientifically literate citizens generally. 
International cooperation, both with our traditional allies and 
our traditional adversaries; national pride and international 
respect. Apollo brought pride and respect. Twenty-first century 
space exploration, even bolder and even more ambitious than 
Apollo, will do so as nothing before in history.
    Young people need to know that their Nation chooses 
rigorous goals, applies itself resolutely and achieves its 
objectives. And space exploration will create a new generation 
of heroes. As historian Arthur Schlesinger, Jr. has argued, 
``If our society has lost its wish for heroes and its ability 
to produce them, it may have turned out to have lost 
everything.''
    To undertake such exploration will require courage. It 
entails risk, even danger. But we should remember Ralph Waldo 
Emerson's dictum: ``Every wall is a door.'' Can we find the 
door? If we do, will we open it? Shall the Nation continue its 
bold and daring heritage. Adults ponder these matters, yet they 
actually belong to the children. This is the stuff of their 
dreams, and will shape their world. Children gaze at the night 
sky in awe. Adults, caught up in the day to day concerns can 
forget the wonder and lose the mystery.
    What a loss when that happens. For child-like curiosity has 
inspired American achievement. Beyond the benefits for space, 
technology, the economy, quality of life, education and even 
pride, such exploration is about providing a vision. This 
undertaking will span decades. Many of its principle 
beneficiaries are now infants or not yet even born. Our 
foresight and determination will become their lodestar. More 
than a major NASA program, a scientific quest or a 
technological challenge, space exploration is a reaffirmation 
of American leadership at large and left indelibly on the pages 
of history.
    It is America at its best, doing what only America can do 
on such a scale: dream, plan, invest, achieve and lead our 
people and people everywhere to old aspirations, continuing 
hopes and new accomplishments, lead them to other worlds and to 
the future. Thank you.
    [The prepared statement of Mr. Berendzen follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.029
    
    [GRAPHIC] [TIFF OMITTED] 46559.030
    
    [GRAPHIC] [TIFF OMITTED] 46559.031
    
    [GRAPHIC] [TIFF OMITTED] 46559.032
    
    [GRAPHIC] [TIFF OMITTED] 46559.033
    
    [GRAPHIC] [TIFF OMITTED] 46559.034
    
    [GRAPHIC] [TIFF OMITTED] 46559.035
    
    [GRAPHIC] [TIFF OMITTED] 46559.036
    
    Mr. Hastert. Thank you, Doctor. Dr. Criswell.
    Mr. Criswell. Thank you, committee chairman and 
subcommittee members. I hope you have a copy of this 
presentation. I'll be making reference to pages four and six. 
I'd like to talk with you about the lunar solar power system to 
supply Earth with commercial electric power. It's generally not 
recognized----
    Mr. Hastert. Doctor, would you pull the mic closer?
    Mr. Criswell. Yes. Is this better?
    Mr. Hastert. That's great.
    Mr. Criswell. It's generally not recognized, but the 
essential assumption on most energy projections is that the 
world will stay poor, most people will stay impoverished. 
Worldwide prosperity in the 21st century requires more energy 
than can be supplied by conventional, non-renewable sources 
such as coal and shale and non-breeder uranium systems, or even 
terrestrial solar power. And this includes biomass and 
photovoltaic.
    Present power systems are limited by their fuel resources, 
the increasing costs of non-renewable fuels, and by the very 
high cost of a terrestrial solar renewable systems and the 
backup power supplies that they need and long distance 
transmission lines. In addition, they all impact the 
environment. I think a goal for the U.S. space program and even 
the world space program is that by 2050 we should supply all 10 
billion people in the world then with at least 2 KW each of 
electric power. That's a goal of 20,000 gigowatts of electric 
power.
    That's about six times more power than the world produces 
now. It's equivalent to what is required by Western Europe to 
provide the high standard of living that they have there. I 
think a solar energy system based on the Moon can provide this 
electricity and provide it at a cost that's a about 3 to 
possibility about 30 times less than the wholesale cost of 
electricity now. You'll be delivering the power by engineered 
photons--microwaves--in such a way that the system is 
intrinsically environmentally clean, and rather than depleting 
Earth's resources can actually increase the resources of Earth.
    There is enormous growth capacity in this system. I believe 
that it can grow to somewhere between 100,000 and 1 million 
gigowatts of delivery power, far more than we need now and 
enough for several centuries of growth. I'd like to refer you, 
if I could, to the fourth page of that presentation set, which 
gives a schematic of this power system seen from outside of a 
city on Earth. The Sun is the source of the power. It's an 
operating fusion reactor. The Moon is the recipient of the 
solar power.
    It exists, it's in the light orbit, the same face always 
faces Earth. And you build power bases on the two limbs of the 
Moon as seen from Earth so that one or the other is Sun-lit and 
can deliver the power. The power is handled by changing 
sunlight to electricity to microwaves and then to controlled, 
low intensity beams that deliver the power down to very 
lightweight microwave receivers on Earth.
    All of the key technologies and operations surprisingly 
enough are already demonstrated. There's no fuels. There's no 
furnace. There's no ash or long distance transmission lines in 
this system or even massive equipment. It can be a very long 
life system that dependably delivers power, but very 
importantly is independent of the biosphere. The beams are 
unaffected by rain, fog, dust and the things that normally 
could interfere with ground-based power.
    If you could refer to videograph No. 6, or slide 6 there. 
That's a picture of a prototype power base, a demonstration 
power base on the edge of the Moon. In that place the Earth 
always stays fixed in the sky, eternally and each base is huge. 
But it's composed of small units called power plots. There 
would be tens of thousands of these. And this is simply a 
representative view of one type. The power plot consists of 
local solar arrays, small microwave transmitters and 
reflectors, all primarily fixed on the lunar surface.
    And they would be made out of the local materials. I think 
the talks that you heard by Buzz Aldrin by other astronauts and 
the evidence that you see around here of our visits to the Moon 
are examples of one of the best investments this Nation could 
have conceivably made in its future. We know what's there. We 
know the common resources. And we know that we can convert into 
these fairly simple power components that I've just described.
    They would be generated by mobile factories that are on the 
Moon and put out hundreds to thousands of times their own mass 
in components. What that means is the cost of transportation 
does not affect the cost of power in a strong way. All of these 
steps can be clearly demonstrated on Earth before you ever go 
back to the Moon. And the industrial size demonstration can be 
done for a fraction of the present U.S. investments in space.
    In summary, this lunar power system, I think, can provide 
Earth a second source for its critical energy needs on a 
worldwide basis. This will be net new energy that can be used 
to underpin clean environmental growth and new prosperity 
that's not possible in a way when you use depletable resources. 
From the standpoint of the vision spoken about by our previous 
speakers, this will enable the economic establishment of a two-
planet economy--the Earth and the Moon are the two planets--
which can grow self-sustained.
    A future space program could literally grow off the taxes 
generated by the new economic growth of this two-planet economy 
and fundamentally will provide humanity a way to grow into its 
lunar space and prosper. Thank you.
    Mr. Hastert. Thank you, Doctor. Dr. Webb.
    Mr. Webb. Chairman Hastert and members of the committee.
    Mr. Hastert. I would ask you to speak into the mic. It's a 
little loud in here and a lot of background noise.
    Mr. Webb. All right. Can you hear me now?
    Mr. Hastert. Yes.
    Mr. Webb. Chairman and members of the committee, it's my 
honor and pleasure to be here today. I must admit to a certain 
degree of deja vu when listening to the excellent presentations 
you have had, particularly by the members of the astronauts--
Buzz Aldrin, Walter Cunningham and Story Musgrave--and also the 
excellent presentation by Ron Howard.
    I had the honor of being a member appointed by President 
Reagan to the National Commission on Space, which you may 
remember was a congressionally mandated study of the future of 
the American space program through the year 2030 that took 
place in 1984 and took a year. We reported in 1985, in a 215-
page document that outlined all the possibilities and many of 
the problems that we have discussed today. For the record, 
``Pioneering the Space Frontier'' was the name of the 
commission report.
    This is the first section--and I think that you have it in 
your briefing papers. I would like, with your permission, Mr. 
Chairman, to have this first section read into the record.
    Mr. Hastert. Without objection.
    Mr. Webb. Thank you. The whole concept of what we have 
heard today and the whole concept of what we heard in the 
commission was the necessity for the United States to maintain 
its lead in space. And at the present time we have dropped the 
ball in a very large way. The problem that we see right today--
when we announced in this commission report, we should by the 
year 2000 have developed a low-cost cargo transfer vehicle, a 
low-cost manned space vehicle, we would not just have a space 
station, which we were told would be in operation by 1994, but 
we would have a space port by the year 2000.
    By the year 2005 we were suggesting we should be back on 
the lunar surface, we should develop mining operations on the 
Moon, we should learn how to live off-Earth. And by the year 
2010, we would have a full-scale manufacturing and 
replenishment facility on the Moon. And we would then build the 
Mars space crafts, including Buzz Aldrin's cycling space ships, 
and we would leave for Mars, and we would be on Mars by the 
year 2019.
    That was 11 years ago, Mr. Chairman. In that 11 years, if 
you look today at what has happened, not one single element 
that we were suggesting that should be in place by the turn of 
the century has even been begun except the space station, which 
is 8 years late and $25 billion over budget. And all the other 
elements that we're talking about--a reusable space vehicle, 
now--it will be 8 years to 10 years before those space vehicles 
can possibility come on stream.
    We need--your committee, if I may say, needs to ask what 
has happened that causes the United States, the preeminent 
technological power in the world, to be unable to produce a 
space station in the time that the President challenged the 
Nation to do it: 10 years, one decade. We have not yet, as I 
think it was Walt Cunningham said, ``got one nut or bolt in 
space at this time.''
    There is something that is the matter. If I may make a 
suggestion--and I do so in my testimony. The manner in which we 
develop technology, the way we regulate technology in this 
program, is unique to the United States. We are the only 
industrial Nation in the world that demands an annual review of 
every technology program that we have underway. In doing that, 
we invite a growing opposition as the program moves along and 
becomes more expensive. And we invite every year--it will be 
reexamined and either cut back or apportioned or reapportioned. 
And we're back to square one.
    We cannot ask our engineers and scientists to keep this 
Nation in the forefront of technology if we are second-guessing 
them every single year. This, I understand, is a congressional 
prerogative. I understand that the monetary power of the budget 
is a prime thing for Congress, as it should be.
    However, there may be other ways. I am suggesting in my 
testimony the creation of a technology development fund which 
would operate very similar to the great foundations of the 
world in which the Congress would apportion a certain amount of 
funds every year to cover the new technology programs that were 
going and would give the money for a set period of time, which 
I would like to see in 5 years. But you probably could not do 
that. But maybe even 4 years: two congressional terms. If that 
were done, there would be a steady funding of technology. If 
there was steady funding of technology we would have a space 
station in space now. We would have single stage to orbits, 
reusable space vehicles, and we would not have this desperate 
cancellation of programs.
    The National Air and Space Program was to give us a single 
stage to orbit airplane. We spent $2.4 billion. We worked for 5 
years. We made enormous advances. And then the program was 
canceled. No question. Gone. This is damaging our leadership in 
space. All the other nations in the world once upon a time 
believed that we had such a lead in the development of space 
that they would never be able to catch up. And yet look at it 
today. Because of the fact that we have not created a new 
launch vehicle in the last 20 years, we are falling behind. We 
have lost 70 percent of the world space launch market in the 
same period of time.
    It is a tragedy of enormous proportions. We don't see it 
until it comes and bites us. We are the only industrial space 
Nation that has not built a rocket engine in 25 years. The 
Russians have built seven. The Chinese have built three. The 
Japanese and Europeans have built two each. India has built 
two. We have built none. And then, we wonder why we're losing 
the space market.
    If we do not understand and if we do not unleash our 
programs to be able to be fulfilled the way we try and develop 
them in the beginning, we will always be doing that. And in 
doing that, this country will lose its leadership as sure as we 
are here today. It is a given where there are very powerful 
entities, not the least of which is China, which is just 
starting, Japan, Russia. Russia right now is in plenty of 
trouble. But they will get together. And they are a powerful 
competitor.
    We honestly need to review how it is that we handle our 
space technologies and how we handle technologies generally, 
and try and develop new ways. This is a real challenge to the 
Congress and it's a real challenge to the entire community to 
be able to adjust to something new. But that is what I would 
like to see happen, because this is the greatest country in the 
world. And we must, lead the space race, if that is what it 
is--or our venturing out onto the next frontier. Thank you.
    [The prepared statement of Mr. Webb follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.037
    
    [GRAPHIC] [TIFF OMITTED] 46559.038
    
    [GRAPHIC] [TIFF OMITTED] 46559.039
    
    [GRAPHIC] [TIFF OMITTED] 46559.040
    
    [GRAPHIC] [TIFF OMITTED] 46559.041
    
    [GRAPHIC] [TIFF OMITTED] 46559.042
    
    [GRAPHIC] [TIFF OMITTED] 46559.043
    
    [GRAPHIC] [TIFF OMITTED] 46559.044
    
    [GRAPHIC] [TIFF OMITTED] 46559.045
    
    [GRAPHIC] [TIFF OMITTED] 46559.046
    
    [GRAPHIC] [TIFF OMITTED] 46559.047
    
    [GRAPHIC] [TIFF OMITTED] 46559.048
    
    [GRAPHIC] [TIFF OMITTED] 46559.049
    
    [GRAPHIC] [TIFF OMITTED] 46559.050
    
    [GRAPHIC] [TIFF OMITTED] 46559.051
    
    [GRAPHIC] [TIFF OMITTED] 46559.052
    
    [GRAPHIC] [TIFF OMITTED] 46559.053
    
    [GRAPHIC] [TIFF OMITTED] 46559.054
    
    [GRAPHIC] [TIFF OMITTED] 46559.055
    
    [GRAPHIC] [TIFF OMITTED] 46559.056
    
    [GRAPHIC] [TIFF OMITTED] 46559.057
    
    [GRAPHIC] [TIFF OMITTED] 46559.058
    
    [GRAPHIC] [TIFF OMITTED] 46559.059
    
    [GRAPHIC] [TIFF OMITTED] 46559.060
    
    [GRAPHIC] [TIFF OMITTED] 46559.061
    
    [GRAPHIC] [TIFF OMITTED] 46559.062
    
    [GRAPHIC] [TIFF OMITTED] 46559.063
    
    [GRAPHIC] [TIFF OMITTED] 46559.064
    
    [GRAPHIC] [TIFF OMITTED] 46559.065
    
    [GRAPHIC] [TIFF OMITTED] 46559.066
    
    [GRAPHIC] [TIFF OMITTED] 46559.067
    
    [GRAPHIC] [TIFF OMITTED] 46559.068
    
    [GRAPHIC] [TIFF OMITTED] 46559.069
    
    [GRAPHIC] [TIFF OMITTED] 46559.070
    
    [GRAPHIC] [TIFF OMITTED] 46559.071
    
    [GRAPHIC] [TIFF OMITTED] 46559.072
    
    [GRAPHIC] [TIFF OMITTED] 46559.073
    
    [GRAPHIC] [TIFF OMITTED] 46559.074
    
    [GRAPHIC] [TIFF OMITTED] 46559.075
    
    [GRAPHIC] [TIFF OMITTED] 46559.076
    
    [GRAPHIC] [TIFF OMITTED] 46559.077
    
    [GRAPHIC] [TIFF OMITTED] 46559.078
    
    [GRAPHIC] [TIFF OMITTED] 46559.079
    
    [GRAPHIC] [TIFF OMITTED] 46559.080
    
    [GRAPHIC] [TIFF OMITTED] 46559.081
    
    [GRAPHIC] [TIFF OMITTED] 46559.082
    
    [GRAPHIC] [TIFF OMITTED] 46559.083
    
    [GRAPHIC] [TIFF OMITTED] 46559.084
    
    [GRAPHIC] [TIFF OMITTED] 46559.085
    
    [GRAPHIC] [TIFF OMITTED] 46559.086
    
    [GRAPHIC] [TIFF OMITTED] 46559.087
    
    [GRAPHIC] [TIFF OMITTED] 46559.088
    
    [GRAPHIC] [TIFF OMITTED] 46559.089
    
    [GRAPHIC] [TIFF OMITTED] 46559.090
    
    [GRAPHIC] [TIFF OMITTED] 46559.091
    
    [GRAPHIC] [TIFF OMITTED] 46559.092
    
    [GRAPHIC] [TIFF OMITTED] 46559.093
    
    [GRAPHIC] [TIFF OMITTED] 46559.094
    
    [GRAPHIC] [TIFF OMITTED] 46559.095
    
    [GRAPHIC] [TIFF OMITTED] 46559.096
    
    [GRAPHIC] [TIFF OMITTED] 46559.097
    
    [GRAPHIC] [TIFF OMITTED] 46559.098
    
    Mr. Hastert. Thank you. The gentleman from Indiana, Mr. 
Souder.
    Mr. Souder. Dr. Webb, I wanted to followup briefly on your 
technology fund question.
    Mr. Webb. Yes.
    Mr. Souder. Are you viewing that as a space technology 
fund?
    Mr. Webb. No. I think it should be a technology fund 
generally. But I, of course, would naturally, if it came to it, 
say a space one first.
    Mr. Souder. And how would you see this different, say, from 
the National Science Foundation, which gives grants?
    Mr. Webb. Well, the National Science Foundation does not 
give grants to particular programs over a long period of time. 
They make suggestions and study the programs and give funding 
when required, but not in what I'm talking about. I'm saying 
that Congress, when it decides to give funds to a program, 
should give the funds in total. That's what the Europeans do. 
That's what the Japanese do. Five year program: they get the 
funding guaranteed for 5 years.
    Mr. Souder. Constitutionally, we don't have the right to 
bind the next Congress.
    Mr. Webb. I understand. If I may suggest that this be taken 
off-budget.
    Mr. Souder. Right. That's why, for example, the National 
Endowment for the Arts, you can forward fund some grant type 
programs. The problem is that if a given Congress forward funds 
it, it means the whole budget item has to be hit that year, as 
opposed to being calculated over the 5 years.
    Mr. Webb. Unfortunately.
    Mr. Souder. And that's also the danger. If it goes into a 
technology fund that isn't specified for space, it could--
political pressures for high definition television or something 
could easily overwhelm. But it's an intriguing idea. Would you 
see this fund having any private sector matches?
    Mr. Webb. Yes. I think it would be very important that it 
have private sector matches. And of course, that will have a 
competitive issue involved in it, because we don't know what--a 
company will not match it if they don't think that they're 
going to get a contract. That just makes things very difficult.
    Mr. Souder. In addition to contracts, would you have some 
sort of early rights to certain patents or access?
    Mr. Webb. Absolutely. It would have to. I think the 
Stevenson-Wydler Act--very nearly passed--and I think it was 
1981--went into a lot of this in great detail. And I think it 
might be useful to review that act as a possible model.
    Mr. Souder. Could you see that getting into solar energy 
questions, too?
    Mr. Webb. Indeed. I think that everything we've heard today 
in Dr. Glaser's and Dr. Criswell's proposals are very necessary 
things. And they were reviewed. Dr. Glaser's was reviewed 
particularly by the National Academy of Sciences, back in 1978. 
But since then we've done nothing with it. It is a great 
tragedy, because what is going to happen is the Japanese--in 
fact, Dr. Glaser would probably tell you he's been spending 
most of his time in the past 10 years in Japan, because they're 
the only ones that are saying to him, ``Come on, Dr. Glaser. 
Tell us how to do this and we will control the electricity 
throughout the world.'' An important thing.
    Mr. Souder. That segues into my next question. There's 
really two parts to this. Dr. Berendzen mentioned this at least 
in his written testimony. The question of what you just said of 
the Japanese dominating the energy question. But you alluded to 
the Chinese. In the international agreements on peaceful uses 
of space for non-dominance of certain categories. Is China a 
signatory to any of this?
    Mr. Webb. No. The People's Republic was not, that I know 
of.
    Mr. Souder. What about North Korea, Iran or Iraq?
    Mr. Webb. I don't think so. We have an expert in 
international law right in the audience. Maybe they would know.
    Mr. Berendzen. To the best of my knowledge they are not.
    Mr. Souder. Because one of the problems here is that----
    Mr. Webb. They are not.
    Mr. Souder. One of the problems here is that if only 
nations that are friends sign the treaty, it's not quite as 
far-reaching as if we had those who may, in fact, be 
competitors. Do you see--could you followup, Dr. Glaser, with 
the Japanese question just a bit, and do you see any 
willingness out of them to do joint efforts if it was pursued? 
Or is some of this just so competitive that certain streams are 
going to be trying to dominate? In fact, that desire to 
dominate may, in fact, advance science.
    Mr. Glaser. Let me just also talk about the Chinese. 
Because at the International Astronautical Federation Congress, 
which took place last year in Beijing, Chinese scientists from 
the Shanghai Space Power Institute gave a plenary lecture which 
was a laser lecture, and their conclusion was very simply 
stated: we want to work with others internationally, in making 
this come about. So I believe that it is a possibility for this 
country to enter into discussions with China. Because he did 
not say that as an individual.
    He was saying this as Chinese policy. As far as the 
Japanese are concerned, my first contact with the Japanese was 
shortly after the oil shock of 1973. They have the greatest 
incentive as a nation to develop solar power satellites or 
lunar power satellites. I think that they have understood it. 
And if you look at what they have done, they have 
systematically done all the right steps on a small scale: very 
inexpensive. It's all published. You can get it from them. 
There's no secrecy about it. Also, it's organized by meeting.
    They have developed a way of enveloping the industry 
people. This is an industrial project, not a space project. 
Space is part of it. And they have done some exceedingly 
important experiments. I'll just mention one or two. For 
example, they've flown an airplane which was held up by 
wireless power transmission. That was done as part of the 
international space year effort. They have done a rocket 
experiment which beamed 800 watts from a rocket to a satellite.
    At minimal cost, this was done by the Institute of Space 
and Astronautical Science. Now, we have not even attempted to 
duplicate something like that. Can you imagine what it takes to 
do that? It's a very challenging thing they've done. And by the 
way, they're not the only ones who have done it. The Russians 
beamed from Space Station Mir--somehow nobody followed that 
up--to a Swedish satellite. They had wireless power 
transmission from Mir to a Swedish satellite.
    So if I can say that this is an internationally very top 
grade project. And whether it's at the beginning stages now, 
that's where we have to be. Because once they decide to do it 
in orbit, or eventually--and I fully agree it will have to be 
done eventually on the Moon--we will be behind the eight ball. 
Because these other nations take this very seriously. The 
conferences--I would invite you to attend the next conference 
in Montreal: SPS 1997, August 23--28. There are all the 
representatives of these nations that have been working on it. 
And I think the interest for people from Congress to at least 
listen to what they are saying.
    Mr. Souder. Thank you very much.
    Mr. Hastert. Thank you. Dr. Weldon.
    Dr. Weldon. I thank the chairman. I just want to followup 
with a couple of technical questions to Dr. Glaser and Dr. 
Criswell. The Earth is turning. And if you have a power base on 
the Moon transmitting power, do you have the ability to move 
the antennae on the Moon and keep that receiver on Earth always 
on track, or is that the function of the satellites. I'm just a 
little confused how this would all work with everything moving: 
the Moon orbiting the Earth, the Earth spinning underneath it 
constantly. You said the technology is all there? Is that 
correct?
    Mr. Criswell. Yes. The basic approach with a lunar system, 
the simplest system is you have the bases on the Moon, and they 
send power to a receiver on Earth when the receiver can see the 
Moon, which is half of the day. You could actually only use 
about 40 percent of the day. Then you could store excess power. 
Underground storage, hydro--many options.
    That's an expensive way, even though it is cheaper than the 
way we do power now. The cheapest way, and I think the most 
elegant way is, that you would have in orbit around the Earth 
relay satellites. They would accept power from the Moon and 
then send out multiple beams down to receivers on Earth. These 
would be in high orbits, such as are associated with the 
Russian communication satellites, called high inclination 
orbits.
    So it's a dynamic system in which beams will shift back and 
forth from the Moon to a satellite to the receiver where the 
power is needed.
    Mr. Weldon. These are all microwave beams?
    Mr. Criswell. These would be microwave. It's proposed for 
the industrial microwave band around 2.4 gigahertz, about 10 
centimeter long waves.
    Mr. Weldon. Is there any danger associated with those beams 
if they were to hit----
    Mr. Criswell. The beams have to be kept at low intensity, 
so they would be safe. The way that these are normally modeled 
is, the beams will have an intensity of about 20 percent of 
sunlight. Now, those would go into industrially zoned areas. 
You would not want to walk around in them. You certainly could 
for periods of time, but that would not be good. Outside of 
that area, though, it would be a much lower intensity than 
beneath the safety guidelines.
    Now, I think with the things that have happened since the 
1980's, that it looks like the receivers on Earth can be much 
cheaper to build than were looked at in the early 1980's. What 
that means is, you can bring down the intensity of the beams 
below the levels that are now set or observed by IEEE and other 
standard organizations for continuous exposure of the general 
population. I don't think that's necessary to do. You're 
talking an industrial operation. And you would zone it.
    Mr. Glaser. Could I, with your permission, just answer the 
safety question?
    Mr. Weldon. Sure.
    Mr. Glaser. This has been uppermost in the minds of all 
people who have worked on this concept. And there is a lot of 
domestic microwave use, like 300 million ovens. And we have--
NASA, for example, has taken the sort of standard that, at the 
maximum--one quarter of sunlight--and at the edge of the 
receiving antennae would be about the same as if you stand 4 
feet away from a microwave oven with a door closed.
    We have done experiments on birds flying through the beam. 
This was done for the Environmental Protection Agency. So 
there's 13,000 papers dealing with microwave safety because it 
is widely used in industry and domestic uses. And there is a 
tremendous amount of information on all aspects. And we are 
committed in this kinds of a scheme to use all of the 
international standards which have been developed, which all 
countries adhere to, or at least, that's what they should do, 
to make sure that this is the safest energy production method.
    Mr. Weldon. Thank the chairman.
    Mr. Hastert. Thank you. I have a couple questions. First of 
all, Dr. Criswell, the average American's consumption of energy 
is what, about?
    Mr. Criswell. The average for the United States is about 11 
kilowatts of thermal energy per person.
    Mr. Hastert. Of thermal energy.
    Mr. Criswell. Yes.
    Mr. Hastert. So if you measured that in electricity, how 
much electricity would they use on the average?
    Mr. Criswell. It depends on how you apply it. But as a rule 
of thumb, divide by a factor of three. You'd get 3 to 4 
kilowatts.
    Mr. Hastert. So, the recommendation that we bring the rest 
of the world up to 2 or 3, you'd be coming close to the 
American average? I've been in China, an emerging nation, and 
they don't have enough electricity to do the things that they 
need to do as an industrial nation.
    Mr. Criswell. That's right.
    Mr. Hastert. And of course, you get into Third World 
countries, and it's just not there. The average nuclear plant 
is perhaps--2,000 kilowatt-hours?
    Mr. Criswell. Well, I tend to think of these things in 
gigowatts. Because--a billion watts.
    Mr. Hastert. Gigowatts.
    Mr. Criswell. And a big nuclear installation--a collection 
of plants--will be about a gigowatt. I think the typical plant 
is half a gigowatt.
    Mr. Hastert. All right. Maybe 500----
    Mr. Criswell. 500 megawatt.
    Mr. Hastert. Right. In my State, we have 12 nuclear plants. 
Two of them--in my area, two of them are going to be out of 
commission within a year, it looks like. As we start to cycle 
down those, you can actually deliver electricity in these low 
intensity beams? Can you deliver electricity in that type of 
numbers, quantity?
    Mr. Criswell. Yes. You could supply the U.S. electric needs 
by using about 5 percent of the land area now associated with 
the generation and transmission of electric power. Including 
coal mines and railroads that are dedicated to it.
    Mr. Hastert. Dams and hydro.
    Mr. Criswell. Now, I had the pleasure, over the last 5 
years, to work with an economist at the University of Houston, 
Russell Thompson. Unfortunately, he died of cancer in January. 
One of the things I asked him to do was look at the 
proposition. Suppose the United States had stayed on the Moon 
with a small, permanent manned base after we finished Apollo. 
By 1980, that was the time that the studies of the solar power 
satellite systems were coming to a head, it was clear the 
technology was there to do that, but the costs were high.
    And so, using the models that we've developed since then, 
we said, what would be the effect on the U.S. economy if we had 
instituted the lunar power program at that point in 1980 and 
built up to about 300 or 400 gigowatts of delivered power by 
the year 2000, and what would it have added--in his models, 
then, we could take the real economy and then we could look at 
how the economy was affected by this change in energy basis 
where the wholesale cost of electricity came out to about 3 
cents a kilowatt-hour.
    What we found was that you would have added by the year 
2000 about $60 billion a year in direct economic benefit by 
this new source of energy. You would have had a multiplier of 
about a factor of three. So you would have been adding about 
four. You would have been adding a quarter of a trillion a year 
to the U.S. economy, not counting any add-on for export or sale 
of technology or export of energy.
    Mr. Hastert. I don't want to get a Buck Rogers-type 
scenario here. But if a country was able to develop this low 
intensity, high energy beam from the Moon and then by 
satellite, could that be used as a danger to other countries? I 
mean, if you had a hostile country that did that, could they 
use that in a negative way, Dr. Glaser?
    Mr. Glaser. I'm delighted to tell you that this has been 
looked at already by NASA and the Department of Energy. 
Eventually, this will have to be under some international legal 
and regulatory framework just as we have communication 
satellites under international legal regulatory framework. I 
believe that there's enough evidence that would show that if 
anybody would try and do something different, first of all, I 
believe that eventually, just like in Intel South, there will 
be some international ownership. I believe Intel South is owned 
by 128 countries.
    Eventually, I could visualize it some time in the next 
century, we would actually have an international energy supply 
system from the Moon or from orbit or whatever the best 
approach would be. I think that this is, perhaps, the best way 
that we can make sure that nobody can misuse the power.
    Mr. Hastert. Well, I know our focus has kind of switched 
here to solar electricity, something that I've worked on in my 
career in the legislature and also here. It's something that we 
need to find. Society demands that we find clean energy. This 
society and a future society will demand more and more energy. 
How we get it without burning fossil fuel or--how to find new 
places to store spent nuclear high level energy. It's just an 
enigma around this place, how we get those things done. So it's 
interesting. I'm going to ask Dr. Berendzen, you're an 
educator--American University--as well as an astronomer. What 
trigger do you need, because you work with young people all the 
time, to get them excited, involved and committed to this type 
of endeavor for their future?
    Mr. Berendzen. I think they're ready to go. I think what 
they need is to know that the Nation is ready. It strikes me 
that during the Apollo era, we had a focus. We had a purpose. 
We had a dream. We had a goal. We had a date certain. And then 
we did it. And then we lost it. At the end of Apollo, how 
curious the history books of the future will be written.
    Can you imagine someone writing a history book 500 years 
from now. Back in that time, in the United States, they decided 
to leave the Earth. They went to the Moon. They took those 
first steps. And then they came back again, sort of like a 
child putting their foot in the cold water of the ocean and 
retreating; they didn't return. Our space program began to lose 
it's focus. The Challenger disaster hit hard. The flaw in the 
Hubble certainly hurt. The end of the cold war removed the 
competitiveness that we once had.
    What I urgently plead, if I might summarize much of what 
I've heard in the last few hours, is that this committee 
continue on with your series of hearings, that, perhaps, you 
collaborate with some of the other committees and subcommittees 
that are interested in these matters, as well. That there is a 
need, I believe, for a general education, dialog, discussion 
involving Members of Congress, NASA and the American public 
generally. What is needed ultimately are long-term plans: 
realistic, visionary, bold plans.
    I happen to have had the honor of serving on the 
Exploration Advisory Task Force to NASA headquarters. We were 
in place at the time that President Bush came to this very 
building to announce that we would return to the Moon, this 
time to stay, and then go on to Mars. We gave a date certain: 
by the 50th anniversary of Apollo. It didn't come with funding, 
however. But it gave me an opportunity, at the request of NASA, 
to come in and go through all of their files on everything that 
had been done about this.
    You know how many studies have been done, how many hearings 
have been held? The report of Dr. Webb. The Sally Ride report. 
The Synthesis report. The files are filled with it. How many of 
them have been implemented? Virtually none at all. The fact is 
that while we take enormous pride in the things around us, much 
of this is history.
    My concern is the history of the future. In my testimony I 
said it's not a question of if, but it's a question of when and 
who. And the fact is, our competitors are moving now. And I 
hope the United States can restate itself with young people as 
the leader in the world.
    Mr. Hastert. Thank you, Doctor. I think that brings us to a 
fine conclusion. I appreciate your contribution today. It 
certainly has sparked our imagination a different way, 
different from the first panel. Certainly, that is the future. 
We have to start to focus and you've made a great contribution.
    This concludes our hearing for today. The meeting of the 
subcommittee is adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]


 DEFINING NASA'S MISSION AND AMERICA'S VISION FOR THE FUTURE OF SPACE 
                          EXPLORATION--PART II

                              ----------                              


                          MONDAY, MAY 19, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dave Weldon 
presiding.
    Present: Representatives Weldon, Morella, Davis of 
Virginia, and Turner.
    Staff present: Robert Charles, staff director; Ianthe 
Saylor, clerk; Mark Stephenson, minority professional staff 
member; and Ellen Rayner, minority chief clerk.
    Mr. Weldon. Good morning. Due to unforeseen weather and 
some other circumstances, specifically, the death of a friend; 
Chairman Hastert and Vice Chairman Souder are unable to be 
here. Accordingly, I will act as the Chair this morning until 
one of the Members arrives.
    This is the second in a series that this subcommittee will 
conduct on the topic of NASA oversight and the future of space 
exploration. The first of these hearings was held last week at 
the Air and Space Museum and was highly educational.
    Our purpose today, is to focus on defining NASA's and the 
Nation's long-term mission in space. Beyond this day, we begin 
to examine narrower and perhaps more short-term issues. But 
today we are discussing vision, direction, and long-term 
oversight.
    Since we have two remarkable and historic panels today, I 
will keep this opening brief. In my view, there are great 
untapped opportunities in the development of space, including 
space-based resources and well planned, well managed space 
exploration missions.
    Historically, we know that this Nation has derived enormous 
benefits, both direct and indirect, commercial and national 
security related, from seeking and achieving great goals in 
space. I think we also know that there has been noticeable 
slippage since the glory days of Mercury, Gemini, and the 
Apollo programs.
    Today, we bring before us a range of extraordinary 
witnesses to ask the pivotal questions: Where should America, 
both NASA and we as a Nation, be headed? What are the top 
competing ideas, and how do we get the Federal Government back 
on track? How do we regain the tight focus that, as a Nation, 
we once had in the realm we call space, and how do we pass on 
to our children the inspiration and legacy, mission 
orientation, and sorts of advances in engineering and science 
that Mercury, Gemini, and Apollo made possible for us 30 years 
ago? In short, what should this Nation's vision be, and how do 
we achieve it?
    Let me just make a final note. In Washington, much of what 
we do and what I do as a Congressman relates to our kids, and 
the future. How do we make the future that we pass on to them 
as bright and promising, as daring and rewarding, as the one 
that was passed on to us.
    So with that, let me say that I am eager to hear the words 
of our two distinguished panels. I would like to add that the 
ranking minority member, Tom Barrett, though very supportive of 
this hearing, was unable to be here this morning.
    Now at this point, if I could, I would like the first panel 
to rise to be sworn in.
    Please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Weldon. Let the record show that the witnesses 
responded in the affirmative.
    Now I would like to formally welcome our first panel. Scott 
Carpenter is the former Mercury 7 astronaut. It is also worth 
noting that he flew the second American manned orbital mission. 
He piloted his Aurora 7 spacecraft through 3 revolutions of the 
Earth, reaching a maximum altitude of 164 miles. He has also 
written two novels.
    Gene Cernan flew on three separate space missions. He was 
the second American to walk in space as the pilot of the Gemini 
9, one of a crew of three to venture to the Moon on Apollo 10, 
and, as commander of Apollo 17, he holds the distinction of 
being the last man to leave his footprints on the surface of 
the Moon. He is currently president and CEO of the Cernan Corp. 
and the Cernan Group, which are space-related technology and 
marketing consulting firms.
    Dr. Buzz Aldrin is a man who needs no introduction. All of 
you know that he piloted the lunar module on Apollo 11, the 
first manned mission to the Moon, and he was one of the first 
men to walk on the Moon. You may also know that Buzz was 
already a war hero before he ever became an astronaut, having 
flown 66 combat missions in Korea. Buzz is also a scholar, who 
earned his Ph.D. from the Massachusetts Institute of Technology 
for his scientific work on space flight.
    We welcome all of you and look forward to your testimony. 
Mr. Carpenter, if you could proceed now.

  STATEMENTS OF SCOTT CARPENTER, MERCURY 7 ASTRONAUT; CAPTAIN 
 EUGENE CERNAN, GEMINI 9, APOLLO 10, AND APOLLO 17 ASTRONAUT; 
              AND BUZZ ALDRIN, APOLLO 11 ASTRONAUT

    Mr. Carpenter. Thank you very much, Mr. Chairman, and thank 
you for this opportunity to speak my mind about our space 
program.
    I believe that if we as a Nation are to properly direct our 
space flight efforts in the next five decades, we should first 
examine our decisions and our triumphs and our failures in 
space flight during the last five decades. In the mid to late 
forties, we had the bomb, we had won the war, and we were king 
of the mountain, our Nation was secure, and we were complacent. 
We did then completely overlook the sleeping giant that was the 
Soviet Union. National security was looking at a very real 
threat, and we played catchup for the next 15 to 20 years in 
science and engineering, aeronautics, and space flight. 
International prestige and national security were at a low ebb.
    But the cold war had a surrogate, and that was the 
constructive Soviet and American competition in space flight. 
It replaced in our struggle for world dominance the destructive 
competition that would have been war, and I honestly believe 
that that fight for preeminence in space kept us out of war. 
Also, I honestly believe that all of the close calls that world 
peace had in those years came from our own complacency.
    Could that happen again? We have now won the race to the 
Moon. The Soviet Union has crumbled, and we, for the most part, 
are king of the mountain again. But beware complacency. China 
lurks.
    During the early days of the space program, we had two 
precious gifts. One was the vision of Jack Kennedy, which 
inspired us. The other was the genius of von Braun, which 
enabled us. We don't have them with us today to show us the 
way, but maybe if we can all band together to express our faith 
in and share our vision of the future, we can avoid repetition 
of past mistakes.
    I could give you, but to no avail, and you have seen 
probably to no avail, endless lists of specific advances in 
technology and spin-offs in science that are expected to accrue 
to us from continued space exploration and habitation. But 
those specifics are all trees. We should be looking at the 
forest.
    Likewise, we should be looking as best we can at what we 
might expect to come to us from a vigorous space program 50 
years from now, not 5 years from now. Helpful in this regard 
might be a look at how our present lives have been changed and 
enriched by the birth of space flight 50 years ago.
    If we do that, we see the forest and not the trees, and 
that forest justifies every penny we spend in space. The forest 
is simply new knowledge in every discipline you can name. That 
is my abiding faith. My own private evaluation of where we once 
were and where we are now proves to me the truth underlying my 
faith. I believe any thinking man who looks carefully at the 
progress of science over the ages must share my faith.
    Some look at the past and still ask the question, why? I 
say to them, if you must ask the question, you will never 
understand the answer. Space flight is not without risk. All of 
us who do it know it. But the benefits derived far outweigh the 
risks involved, and all of us who do it know that too.
    Nothing of value is gained without some risk. If we are to 
keep our Nation prosperous and secure and keep the spirit of 
our people alive, then we must take some risks, we must tackle 
the unknowns with boldness, and rise from the ashes of our 
failures with new resolve and define and seek our future with 
vision.
    As stewards of the Nation's future, I ask you, and in light 
of the last 20 years I may even implore you, for the sake of my 
grandchildren and theirs and yours, and indeed for the 
generation represented by a young man who will speak to you 
soon, Josh Ouellette, who wishes to be a space man and who, I 
remind you, will live for 50 years of his active scientific 
contributions with what we decide to do today, I ask you, for 
all of those, to keep us actively involved in space station 
construction and in vigorous exploration of space.
    And as a justification and as a target for now for all we 
plan to do in space, let's use Mars and all the new truths that 
lie hidden there.
    I thank you again for this opportunity and your attention.
    Mr. Weldon. Thank you, Mr. Carpenter.
    Mr. Weldon. Now Mr. Cernan. Let the record show that Mr. 
Cernan's dedication to the space program is so strong that he 
did not allow an adverse encounter with a bull yesterday--or 
was it the day before yesterday? I am not sure--to interfere 
with his decision to come out here.
    So we appreciate you being here.
    Captain Cernan. Thank you, Mr. Chairman.
    I think we can call my close encounter with a 2,000-pound 
longhorn bull not necessarily an act of God, probably somewhat 
induced by me. I apologize for appearing with this barroom-
brawl-looking complexion I have. I find a lot of inquisitive 
people here who are too curious to ask me what happened. But 
suffice to say, it was a close encounter with somewhat of a 
natural disaster.
    I, too, am very honored to be here. I appreciate the 
opportunity to express my views on something that has become 
very near and dear to me, and that is the future of this 
country, the slant toward my experience of course in space, and 
what I believe space has contributed not just to the past but 
potentially to the future of the country that, as Scott says, 
our children and grandchildren are going to grow up into.
    At exactly 12:40 a.m., Eastern Standard Time on December 
14th, 1972, I left mankind's final footsteps of Apollo on the 
surface of the Moon. As my partner, Jack Schmitt, and I 
departed, we echoed the words that, ``Some day we shall 
return,'' that Apollo 17 was not the end, but rather it was the 
beginning, the beginning of a whole new era in the history of 
mankind. And a few days later, when I returned to Earth from my 
second journey to the Moon, I boldly and confidently predicted 
that we would be on our way to Mars by the turn of the century.
    We had 28 years to prepare for the next giant leap. What I 
did not anticipate, however, was that the beginning of which we 
spoke would be far more than a generation in coming and that 
the future might well be challenged by other than Americans.
    But if Apollo was the beginning, what became of that 
future? Where are the dreams and the visions today? And where 
is the resolve and the commitment that challenged us to learn 
to live and to work in space and ultimately to venture a 
quarter of a million miles into the endlessness of time and 
call, if only for a short while, places like Tranquility Base 
and the Valley of Taurus-Littrow, our home.
    Is it still possible for an American President to take as 
bold a step as John F. Kennedy did in 1961 when he answered the 
world's call to challenge Sputnik and set this country's sights 
on the Moon? That was the day America dared to become a space-
faring Nation. Or, has our no-risk, ``what is in it for me'' 
culture of the past quarter of a century taken control of our 
destiny?
    I happen to believe it is possible, but only when our 
leaders in both government and industry accept the reality that 
space is not now nor ever has been a luxury but a necessary 
ingredient to our position of world leadership and to the 
economic future well-being of each and every American.
    My hopes soared when President Bush announced back on July 
20, 1989, the 20th anniversary of Apollo 11, that we would 
return to the Moon, and this time to stay. Could it be that we 
once again had a President who not only reflected upon the past 
but understood the significance and importance of a national 
commitment to the future? President Bush then expanded his 
spacial exploration initiative by setting the year 2019 for a 
manned mission to Mars.
    I believe it doesn't really matter what the date is, 
whether it be 2012, 2019, 2020, or whatever. What I do believe 
is of far greater significance is that this Nation have an 
ambitious yet attainable goal that reaches out a generation, a 
generation into the future, a goal the entire country, both 
young and old, government and industry, can get our arms 
around, a continuing national goal that transcends political 
boundaries, one that is not challenged, one that is not 
changed, one that is not canceled only to be reborn every 4 
years. The infrastructure to support such a goal could well be 
the model for our future industrial and technological 
evolution.
    But some in Congress at that time had their sights set on 
stopping our renewed space effort before it even had a chance 
to be debated. The congressional subcommittee that appropriated 
money for NASA somehow saw reasons to delete all funds for 
President Bush's space exploration initiative. They said that 
space exploration could wait until next year, as, 
unfortunately, it has waited for each of the last 25 years.
    But can America wait forever to renew our exploration of 
space? Is Congress right when they postpone the challenge to 
better understand our own planet and this universe in which we 
live? Let's take a look at what is now at stake.
    Three decades ago, the United States and the Soviet Union 
were the only countries in the world who even dared to dream of 
going to the Moon and together we owned space. Not so any more. 
In recent years, Japan has had plans to launch a probe to the 
Moon, the first Earthly object directed there since the early 
1970's, and in 1989 the Japanese established a scholarly 
journal to publish ideas on how to go to the Moon, live on the 
Moon, and, most importantly, use the Moon for economic benefit.
    In the near future, Japan plans a series of probes aimed at 
exploring lunar resources for their own industrial and economic 
potential. Clearly, clearly, many nations, particularly those 
known for long-term investment and economic success, have 
targeted space as a growth industry of the 21st century. In 
addition to Japan, we have only to look at the European 
industrial community today and, as Scott said earlier, to China 
as well.
    But why space? What is in it for us? If we take a moment to 
reflect upon history, upon the accomplishments of more than a 
quarter of a century, upon the impact of space on medicine, 
communications, computer technology, as well as those things 
that are now an integral part of our everyday lives, it is then 
that we must acknowledge the importance of the foundation of 
technology from which this Nation has flourished.
    This foundation of technology has been nurtured and 
continued to grow for over 100 years, allowing the United 
States to reach for and achieve greatness as a world leader of 
civilized mankind today. This technological base has not only 
allowed us to gain a technical and scientific understanding of 
the universe in which we live but to achieve international 
stature, political leadership, and economic affluence and well-
being second to none other anywhere in the world.
    Today, the brightest spot in the U.S. balance of trade 
continues to be the aerospace industry. Tens of billions of 
dollars per year pour into this country from our overseas 
commercial and military aircraft sales. This unique situation 
did not come about by chance but, rather, as a result of over 
80 years of U.S. investment in research and development.
    This technological legacy so important to the past is 
equally important to the future, and I believe space can be its 
cornerstone. Today there is even more at risk than there was in 
1961. There are challenges to our technological leadership on 
all fronts from all corners of the globe by countries once 
perceived as our own private international marketplace. Never 
were these countries perceived as a competitor, much less as 
our technological equal.
    Now, in this decade of peace, unless we find a vehicle for 
carrying forward the research and development upon which our 
economic influence and world leadership depend, the foundation 
of which I speak might well crack and crumble, and I believe 
that vehicle is space.
    But true space exploration can have an even greater impact 
on our lives than that of technological progress alone. 
Education is the most far-reaching and crucial problem this 
Nation faces today. Americans everywhere decry our second-rate 
educational standing in the world. The problems are 
particularly acute in the critical science and engineering 
disciplines. It is bad enough if our youngsters don't know 
where Europe is, but if they are unable to read or write, our 
situation quickly becomes intolerable.
    It is a well known fact that the U.S. Space Program 
provided an enormous impetus and incentive for technical 
education during the Apollo days of the 1960's. Our production 
of scientists and engineers tracked the increases and, 
unfortunately, the decreases in our space exploration effort. 
During the 1960's, we not only produced outstanding technical 
people, but the lure of space attracted the best and brightest 
young minds from overseas as well.
    Now, as we approach the challenge of the 21st century, it 
is a sad commentary that we produce only half as many 
scientists and engineers and over half of those are foreigners 
who return home to enrich their own countries' economic 
competitiveness and not ours.
    But good education requires more than better facilities, 
commit- ted teachers, and modern equipment. It takes 
inspiration for our students to excel, and there is no greater 
inspiration for our chil-dren than the challenge and 
opportunity to explore the unknown, and no greater unknown than 
the universe in which we live.
    It has now been 25 years, a quarter of a century, since I 
left those final footsteps on the Moon. Today we have a 
college-age gen- eration of young men and young women who were 
born into this world after those last steps were taken, a 
generation of youth in a world today who never knew when man 
didn't walk in space or called the Moon his home. That, 
gentleman, is in itself an incred- ible thought.
    Perhaps even more startling is the fact that it may well be 
a gen- eration or more before we undertake a journey of such 
magnitude again.
    I would like to reflect for just another moment or two 
because Apollo has been called by many the greatest 
technological endeavor in the history of mankind, and perhaps 
it may well have been. I believe, however, Apollo was much 
more. I believe it was a human endeavor unmatched in modern 
history. It was an endeavor not of a few chosen individuals who 
had the opportunity to step on the surface of the Moon but, 
rather, a team of thousands of Americans who were dedicated and 
committed to a goal deemed by many un- attainable.
    Apollo required this Nation to reach further than man has 
ever reached before. This team of Americans left an indelible 
mark on each of us here today and on all of those to follow in 
our footsteps tomorrow. Apollo encompassed the vision of a 
President and the ef- fort, dedication, courage, self-
sacrifice, and steadfast determination of an entire Nation of 
people, just as JFK said it would, a Nation of people who 
overcame the tragedy of the Apollo 1 fire, an event that would 
have deterred a lesser people, and who would just not quit 
during Apollo 13, when we came closer than most of us even knew 
then of condemning three human beings to the endlessness of 
space.
    Apollo 13 was an example of teamwork and commitment un- 
equaled and now recognized as perhaps the finest moment of 
Apol- lo. We earned the right to celebrate our triumphs, and 
God knows we have paid dearly for our mistakes. Yet this team 
of Americans, together with common commitment and purpose, 
transformed what was once but a monumental dream into the 
reality of a generation. Together, they accepted the challenge 
and made each of those steps taken on the Moon possible.
    It was a human endeavor of immense proportions by those who 
dared to dream, by those who dared to reach beyond our grasp, 
and by those who were not deterred by failure. Together, they 
just did not know it could not be done, and therein, I believe, 
lies the es- sence, lies the legacy of Apollo.
    But as we reflect upon the past, it is essential that we 
look to- ward the future as well. Will the time come when we 
are once again a space-faring Nation and truly explore the 
wonders of the universe in which we live? Will we ever again 
voyage to the stars, or will we confine ourselves to circling a 
few miles above our home planet? Will we ever in our lifetime 
again be able to look back from a quarter of a million miles 
away at the majestic beauty of our own star in heavens, across 
the entirety of oceans and continents, at the Earth revolving 
on a unseen axis at that earthrise, first seen on Apollo 8, 
which changed the way we look at ourselves forever and at those 
sunrises back here on Earth and sunsets that we found just 
happening?
    Will our children and our grandchildren, born after those 
final steps of Apollo, ever have the opportunity to see our 
stars as we once did and perhaps conclude as well that there 
must be a creator of the universe in which we live?
    Although this Nation appears destined to remain home for 
the foreseeable future, I believe without reservation that some 
day we will once again satisfy our insatiable desire to explore 
and to discover the unknown, a dream of our forefathers 
thousands and thousands of years ago.
    The opportunity to know and understand is now within the 
reach of our children, and I submit to you that they will not 
be denied. I find that youngsters, like this young man Joshua, 
whom you will hear from in a moment, no longer look at going to 
the Moon or on to Mars as an impossible dream as we once did 
but, rather, something that they can do simply by deciding to 
do it once given the opportunity.
    The implications on education and the use of space as a 
motivational tool for learning are indeed far-reaching. I know. 
I have a daughter who teaches fourth grade right here in 
Fairfax County.
    That next giant leap in space not need be solo. The first 
voyage to Mars might well be an international effort involving 
many countries. Still, there is great risk to our economic 
security if the United States does not have a stable and 
ambitious space program of our own. If we back off and say we 
have done it all, we have gone to the Moon, we have developed a 
space shuttle, and let others buildupon our technological 
competence, we will find ourselves in an unacceptable position 
both politically and economically. We cannot afford not to be 
in a position to influence the course of the next giant leap in 
space and ultimately to determine our own destiny.
    As President Bush reminded us, ``History tells us what 
happens to nations that forget how to dream.''
    Gentleman, there is too much at stake to turn back now. We 
must not allow our once proud resolve to turn into 
indifference, for what we as a Nation leave undone today will 
certainly be done by others tomorrow.
    We have challenged the future. Those that follow have only 
to understand the significance of that challenge so as to 
ultimately determine their own destiny. Williams Jennings 
Bryant perhaps put it together and put it all in perspective at 
the turn of the last century when he said, ``Destiny is not a 
matter of chance; rather, it is a matter of choice.''
    Thank you.
    Mr. Weldon. Thank you for those eloquent words. I can 
obviously see a shot in the head from a longhorn bull didn't do 
you too much harm.
    We are very pleased to be joined for this hearing by the 
distinguished Members from Texas and Virginia. If I could, I 
would like to recognize Mr. Davis from Virginia and ask him if 
he has any opening comments.
    Mr. Davis. I am honored to be here before such a 
distinguished panel.
    Captain Cernan, I have three kids in the Fairfax County 
public schools. That is my congressional district. It is the 
home of the Buzz Aldrin Elementary School. I was happy to be 
there with Dr. Aldrin when we opened it. I was out there with 
you and was there a couple weeks ago, and they read a note from 
Dr. Aldrin at that time and for Scott Carpenter.
    Captain Cernan. I might add, my daughter was selected the 
Outstanding Teacher in northern Virginia, and, without saying 
more, she truly does utilize space as a launching platform from 
which to teach everything, from poetry and English to math and 
leadership and science. It is a phenomenal experience to watch 
it happen.
    Mr. Davis. Thomas Jefferson High School for Science and 
Technology is one of the premier science schools in the 
country. I think it has had more merit scholars for the last 3 
years than any other high school in the country. It is by 
selection basis.
    Which school is she at?
    Captain Cernan. I think it is Greenbriar West.
    Mr. Davis. Greenbriar West is here on the Hill today. We 
have got some people coming from there for the Lunchbox Derby. 
I was going to try to get over to that as well.
    Captain Cernan. She is out with her students now, camping 
out for a week to teach them a few other things. She still 
motivates them through the use, as I say, of the desire to 
learn of space and the unknown. It is just a phenomenal 
experience to watch it.
    Mr. Davis. You ought to go to Buzz Aldrin Elementary 
School. It is completely science and tech, and they are doing 
new things every time I go there.
    As I say, Mr. Carpenter, I was a kid when you started. It 
is a great honor to be here today to hear you and get a chance 
to ask you questions later. Thank you very much.
    Mr. Weldon. Mr. Turner, do you have an opening statement?
    Mr. Turner. I, too, am honored to be here on this panel 
before you three distinguished gentlemen, and I want you to 
know that, being from Texas, we are still very enthusiastic 
about the space program in Texas. I really think if we can do a 
little better job about defining our goals and establishing our 
goals in the minds of the American people, that we will return 
to those days of excitement and enthusiasm about the space 
program.
    I think we are at a point where it is just much more 
difficult than ever before to clearly define that mission in 
the minds of the American people. But I think the spark of 
enthusiasm is still there waiting to be lit. I appreciate the 
three of you being here and the continuing work you do on the 
space program which, in my judgment, is so critical to the 
history of our country and of the world.
    Thank you.
    Mr. Weldon. Now we will proceed with Dr. Aldrin's 
testimony.
    Mr. Aldrin. Thank you, Mr. Chairman, for having me back to 
continue where I left off last week.
    Today I would like to introduce a statement and then expand 
on some of the concepts I feel are significant to the future of 
our space program.
    This summer, the planet Mars receives the first visitors 
from Earth in over two decades, and the space program will once 
again capture the world's attention and headlines for a brief 
few days.
    But let me suggest the time has come to expand our vision 
and begin developing a strategy to best capitalize on the 40-
year investment we have made in our space endeavors. The time 
has come to focus our efforts and to build a program that 
brings space benefits down to Earth that address and solve the 
problems of our home planet and at the same time expand freedom 
and commercial opportunity to the far reaches of our solar 
system.
    I believe that early in the 21st century, men and women 
will call Mars a second home for humanity. But my vision 
evolved from a can-do spirit and resolve, a projection of 
American prowess, as well as foresight to establish a visionary 
plan that incorporates and maximizes reusability in our space 
program.
    By resuming our investigations of Mars, we are adding new 
brush strokes to picture what will ultimately become our future 
in the cosmos. The picture I now see is of an undeveloped 
frontier that must be opened to human enterprise and 
settlement. To do so means pursuing an evolutionary, step-by-
step, building block agenda that leads to a sustained space 
program that guarantees we tap the wealth of our solar 
neighborhood and, in so doing, transforms our space-faring 
civilization into a multiplanetary civilization.
    It is becoming clear to me as we approach the new millenium 
how to do this best. However, it is also clear that the steps 
being taken by our Government's space planners do not have this 
longer-range vision in mind. For instance, the Department of 
Defense is pursuing a strategy using all-expendable throwaway 
rocketry. Meanwhile, NASA has set its future on a high-
technology solution embodied in a single-stage-to-orbit 
vehicle. While each has merit, neither satisfies the need of 
the private sector for near-term lower launch costs to access 
and exploit the frontier.
    Within a few decades, space can be an open frontier for all 
people. I see a near-term future where economical two-stage 
space launchers place passengers and cargo into Earth orbit 
with the efficiency and routine-like nature of today's airline 
traffic. A booming tourism industry will be cultivated as space 
hotels become a point of arrival and departure above our 
planet. This burgeoning business enterprise will bring about 
heavy-lift rockets, enabling grander steps of exploration back 
to the Moon, to the distant dunes of Mars and beyond.
    I envision long-haul transportation systems, deep-space 
cruisers that not only continuously cycle tourists between the 
Earth and Moon but constantly transfer explorers and settlers 
between Mars and the Earth. A fully reusable lunar and 
interplanetary system is the ultimate way of transporting 
people and cargo across the vast vacuum void of space.
    My own personal involvement as an Apollo 11 astronaut on 
the first lunar landing mission taught me an important lesson. 
Everything that went with us on Apollo was thrown away, such as 
all the stages of our giant Saturn 5 booster, save for the 
return capsule that brought us safely back to Earth.
    Now, there is nothing wrong with Apollo. Its 
characteristics were born of the time. It was a cold war, one-
upsmanship approach to out-distance the former Soviet Union. 
The Moon was the finish line. Apollo was founded on the 
straightforward space-race strategy, get there in a hurry and 
don't waste time developing re-usability.
    Today, I can't conceive of another global race, or 
cooperative effort, for that matter, that would prompt an 
effort to get to Mars, accomplish the goal, and then abandon 
the program. Yet the mind set of toss-away space hardware still 
dominates our thinking. We have gotten used to a throwaway 
space program perpetuated by a low volume of traffic from Earth 
into space.
    Long ago we tamed the sound barrier. Now we must penetrate 
the reusability and recycling barriers to shape our 21st 
century space endeavors. But how can we rekindle the spirit of 
Apollo and match it with a sustainable evolutionary space 
program for the 21st century? I see an action plan for the 
future--you can call it 20-20 vision--based on years of 
training and experience this country so graciously invested in 
me.
    As our next step, lowering the cost of space access with a 
reusable two-stage-to-orbit launcher is critical. Incorporating 
a fly back reusable first stage, this type of launcher would 
hurl another rocket-powered vehicle that can reach space with 
greater economy than a purely self-propelled.
    By lowering the expense of attaining Earth orbit, many new 
industries are waiting to develop, one of which will be space 
tourism. Soon, tens of thousands of citizens will have the 
opportunity to travel into space, gaining a sense of 
participation in opening the frontier of space to enterprise, 
exploration, and eventual settlement.
    From this step, an add-on to the reusable space program 
philosophy is building a bridge between worlds. Through a 
system of reusable spacecraft that I call cyclers, traffic 
routes, first between Earth and the Moon, then Mars and Earth, 
should be put in motion. Very much like ocean liners, the 
cycler system would perpetually glide along predictable 
pathways, moving people, equipment, and other materials to and 
from the Earth over inner solar system mileage.
    A sequential buildup to a full cycling network could be in 
place within two decades of a go-ahead geared to the maturation 
of lunar and Mars activities. The Earth, the Moon, and Mars 
will form a celestial triad of worlds, busy hubs for the ebb 
and flow of passengers, cargo, and commerce traversing the 
inner solar system.
    My schedule for accomplishing these objectives is 
practical, achievable, and affordable, drawing from decades of 
space expertise already honed by our early exploits, including 
the space shuttle and space station projects. I call for a 
strong and vibrant space tourism business and a return to the 
Moon by 2010, and then reaching Mars before 2020.
    Frankly, I think we can beat that schedule. The common link 
between steps in this timetable is a progressive set of 
reusable boosters, reusable access to space, and then reusable 
interplanetary cyclers. This vision spans two decades of 
enterprise, exploration, and settlement. It should be wisely 
enunciated by a new U.S. President in the year 2001.
    By the year 2030, I see people looking back and cherishing 
the moment that a leader of our country committed us to a 
gradual but progressive plan of permanent settlement of space, 
not just occasional visits that leave little more than flags 
and footprints.
    The surface of Mars is equivalent to the land area of 
Earth. Once a human presence on this planet is established, a 
second home for humankind is possible. A growing settlement on 
Mars is, in essence, an assurance policy not only for the 
survival of the human race, not only is the survival of the 
human race then assured, but the ability of it to reach from 
Mars into the research-rich bounty of the Martian satellites 
and nearby astroids is also possible.
    These invaluable resources can be tapped to sustain 
increasing numbers of Martian settlers as well as foster 
expanded interplanetary commerce and large-scale industrial 
activities to benefit the home planet, Earth.
    Of course, some will insist on building outer-solar-system 
cyclers as humanity continues outbound into the universe at 
large.
    My 2020 vision is a call for a sustained space program with 
long-range acuity. We can now chart a course that returns us to 
the Moon, then allows humanity to strike out for the new world 
of our future, the planet Mars.
    But our near-term space efforts, both manned and robotic 
missions, must be tailored to support the longer-range purpose 
of opening the frontier. Step by step, program by program, we 
can construct a future of limitless potential. I must ask you 
gentleman, if not for these bold endeavors, then what is our 
space program for?
    Please allow me to address four significant points that 
Congress, as a governing oversight body, can do to help 
guarantee that the vision I have described here today can come 
to fruition for future generations.
    First, the highest priority of NASA and congressional 
oversight into NASA's activities must be to develop lower-cost-
to-orbit systems. Congress should continue its leadership role 
in this direction by expanding the spectrum of development 
options beyond single-stage-to-orbit systems to include the 
gamut of reusable launch vehicle options, including two-stage-
to-orbit systems.
    Second, continue to identify and eliminate those stifling 
regulations that inhibit the private sector from competing in 
the commercial launch vehicle market to facilitate the 
development of low-cost transportation system options.
    Third, focus near-term activity, both in NASA and the 
private sector, by adopting the long-range national goal to 
expand human presence throughout the solar system and to tap 
the unlimited power and resource potential of solar space.
    Finally, charge NASA to study in depth these 
recommendations and the reusable cycling transportation system 
I have described for the economical exploration and development 
of the Moon and Mars.
    Now, I would like to elaborate on some of these concepts by 
using some visual aids. This viewgraph shows the use of an 
existing very powerful, competent rocket, the Zenit rocket. It 
is a two-stage rocket that the Boeing Co. is going to use 
called Sea Launch on floating platforms to hopefully bring back 
the commercial launch business, back from the French, back to 
the United States. This Zenit rocket was part of the Energia 
heavy lift rocket launch, today the world's most impressive 
rocket.
    What we propose to do is wrap an airplane around the first 
stage, run it through test programs, horizontal and vertical, 
mate it with itself for suborbital tourism, with upper stages. 
Two- and three-star boosters can be attached to this. This 
booster could lift the X-33 into orbit with several thousand 
pounds of payload, or, with the RLV, if it is ever financed and 
built, it could double its payload.
    However, a better second stage reusable is probably 
preferred based on more ruggedness and perhaps external 
hydrogen tanks. This booster could be used as three replacement 
boosters for the solid rockets on the shuttle or as two 
replacements, one on each side, if the tanks are stretched on 
it appropriately. It forms the basis for a reusable, strap-on, 
heavy lift rocket system that puts up the hotels for tourists 
for the American people, and with that enthusiasm, we use that 
booster then to go back to the Moon, and second generations of 
that get us on to Mars.
    I have a timetable for accomplishing these, and I will 
leave that up there for a while. But note that it involves the 
first tourist in Earth orbit that might use a commercial 
version of the return vehicle that is being prepared for the 
space station. That, with an upper stage and boosted into orbit 
by the star booster, would be a very competent first tourist 
opportunity. We are going to need the hotels in space.
    Three or four-star boosters could give us the heavy lift. 
Then we could return to the Moon in 2008, phase 1 direct to the 
south pole of the Moon, variable gravity research, leading to 
expanded lunar operations and reusable lunar landers in phase 2 
with sort of a rendezvous at L-1, the liberation point. It is 
more like the Apollo instead of direct to the surface.
    This eventually grows to lunar cyclers for tourism that are 
the predecessors of the Earth-Mars cycling system that enables 
us an efficient system of getting to Mars, the moons of Mars 
first.
    What I would like to show you over here is two examples of 
Earth, Moon cycler systems, where we take the figure 8 and then 
we go out on an ellipse several times before we go and 
encounter the Moon again. There is another version of this that 
goes out past the Moon, comes back, swings around the Moon, the 
front side, and then back out again. That is more than a 30-day 
mission. It is probably not too usable as a transportation 
system for explorers, but it is ideal for tourism.
    Looking at Mars, the Sun, the Earth and Mars line up at a 
date here in 2016. The next time they line up is after the 
Earth gets ahead of Mars and goes around once. Mars is over 
here. When the Earth goes around twice, Mars is still ahead of 
it. The two line up again 26 months later.
    The significance of this is that in order to travel from 
Earth to Mars, you should be about halfway between Earth and 
Mars when this opposition time occurs. And if you wanted to 
leave Mars here for this opposition, you leave at this point 
and reach Earth back over here.
    Now, a schematic of a cycler system that keeps the energy 
of the interplanetary vehicle when it reaches Mars so that it 
doesn't have to slow down and stop and then use fuel to depart 
Mars again is in this diagram here. When you swing by Mars, we 
would go at a plane from Mars, swing by half a revolution 
later. One revolution later, we convert that velocity back to 
bring us back toward the Earth.
    At the Earth, between the opportune times to go from Earth 
to Mars and Mars to Earth, we have to wait about 18 months. 
That allows us to go out of plane from the Earth's orbit around 
the Sun for 6 months, 6 months and another 6 months, before we 
convert by gravity assist in swinging back to Mars.
    It is a fascinating system, and in more detail you can see 
it on this inertial plot where we show transfer down here from 
Earth to Mars. We would wait for one revolution at Mars and 
then return back to Earth over here. We would make an orbit and 
a half of the Sun and then go back to Earth.
    It has been a really great challenge for me to take the 
knowledge that I have accrued in my educational system and my 
experience of being an astronaut and to project this into the 
future to learn as much as possible about how to make 
economical systems, challenging systems.
    I think that tourism is within the next 10 to 15 years. It 
will enable the Moon to be returned to and open up Mars. The 
space frontier is ours for the use, for the grasping. The 
decision is ours, and let's go for it.
    Thank you, Mr. Chairman.
    [Note.--``Ad Astra,'' the magazine of the National Space 
Society, May/June 1997, can be found in subcommmittee files.]
    [The prepared statement of Mr. Aldrin follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.099
    
    [GRAPHIC] [TIFF OMITTED] 46559.100
    
    [GRAPHIC] [TIFF OMITTED] 46559.101
    
    [GRAPHIC] [TIFF OMITTED] 46559.102
    
    [GRAPHIC] [TIFF OMITTED] 46559.103
    
    [GRAPHIC] [TIFF OMITTED] 46559.104
    
    [GRAPHIC] [TIFF OMITTED] 46559.105
    
    [GRAPHIC] [TIFF OMITTED] 46559.106
    
    [GRAPHIC] [TIFF OMITTED] 46559.107
    
    [GRAPHIC] [TIFF OMITTED] 46559.108
    
    Mr. Weldon. Thank you, Dr. Aldrin, for that fascinating 
presentation.
    Before we move on to the question and answer period, I 
would like to recognize a member of the committee, the 
distinguished lady from Maryland, Mrs. Morella, for an opening 
statement.
    Mrs. Morella. Thank you, Mr. Chairman.
    I am really not going to make an opening statement, but I 
did want you to know that I am on the Science Committee, which 
has space under its jurisdiction also, and I showed up this 
morning at the Air and Space Museum. Since you all weren't 
there, I did a tour of it. So it really prepared me for the 
hearing this morning. I appreciate you being here.
    It is interesting, because this is cleanup time, isn't it, 
the spring cleaning happening on Mir and Atlantis, and this is 
something you all know full well, so I think it is pretty 
significant that at this time when we continue with the 
partnership with the Russians on the space station that we also 
have our shuttle that is changing things around and somebody 
who will be up there also for 4 months on Mir. A lot of 
exciting things are happening.
    But I would agree with what I understand that you have said 
in terms of the fact that we need something that is long-range. 
We need to also excite our young people. I had the opportunity 
just last week to help to rededicate a school in Montgomery 
County, MD, called the S. Christa McAuliffe School. Her mother 
was there. And their whole theme is reach for the stars, touch 
the future.
    I think that is also part of the theme that you have been 
generating in terms of motivating young people, in terms of 
space exploration, all of the scientific endeavors that go 
along with it, the leadership, taking risks, long-term policy, 
the spin-offs. As a woman, I can see plenty of medical spin-
offs that help, for instance, with breast cancer and a number 
of the other diseases where it would be helpful.
    Mr. Carpenter, you were my neighbor once upon a time in 
Bethesda, MD, so it is good to see you again and also to kind 
of celebrate your achievements.
    Dr. Aldrin, I read your testimony from last week where you 
appeared, and I mentioned some of your themes at that time 
which were like education, faith, and commitment; pretty much 
that was it; and I thought your explanation of it was also very 
good.
    So I look forward to the line of questioning. I thank the 
chairman for the opportunity to thank you for being here and 
what you represent. I hope the whole world can see what you 
have done and what you see as our vision and mission for the 
future.
    Thank you.
    Mr. Weldon. I would like to begin the question and answer 
period, recognizing the gentleman from Virginia, Mr. Davis.
    Mr. Davis. Let me ask--I guess our next panel will get into 
this in some more detail--do we presently have the life support 
systems that would be required to send somebody to Mars? If 
not, do you think this is easily achievable? I will start, Mr. 
Carpenter, with you, if you know, or Captain Cernan. Do any of 
you have a feel for that?
    Mr. Aldrin. That is what the space station is for. The 
space station is to prove out the scientific needs that we have 
for continued use of space, and life science is one of the 
major ones, and long-duration space flight on the space 
station, longer than the shuttle itself can stay up. That is 
why the Russian experience is so valuable to us, that they have 
been able to stay up for 6 months at a time and several of them 
for over a year. The life support systems that they have 
developed are going to be very useful for us to learn from and 
then develop our own systems.
    Mr. Davis. I guess you would say, in summary, we may not be 
there but we are on our way, we are getting good data and need 
to expand on that.
    Captain Cernan. Can I give you a historical analogy? When 
JFK challenged this country to send a man to the Moon back in 
1961, he did so within 3 weeks after Alan Shepherd flew, the 
first American in space. Alan flew for 16 minutes and had not 
yet even achieved orbit, and JFK said we are going to go to the 
Moon.
    We didn't have boosters, we didn't have environmental 
control systems, we had never gotten out of a spacecraft, we 
had not even been in orbit, we didn't have anything it took, 
but it was a challenge. It was the fact that he challenged 
people to do something, as I said earlier, that most people 
thought couldn't be done, that evolutionized that technology 
necessary to get us to the Moon; computer technology.
    When I think about where we ended up in Apollo and where we 
started when JFK said we are going, none of that existed. So, I 
don't look at that as a problem; I think it is a commitment.
    If we decide we are going to go to Mars, if we put together 
a long-term national commitment that looks at a generation in 
the future, the infrastructure resulting from that equipment 
that is going to evolve from it, there is going to be a whole 
industrial base.
    As I said earlier, to me, although there may be other 
reasons because of the location of the Moon, Mars, and so 
forth, as to what year we could, that is less important than 
the fact that we commit ourselves to go at some point in the 
future. And if we want to detour on the way and go to Mars, if 
we want to detour and continue with the space station, if there 
are other things, if we find helium 3 on the Moon that is 
mineable, if we want to do other things, we have the option to 
do that if the infrastructure is in place. The technological 
requirements to get there, I think, are going to be fallouts of 
the commitments itself.
    Mr. Carpenter. I think it is also important to recognize 
that when Kennedy said we should go to the Moon, we didn't have 
the technology; we built it. But if someone were to tell us now 
we should go to Mars, we have the technology and we are in a 
much better position to do that than we were in 1961 to go to 
the Moon.
    Mr. Davis. It looks like many of the benefits that we would 
get from such an expedition, the planning and the moving ahead 
on this, we can just begin to understand some of the benefits 
that we would get as a population for people who don't go 
there, but we have seen a lot of technological innovation as a 
result of the whole space program.
    I wonder if we could just think 50 years ahead of what this 
could mean to the average person who may not get to Mars but 
some of the benefits that could possibly occur. Does anybody 
want to speculate on what that might be? You have been very 
visionary today.
    Captain Cernan. We can talk about the technology from the 
Apollo. We can talk about the timing of Apollo. It came in the 
turbulent sixties, when we were involved in a very unpopular 
war, campus crime, civil strife. It gave this country something 
to hold our head high about. We were being blown out of the 
water by Sputnik and by everything the Soviets were doing at 
that point in time. Those are all benefits from Apollo.
    But I think, personally, we may not know for another 50 or 
100 years the true significance of having first left this 
planet during Apollo and called, as I said earlier, even for a 
short time, valleys on the Moon our home. I think it is going 
to take that long to look back.
    I am not sure that it wasn't 100 or more years before the 
people on this continent and around the world looked back at 
the significance of what Columbus did back in 1492. Certainly 
they didn't know 25 years later the importance of his 
commitment. I don't know that we yet know the importance of 
what we have done. I don't know that we yet know the challenge 
that JFK gave us and whether he was a dreamer, visionary, or 
just politically astute. Maybe he was all three. I would like 
to ask him, if I could, today.
    Mr. Davis. Dr. Aldrin, do you want to add anything? You 
have been very good about talking about how possible this can 
be, laying out a plan for Mars, which I think is great. But we 
get asked the question, given competing priorities, what does 
this mean? And so maybe we have no idea what it means.
    Mr. Aldrin. Let's look briefly at maybe what was the value 
of going to the Moon. In the last 27 years, one thing has stood 
out that, as I meet people, they want me to know where they 
were when we were on the Moon, and they remember vividly that 
particular day.
    And they are almost obsessed to come up and tell me where 
they were. And I am trying to understand what that means, and 
what it means is that there was value added to a human's life 
on that day, and I multiply that by the millions of people that 
experienced that, and I think we are getting closing to 
understanding the value of human society challenging itself and 
carrying out a commitment successfully.
    It's not the value of the rocks that were brought back or 
the great poetic statements that we all uttered. Those things 
aren't remembered. It's that people witnessed that event. And 
we are not going to justify going to Mars by what we bring 
back. Whether there was life or was not life shouldn't be a 
determining factor whether we go to Mars. We are going to make 
a commitment and carry that out.
    And what is that commitment going to do to this world today 
that is so focused on the immediate payoff, what's in it for me 
right now. Everything around us, fed by the communication 
industry, focuses on fixing today, today, and it doesn't focus 
on where are we going to be in the next 20, 50 years. We need 
something that draws away from today, and internationally 
supporting a striving settlement on Mars and all the benefits 
that is going to bring back here on Earth, and the feel-good 
attitude that people are going to have, that's going to be the 
value of going to Mars.
    Mr. Davis. Thank you very much.
    Mr. Weldon. The gentleman from Texas, Mr. Turner.
    Mr. Turner. It is exciting just to listen to you speak. I 
guess as I listen to you lay out your vision, Dr. Aldrin, it 
seems to me that one of the biggest challenges we face is 
trying to figure out a way to get that common commitment, and I 
would be interested in any of your suggestions.
    It seems to me that space exploration is much more complex, 
with many more options than there were back in the 1960's, and 
perhaps it is a little bit more difficult to frame the goal, 
the mission that we need to be pursuing. Obviously, it takes 
leadership from the top, and I think that your suggestion that 
you hope that a President, after the turn of the century, would 
be leading and enunciating the mission, is important.
    But it seems to me, and I am certainly not one who is 
enamored with blue ribbon commissions, but it seems to me that 
there has to be a collection of the scientific, the commercial 
community gathered around a table somewhere with a charge 
delivered by a President or a Congress to say, lay out for us 
what you think the mission ought to be, what the objective 
ought to be, what the pathway is that we should follow, and to 
do it in a way that the net result has credibility with the 
American people, with the Congress, and that we could use that 
to put this issue at a high enough profile level that people 
would begin to understand that this is where we need to go, 
this is where we should go, and we could once again begin to be 
excited about the fact that we are exploring the outer limits 
of the universe.
    Am I off track here? Have you all done this? Have you seen 
this happen? Has it not given us the momentum we need, or would 
it be helpful to urge the President and Congress to say we need 
to gather around a table, a blue ribbon group, to define the 
mission, to reach an agreement?
    For example, Dr. Aldrin, as I heard you make a 
presentation, I wondered if Captain Cernan and Mr. Carpenter 
agreed with you, would this be the mission they would lay out, 
as you have laid it out in so much detail? Is there a need for 
some consensus building here and some need to elevate the 
profile of what that consensus is?
    Mr. Aldrin. Each year as we approach New Year's Eve, people 
make resolutions. We are coming up on millennia. I think we 
should consider resolutions for the next century: Where would 
we like this Nation to be as we move through the next century.
    I think as you look at the dates, even going from 1999 to 
2000 is a big change. I think we could use the year 2000 as a 
national discussion time period along with the political 
discussions that are going to be going on the same year, and 
look at the alternatives, look at what our resolutions maybe 
ought to be and bring in the public.
    I think that space, the people want to journey into space; 
they want to share that participation. Just ask them. I go 
around and they want to know when they can get into space. And 
it is do-able. The tourism industry worldwide is a 
multibillion-dollar industry. Let's just unleash that into 
space, and not just for the affluent, but wisely worked out 
lottery principles. You can form a corporation and issue shares 
and distribute the dividends by random selection for thousands 
of space-related prizes, including a ride into orbit. And that 
could develop the rocket and the spacecraft systems needed to 
go to the Moon. Not the other way around. We are not going to 
make a commitment to go to the Moon and then use those vehicles 
for tourism; it should be the other way.
    Mr. Turner. Do you view, Captain Cernan, the future of the 
space program the same as Dr. Aldrin or do you have different 
views?
    Captain Cernan. Well, we have different views along the 
way, and Buzz is certainly an expert on techniques and 
approaches and boosters, and I am more of a dreamer, a 
philosopher.
    I think you have to have the desire to want to go, to do 
something that hasn't been done, something unique. Probably a 
lot of people in this room and up there with you are not going 
to like this comment. I am not sure I do, either. In the space 
program that we are involved in today, I call it space 
exploitation. The shuttle, perhaps one of the most 
sophisticated flying machines ever built and flown, the space 
station because of its international nature is going to be 
significantly important to the future. The space program today 
is not exciting to people. It's not exciting to kids. We have 
been to the Moon 25 years ago; we went to another planet. You 
have got to define what it is to voyage or journey in space.
    I've been in orbit on Gemini, it's spectacular, my first 
flight. Do I want to go back to orbit, no. I have been to the 
Moon twice. If I am going to go somewhere, I am going to go to 
Mars. That's me. Perhaps that is selfish. But until Apollo 13 
came around and exposed people who were around to remember, and 
young children, to what space journey was really all about, 
there was little or no excitement about it.
    Now when you talk to kids--their window was opened. Why 
don't we go back? Why didn't we continue on? When are we going 
to go to Mars? When you talk to young kids today, and that's 
really the grass-root support, they are not satisfied to just 
go around in circles anymore.
    What we are doing today is significantly important, 
economically and otherwise, in the exploitation of space. But 
we are exploiting space through the shuttle and space station 
at the 100 percent cost of exploring space. We ceased to 
explore space when I left the surface of the Moon and we 
haven't explored space in 25 years, at least under my 
definition. That's what excites kids. Star Trek, Spaceship 
Enterprise. The concept is if it's a space station, it ought to 
go through a black hole. I don't want to get too far out, but 
that's what gets kids' imagination. That's what gets them to 
ask questions and want to know more.
    Perhaps I didn't refer to it, and I know most of you are 
interested in education, perhaps one of the greatest and most 
untapped resources of Apollo itself was the stimulus to 
education. The motivation that you can see resulting in the 
hearts and minds of young kids who want to talk about the Moon, 
what is it like on the Moon.
    So, I think we have two different space programs. One is a 
program we are involved in now, shuttle, station; and the other 
one is the space program of exploration which we only talk 
about, which doesn't exist today.
    One of the unique differences about Mercury, Buzz and I 
both flew in Gemini and Apollo, each of those flights were 
interdependent on the other. The three programs were a program. 
Without Mercury, there wouldn't have been Gemini. Without 
Gemini, there wouldn't have been Apollo. Without any one flight 
in those programs, the next flight wouldn't have existed. If I 
hadn't gone to the Moon on Apollo 10, Apollo 11 would have been 
a totally different story.
    Today our program, it's the nature of the program, not 
necessarily a criticism, it's the nature of the program, every 
flight today with the exception of those that will be put 
together to assemble the station is an individual event. You 
can cancel it, change, slip it, move it around, refly it, and 
the doesn't affect the follow-on flight to any extent. So we 
are in the mode of exploiting space.
    We have a highly sophisticated research vehicle in a 
shuttle, and what I think we are doing now is correct. I think 
we are headed down the right path. I think we need to develop 
that international space station. I think it's ultimately 
important, scientifically, technologically and perhaps more 
importantly from an international point of view. But again I 
say we are doing it at the 100 percent total cost of ignoring 
exploration.
    Mr. Carpenter. Mr. Turner, I think the answer to your 
original question is difficult to come to because the most 
important problem we have is arriving at a consensus in forming 
the answer to your question. That's the most, the difficult and 
most important.
    Mr. Aldrin. There was a wonderful study done by a wonderful 
person who led NASA when we first landed on the Moon, Tom 
Payne. It was called the National Commission on the Space. I 
think if you look at all the studies done before and after, 
that will stand out.
    So as we approach this millennia change, I would encourage 
people to dust off that pioneering, the space frontier study 
that was done. The timing was atrocious. It was just about to 
be submitted when the Challenger accident occurred.
    Captain Cernan. Buzz hit it a moment ago, what's in it for 
me now, what am I going to get back, why should I go to Mars, 
what am I going to get out of it, what's in it for me. It's a 
lack of our futuristic instincts to look into the future. 
What's in it for our kids? I am not sure I can tell you that, 
and we seem unwilling--I hate to be one of those guys that says 
you should have been here last week, the fishing was great, but 
if you look at how Mercury, Gemini and Apollo evolved, we took 
risks, we think we managed our risk pretty well, that I am not 
sure we have the gumption to take today.
    If JFK stood on the steps of Congress here today and said 
we are going to go to the Moon, I don't believe we could get 
there in a decade. I don't believe our mentality would allow us 
to do what we did a generation ago. I think that is one the 
major problems. We just seem to be unwilling to commit without 
a guarantee, and there are no guarantees in this life. For you 
or for me or for space or for anybody. And that's a culture 
that has slowly evolved over the last 25 years, at least having 
raised a few kids in this generation who admittedly could tell 
me the same things, it's something I have observed.
    Mr. Turner. Thank you.
    Mr. Weldon. I would like to recognize the distinguished 
lady from Maryland, Mrs. Morella.
    Mrs. Morella. Thank you.
    I note that President Clinton used that concept of we want 
to go on the Moon, we want to find a vaccine for AIDS. It has 
become legendary because it shows the can-do spirit of America.
    I think it is a shame that you say that practically we may 
not be able to achieve it going to the Moon or now going to 
Mars, and I wanted to point out a few things. For instance, 
when we are legislating and coming up with appropriations, as 
well as authorizations, we always have trouble with space and 
the space station for the very reason that you mention, Captain 
Cernan, it is what are we going to get from it; are we going to 
be able to have a reliable partnership or are the Russians 
going to back out because they don't have the money and we are 
going to be stuck handling it; what are the benefits going to 
be.
    I am interested in the papers you have submitted. The whole 
concept of space tourism, the fact that you envision within 20 
or 50 years, and we better do it in 20 because I don't think I 
will be here in 50, that we could have colonies on the Moon or 
Mars, and we could have shuttles going back and forth, I wonder 
if you might elaborate on that a bit.
    I do, as a backdrop, remember a number of years ago I was 
one of the people that submitted a bill against Mylar 
billboards in space. Do you remember that? You could be up 
there in space and you see this big billboard ``Drink Coke'' or 
``Buy Nike Shoes'' or whatever, and there was a company that 
actually had considered doing that and we introduced 
legislation. That may have been one of the deterrents for 
something like that. But how do you see this space tourism? 
Also, something, I hate to use that word with you, with the 
three of you, that is affordable.
    I will address each one of you, if you want to make any 
comments on that. Do you really think we will be able to afford 
to do it and would it be a practical kind of thing to do, as 
well as visionary?
    Mr. Carpenter. I think it's a definite possibility and 
something we should pursue, but after the fact. I am more 
interested in the search for new truths, and if space tourism 
falls out of that search, that is fine, but that in my mind is 
not the end of the project. It is an artifact.
    Mrs. Morella. You are interested in, what did you say? 
Space----
    Mr. Carpenter. I am dedicated to learning how to fly to 
Mars and return safely, and much will fall out from that, from 
the conduct of that exploration.
    Mrs. Morella. Many, many other benefits, obviously true. 
Thank you. Captain Cernan.
    Captain Cernan. I have a comment on two things. I also 
heard about President Clinton's commitment to find a prevention 
for AIDS in the next 10 years and I think it's an admirable 
commitment. Whether it be AIDS or heart disease or cancer, we 
would like to find preventions and cures for all of those 
things. But the facts of life are finding cures for those 
things does not excite people, young and old, like watching the 
Star Trek movie, like finding a potential of life on Mars in a 
piece of meteorite or like going to the Moon like we did on 
Apollo. So I think it's difficult to compare JFK's commitment 
of going to the Moon in a decade in terms of the response it 
got from people, even the disbelief, compared to solving some 
of the ills that need to be solved in this world. There's a lot 
of them and they are admirable.
    I am out there talking to kids. I know what gets them 
excited and gets them involved. People young and old, they ask 
what does it look like, what did it feel like, were you scared. 
We get this all the time. And you don't get the same kind of 
questions if you talk about finding a cure for AIDS. I am 
sorry, it just doesn't----
    Mrs. Morella. I think you mentioned it just to show the 
can-do spirit. We did it for that because we had a mission. And 
I must say, as someone who has been on that space commitment 
for many years, I really think after that we lost that real 
mission, the sense of working together.
    Captain Cernan. Absolutely. Let me be a dreamer for about 
another 30 seconds and go beyond what Buzz said. I don't care 
what motivates us to Mars, I don't care--if we saw a little 
green man sticking his head up several years ago when we sent 
Viking to Mars, we would be there by now. I don't care why we 
go. If it's tourism, that's fine. Science has never been a 
motivator. It always runs piggyback. It was not the reason we 
went to the Moon; it will run piggyback when we go to Mars. So 
whatever it is, if it is tourism, which seems relatively 
exciting to me, Buzz, I don't care what it is.
    But my dreaming mentality, and none of us will be around in 
100 or 200, some day--I am second generation American. I can 
remember my grandparents talking about coming over to the new 
world from the old country. I can remember them talking about 
always wanting to go back to the old world, to Europe, to their 
birthplace. At some point in time, Mars and Earth are going to 
have that relationship. In 100 or 200 or 300 years, those who 
follow us will come back to Earth to see where their ancestors 
came from, and there will be space transportation and there 
will be tourists who go to Mars and come back to Earth. And 
it's an easy prediction because, no one is ever going to call 
me on it, but I believe in the next couple hundred years you 
are going to see that kind of relationship.
    Mr. Aldrin. Let me take us back a few years, like the mid-
1920's, people were traveling across the Atlantic in a ship, 
until someone said, maybe if we had a prize, people would 
compete, be motivated to compete for that prize. Charles 
Lindbergh won that against a number of other competitors.
    We are trying to do the same thing today with an X prize 
for suborbital flight. But that exercise of Charles Lindbergh 
arriving in Paris, electrifying the world, opened up 
transatlantic air travel and brought about the need to do that 
better and faster and jet travel and now let's people take 
vacations doing that.
    The reason that we want to do tourism is to reduce the cost 
of access to space by having volume traffic. We want to develop 
the kinds of spacecraft and rockets that are going to get to 
space and then produce lots of them. And people aren't getting 
any smaller. Satellites are getting smaller and smaller but 
people aren't, and people want to get into space. If it is 
$100,000, thousands of people want to do it. Should we turn our 
backs on them? Well, there is probably going to be a little bit 
of government money in that rocket and spacecraft system. Let's 
open it up to the people.
    I can't understand why people invest in the lottery but 
they do, and they get excited about it. They put up a little 
bit of their savings in hopes of a windfall, and that's 
exciting and it opens the door.
    You are going to hear from a wonderful gentleman in the 
next panel and I think he will excite you about privatizing, 
unleashing the private sector into the space frontier, and 
tourism is going to be what opens it up.
    Mrs. Morella. Thank you, gentlemen. Thank you, Mr. 
Chairman.
    Mr. Weldon. Captain Cernan, you were the last man to leave 
footprints on the Moon, I understand. Do you have any special 
feelings about the significance of that that you want to share 
with us?
    Captain Cernan. I get asked a lot, how do you feel, how do 
you feel about being the last man to have walked on the Moon, 
how do you feel about having left the final footprints from 
Apollo. And, of course, just to have had the opportunity, it's 
very unique and I am very proud to have done that. But there is 
always going to have been one human being who was the first to 
step on the surface of the Moon, and we all know who that is. 
But there is going to be many, many last human beings to walk 
on the surface of the Moon. I just have held that distinction 
for far longer than I ever thought I would. And I can say on 
top of everything else, it's somewhat disappointing that I can 
sit here today, this December will be 25 years, and I still 
carry the distinction with pride but with disappointment at 
having been the last man to step on the surface of the Moon. 
Certainly at least through the end of this century.
    Mr. Carpenter. May I add that we are all proud to know Gene 
Cernan, the last man to walk on the Moon, but we would be even 
prouder to meet the next man on the Moon, and soon.
    Mr. Aldrin. Let me make an observation. If we are 
discussing a commitment of whether we are going to go to Mars 
and not commit to settlement, to increasing settlements, let's 
not even bother going. You can't go there once, twice, three 
times and then say I am going to call this off, we have done 
that. It has got to be a commitment to a growing expansion 
outward and settlement, and if the Congress isn't willing to do 
that, then we will get the American people to maybe get us a 
new Congress.
    Captain Cernan. Dismissed.
    Mr. Weldon. Let me move on to another line of questioning. 
I represent the area of Florida called the Space Coast, Brevard 
County. I know all three of you, gentlemen, are familiar with 
that area. You may not have lived there but you have blasted 
off from there. Every time a shuttle goes off, I say a little 
prayer knowing that the area was very badly devastated by the 
loss of the Challenger and grounding the shuttle fleet for 2 
years and the economic impacts that had.
    One of the things that I have gotten into discussions with 
some of the leadership within NASA and on the Space 
Subcommittee and the Science Committee is what would happen to 
our manned space flight program if that were to happen again. 
Do we have the will and resolve to hang in there and continue 
in manned space flight? Now, I don't think it will happen 
again. I think we have gotten the bugs out of the system and we 
will continue to fly the shuttle safely, but can we continue to 
have a manned space flight program in the setting of another 
disaster like another Apollo 1 setback? We got through Apollo 
1, we got through the Challenger, but do we have the national 
resolve to move on ahead and continue our manned space flight 
program?
    Mr. Carpenter. Well, that deals I think with what was said 
earlier. We are in this business and we are in it because we 
know that the benefits are worth the risk. The answer to your 
question is to be found in whether you and the rest of the 
Nation are aware of that simple fact as well.
    Captain Cernan. Apollo 1 was every bit as devastating, 
maybe not in total loss of life, but to the potential of the 
space program as Challenger. We hadn't even gotten an Apollo 
spacecraft off the ground and there was a fire. Three human 
beings lost their lives on the pad. We were in a race with the 
Russians, JFK's challenge to get there by the end of the 
decade. We recovered from that accident. We recovered. The 
accident occurred in January 1967 and we recovered and were 
airborne on that first Apollo flight in October 1968. And 
within 7 months Buzz walked on the Moon.
    Apollo 13 occurred in March. The following January--Apollo 
13, truly, truly--I was backup commander on Apollo 14. I was 
working very close on that flight to bring these guys back. We 
truly came closer than we knew then to losing those guys in 
space.
    We sent three more men and four more flights into the same 
realm of outer space to complete, to finish the job that we 
called Apollo. We recovered in, what, 8 months, 9 months.
    The Challenger accident was devastating and of course the 
whole world saw it, that made it even worse. And we lost seven 
people. But there isn't a person on that flight that got into 
that spacecraft that didn't volunteer, that didn't know the 
risk. I was close to that one, too, because I was on the 
selection committee to pick those school teachers. It took 
somewhere between 2\1/2\ and 3 years to recover from the 
Challenger accident, and I think we have not yet totally 
recovered from that accident today.
    Quite simply, the answer to your question is as devastating 
as Apollo 1 was because there were people at that time that 
said quit, we don't need to go to the Moon, as devastating as 
it was, I think if we had another accident today, our entire 
Nation's space program, again because of something that is 
lacking, maybe it is commitment, maybe it is willingness to 
take a risk, whatever it is, would probably come to a 
screeching halt for some indefinite time in the future, and it 
would have to probably, probably gear up again and start all 
over again a decade or two down the line. I honestly believe 
that that could be the result of another accident like 
Challenger.
    Mr. Weldon. Dr. Aldrin, do you have anything you wanted to 
add to that?
    Mr. Aldrin. We probably had with the Saturn 5, first and 
second stage: a two stage, fully reusable launch system. 
Instead of doing that, we started with a clean sheet of paper 
and defined a two-stage airplane, an orbiter and a booster, and 
we put a cockpit in the booster that was not needed. We 
overpriced the system, had to redesign it, and then the funds 
were cut back and that resulted in what Werner Van Braun said 
we should never do and that is launch human beings on solid 
rocket boosters.
    After the Challenger, we decided to improve the solid 
rocket booster. If that booster is so good, why isn't it being 
used on something else? Why isn't it being used to replace a 
Titan?
    A solid rocket blew up on the Delta recently. There are 
problems. We may not have a next generation that we are 
reaching for because we may be reaching too far with a single 
stage. We may have to live with the shuttle for a long time. I 
am really worried that we don't have the resiliency in our 
system. We don't have a backup to the laboratory, we don't have 
a backup to the HAB module on the space station. We had a 
problem designing the node and now the nodes are being built in 
Italy. Why is that? That is not the way our space program was 
back in the 1960's and 1970's. There is not much resilience in 
what we are doing. We need more volume; we need a bigger fleet. 
Tourism will bring you that bigger fleet, and the people aren't 
going to fly on solid rocket boosters.
    Mr. Weldon. Thank you. I would like to see if we have 
desire for a second round of questions.
    Mr. Davis. Let me just ask a couple. I don't know if my 
questions are any good but the answers are outstanding.
    I think sometimes we try to design an inexpensive space 
program up here with so many competing activities it doesn't 
get--because you can't realize the immediate benefit, as you 
put it.
    People, Members sometimes, and the public like things 
quantifiable, and I think, Dr. Aldrin, you put it very well 
when you talked about society challenging itself and succeeding 
and how we need that. Some of the most important things in life 
are unquantifiable. The commitment we can get from NASA would 
do. America needs that right now.
    The program right now has in some way turned into a foreign 
aid program, the way it is constructed. So I think what you are 
saying--I would also add whatever you end up doing, when we 
define a mission and go after it again, we are not going to 
come up with a dry hole from a scientific point of view. The 
inventions that come out of this that have applications every 
day are significant and they are helping us treat diseases, 
they have made the computer, you know, everybody can own a 
hand-held computer and calculator, and these things would not 
have been possible without the space program. So it is very 
inspiring to hear what you are saying. I think we need to 
involve the private sector more and I think we will hear more 
in the next panel about ways of doing that, and also on the 
Space Subcommittee, which I am a member of.
    I just wanted to know if you would like to amplify on that, 
and recognizing that all endeavors that government is involved 
with, we are finding that government alone can't do it; we can 
reply on the market system to produce things more efficiently 
and better and whereas government by itself, not by intention, 
just ends up being a very inefficient vehicle.
    Any comments on that or thoughts?
    Captain Cernan. I think the programs that interact in terms 
of privatization, if that's what you are referring to, I don't 
think there's any question. I don't think there's any stopping 
it. I think it's going to continue to happen, but, you know, 
the government has always been the high-risk element of 
research and development. There is no--the entire aerospace put 
together could not have afforded the risk of going to the Moon 
on Apollo. It has to be the government, so the government has 
to take the lead and be out front and be willing to be the tip 
of the arrow, but bring in the private sector wherever and 
whenever possible. And I think you are going to see more 
commercial value come out of space.
    NASA, over the last several years has done a terrible job 
of developing a people awareness. People talk about the money 
and you fighting for bits and pieces of money here. First of 
all, it is ludicrous that something as objective as exploring 
space should compete with HUD and VA, that is ludicrous, but 
that's in your ballpark, not mine.
    But you talk about billions and billions of dollars, and 
the average person on the street doesn't have the vaguest idea 
of what $1 million is much less $1 billion or $10 billion. But 
if you start telling them about the space program, but why does 
it have to cost so much? How much does it? If you tell them the 
space program costs 1 penny out of each tax dollar, people 
can't believe that. My God, I have more fun watching it on 
television, it costs me 1 penny out of every Federal tax dollar 
to send you guys to the Moon? Yeah, and it cost 1 penny out of 
each to watch the space shuttle going on. They can identify 
with reality like that.
    We have done a terrible job, we NASA. We are as much at 
fault as anybody. Nobody can understand and relate to the 
technology and all that fancy, wonderful stuff that's important 
and we get benefits from, but they can relate to things they 
can identify with, and how we spend their dollars is something 
they are very, very appropriately concerned with. We need to 
develop a broader, grass-roots space awareness program, quite 
frankly, and maybe that's NASA's responsibility.
    Mr. Davis. It is interesting you say that. Then you tell 
them almost 20 cents of every dollar is going to pay interest 
on the national debt, they get really mad.
    But Dr. Aldrin, you wrote a Ph.D. thesis back in the 1950's 
about what might have then been a wild idea of spacecraft 
rendez-vousing and going round and round. It is very intriguing 
what you talk about, sending people to Mars and who knows where 
that will lead. I think it is timely since we are not having a 
mission to Mars now with robots and sending them up and it's a 
good time to rekindle this debate and discussion.
    Mr. Aldrin. I think we should not be afraid to learn the 
lessons of the past. We had within the Saturn 5 rocket the next 
generation shuttle system, but we didn't do that. We started 
all over again with the clean sheet of paper and have the 
aerospace companies recompete to see who wins this time. We 
have got a space station that is going to go up and it's going 
to take about 50 launches, including the supply flights in 5 
years. We launched a space station with the Saturn called Sky 
Lab. It took one launch. If we launch another space station in 
the future, it better not take more than three launches or it's 
not going to survive.
    You have seen the trouble we have had justifying this type 
of a space station that is assembled by the capacity of the 
space shuttle. We need bigger capacity to put up hotels. Call 
them what you want, but people are going to go there. This is 
the NASA budget. I think everybody has to understand----
    Mr. Davis. What's left of it.
    Mr. Aldrin. That that's what is happening today.
    Mr. Davis. Thank you very much.
    Mr. Weldon. Mrs. Morella, do you have any other questions?
    Mrs. Morella. No, thank you.
    Mr. Weldon. I guess the only other question I would like to 
ask the panel, we have talked a little bit about how times were 
different in the 1960's. We had the Russian challenge, one of 
the issues that I think plays a role in this lack of 
willingness or commitment perhaps or a level of commitment 
perhaps today is just the basic economic problems we are having 
here in Washington, DC, and I don't know if any of you would 
care to comment on that issue, but we do have a $5 trillion 
debt, we are making headway to balancing the budget, and it is 
projected that the deficit for fiscal year 1997 will be at 
about a 15 or 18 year low, getting down to perhaps less than 
$100 billion.
    I believe at the time when you were enrolled in the 
Astronaut Corps, the national debt was a fraction of what it is 
today and the range of about a tenth. I believe that the 
expenditures on entitlements were in the range of about 10 
percent of Federal expenditures or 15 percent of Federal 
expenditures.
    Do you see any correlation between getting our economics in 
order and having the willingness to explore, to make the 
investments necessary to explore? Is this a factor in your 
vision or do you feel that this is just a lack of will that is 
not related to the basic economic problems our Nation faces?
    Mr. Carpenter. I think it's a lack of will and it might be 
also a lack of clearly defined and clearly appreciated 
acceptable goal.
    Captain Cernan. You gentlemen, ladies and gentlemen, and 
pardon me, Mrs. Morella, I tend to use the word ``mankind'' 
very generically so I don't mean to exclude, but I have been 
called on a couple of times, and you might have caught me 
today, but I do use it generically. You ladies and gentlemen 
are practitioners. We can sit here and dream and philosophize, 
but we still have to pay for it.
    I go back to what I said about space awareness, what the 
real costs are. But, you know, I think back in the Apollo days, 
we probably had, the deficit may have been lower and so forth, 
but I think basically we still had the same problems. We had 
people saying, why do you want to waste all that money going to 
the Moon, we have all these poor people here to be fed and 
there is always--money didn't get us to the Moon and money is 
not going to find a cure for AIDS and cancer and money is not 
going to solve poverty. People are going to solve it. Ideas, 
commitments, obviously with this practical use of money.
    The money that was spent was and has being spent in space 
comes back to us tenfold, even to the extent that we don't 
appreciate it. When you look at the technology and the 
industries that have grown and the computers, if you could take 
any one of those dollars spent in 1960 to send us to the Moon 
and could possibly have tracked to this date 25 years later, 
the phenomenal return on that dollar investment would probably 
blow all of our minds. I don't know what it would be, but I do 
know the investment is minimal. As I say, 1 penny out of each 
tax dollar comes back at least tenfold.
    And I go back to people's awareness and interest and 
excitement. I think if people really understood how little, not 
how much, how little it costs to continue building and growing 
this foundation of technology and the return from that 
investment that people, that we all take for granted today, in 
our hospitals, in our schools, classrooms and our homes and our 
factories, if we really understood all that, you would get so 
much grass-root support you ladies and gentlemen up here in 
Congress could not afford not to put a program together to 
further that effort, to take us to Mars, quite frankly.
    We just, the average person on the street has got so many 
other problems. They have got to send their kid to college, the 
grandchild just skinned their knee or whatever it is, their job 
is a little insecure, and so those are the things that are 
important to them. But if you could bring what the space 
program does for them down to, quote, their level of 
understanding, economically, I think you would see a grass-
roots support that could not be stopped.
    Mr. Weldon. Thank you.
    Well, I want to really thank all three of you for coming 
and being here today. If I could quote or paraphrase Mr. Davis, 
I am not sure our questions were great, but your answers were 
wonderful, and I want to thank you very much for your 
testimony. I know that we are looking and searching for a new 
direction and a new level of commitment, and your coming here 
and being here is really a tremendous help to us.
    I would like to now dismiss you and invite our second panel 
to come forward.
    Mr. Weldon. If you would all please rise, we need to swear 
you in.
    [Witnesses sworn.]
    Mr. Weldon. Let the record show that the witnesses 
responded in the affirmative.
    Now I would like to formally welcome our second panel. Our 
first witness to my left is Mr. Joshua Ouellette. He is a 15-
year-old student at the Academy of Science and Technology in 
the Woodlands, TX. He is studying superconductivity and has 
already sold an invention to a manufacturing company. It is 
also worth noting that he aspires to be an astronaut.
    The next witness is Dr. Robert Zubrin. He is president of 
Pioneer Astronautics, an aerospace research and development 
company. He is the inventor of several unique concepts for 
space propulsion and exploration, the author of over 90 
published technical and nontechnical papers in the field, and 
was a member of Lockheed Martin scenario development team 
charged with developing broad new strategies for space 
exploration. He is also the author of the book, ``The Case for 
Mars: How We Shall Settle the Red Planet and Why We Must.''
    The next witness is Mr. Tom Rogers, an expert in Near-Term 
Commercial Space Transportation Opportunities and Technologies 
and a familiar witness to the Space Subcommittee on Science.
    Next, we have Dr. Seth Potter. He is a scientist, visionary 
in solar energy from space and professor of Applied Physics at 
New York University. And Dr. John Lewis is a scientist, author, 
and expert in astrology, astrogeology and the study of off-
earth resources.
    We thank you all for being here today, and we would like to 
begin with Joshua. Please try to summarize your comments to 
keep them to the 5-minute time limit. Thank you.

STATEMENTS OF JOSHUA OUELLETTE, STUDENT, ACADEMY OF SCIENCE AND 
TECHNOLOGY; SETH POTTER, PROFESSOR OF APPLIED PHYSICS, NEW YORK 
  UNIVERSITY; BOB ZUBRIN, PRESIDENT, PIONEER ASTONAUTICS; TOM 
ROGERS, NEAR-TERM COMMERCIAL SPACE TRANSPORT OPPORTUNITIES; AND 
                   JOHN LEWIS, ASTROGEOLOGIST

    Mr. Ouellette. Good morning, Mr. Chairman, committee 
members, and distinguished scientists and astronauts. My name 
is Joshua Ouellette. I have been asked to speak today as a 
representative of all the young people in this country who are 
aspiring to one day participate in the American space program.
    First, my thanks go to Mr. Robert Charles, Mr. Mobly, Mrs. 
Christover, Mr. Scott Carpenter for their work in allowing me 
to speak to the subcommittee on the work I feel so passionately 
about.
    At present, I am attending the Academy of Science and 
Technology in Oakridge High School, in Conroe, TX, where I am 
enrolled as a ninth grader. The Academy is a magnet school for 
those students who show particular interest and ability in 
math, science and technology.
    I am also currently a cadet in the TX-951 Air Force Junior 
ROTC Cadet Corps at Oakridge High School. I currently hold the 
rank of cadet staff sergeant with the positions of Information 
Management NCOIC and Kitty Hawk Air Society War Eagle chapter 
president. The KJS is usually described as the ROTC version of 
the National Honor Society.
    I am also a life scout of the Boy Scouts of America, Troop 
1772, with the position of assistant senior patrol leader.
    I have been asked to speak mainly on my own thoughts of the 
past, present, and future of our Nation's space program. Hence 
my statement is far more opinion than fact, such as those that 
will be covered by the other people testifying here today.
    My views of space are deeply rooted in every fiber of my 
consciousness. When I was only 4 years old, my parents had to 
make a deliberate effort to keep me away from the television 
set so I wouldn't be upset by the Challenger explosion. Even at 
that early age, such events affected me on the deepest levels.
    My interest in space exploration has been inspired by both 
space history and science fiction. The first steps as to 
traveling between the stars have been taken through Earth's 
immediate neighborhood. Those travels have produced beautiful 
images from the Mercury, Gemini, and Apollo missions, clear up 
to the shuttle missions and Hubble telescope. The incredible 
pictures have inspired a desire within me to see these 
magnificent sights with my own eyes, the lunar sky with the 
Earth looming in the background, the great nebulas of swirling 
and glowing gas, and the Milky Way looking solid white 
befitting its name.
    The goals I have set for myself are exceptionally high, 
indeed, aiming for the stars. It would be the highlight of my 
existence to be remembered as one of the first to step foot on 
Mars. Even riding the space shuttle of one of its future 
counterparts would be fantastic. If I apply myself at school 
and in Scouts and ROTC, I hope to increase the odds of making 
these dreams come true.
    However, my chances of reaching these goals are in no way 
completely under my control. An individual working by 
themselves cannot make it into space. It requires a nation 
backing that individual. Space exploration is probably the 
greatest investment of all-time, and at present there is only 
one nation that can make that investment, the United States of 
America. If our Nation can put a colony on Mars, a base on the 
Moon, or even a space station in orbit, the benefits would be 
great. In time, not only on scientific values but also the 
economic values would present themselves. There may be a 
limited amount of raw materials on Earth, but the supplies of 
space are nearly infinite and have never been tapped.
    Many people feel the reason we have not walked on the Moon 
in decades nor gone to Mars is best explained by the reason we 
ever built the space program in the first place: Our Nation 
responded to a perceived threat from the Soviet Union. It 
wasn't just the fear that made us make the effort to land on 
the Moon, but it was that something suddenly appeared for the 
entire Nation to rally behind. No nation has ever accomplished 
any great feat without rallying behind a cause nor have 
ununified nations ever lasted for any great span of time.
    Right now our Nation has no great rallying call such as 
President Kennedy's call to place a man on the Moon or even the 
revolutionary call for freedom that built our Nation. The 
result is a loss of national camaraderie and unity. ``Ask not 
what your country can do for you but what you can do for your 
country'' is in danger of regressing. In other words, we have 
become a slightly un-unified society. The solution may lie in 
the space program and the solution to the space program's 
dilemmas may likewise lie here. We must all rally behind 
something, and the space program needs someone to rally behind 
it. This is obviously easier said than done.
    From here the next step would be to continue on the present 
path, developing the technologies necessary to move our space 
program along with the completion of the X-33 new generation 
space shuttle. The sooner this is done, the better. This major 
accomplishment will be of interest to the Nation.
    The completion of the international space station could 
also spark this interest. A series of such accomplishments in 
quick succession will buildup a large amount of support. The 
greatest rally would be a mission to Mars. If done quickly and 
with deserved fanfare, this act would bring the Nation together 
in a way equalled only by the Apollo missions.
    The United States of America is the greatest Nation of all 
times and is more than capable of the greatest feats of all 
time. It will take that one spark to set us in motion and so 
many other problems will be solved.
    Every one has heard of the scientific and even economic 
benefits of going into space. We have all heard of such 
successes as Velcro, Teflon, Tang, communications satellite 
networks, and advanced computer technologies. More will come, 
but perhaps something far greater may be a benefit, a deeper 
understanding of ourselves and our humanity.
    I thank you for the consideration of my testimony.
    Mr. Weldon. Dr. Zubrin.
    Mr. Zubrin. Thank you. Is it possible I could have the 
lights down about halfway. I am going to talk from over here, 
if it's OK with you.
    Mr. Weldon. If you can talk loud.
    Mr. Zubrin. I can talk real loud.
    We have had a lot of speakers this morning who generally 
are discussing why it's important to us to launch a major new 
initiative in space, and I feel, especially in accordance with 
comments made by Mr. Cernan, I am going to direct most of my 
comments to not why we need to do it, but to make clear the 
fact that we can do it, we can have humans on Mars within 10 
years if this country can muster the will today.
    There's a lot people saying it can't be done, it's a task 
for two generations from now. That's not true. One reason why 
people believe it can't be done is they have been shown ways to 
do it that are impossible, and, for example, this is what 
happened when George Bush made the call for a Space Exploration 
Initiative in 1989, NASA came back with a 90-day report, they 
said we can do it in 30 years if you give us $450 billion, 
which you know how well that went over, end of story.
    Well, the reason why it was so expensive and such a long-
term proposal was what they came up with was concepts like 
this. Build giant spaceships in space, constructed in orbit in 
a set of orbiting hangers and spaceports and so forth, an 
assembly of capabilities that would take a couple of 
generations to create and whose primary benefit would be that 
it would employ a lot of people developing all this hardware 
and technology. But it would not get you to Mars any time soon 
and for any kind of cost that anyone was willing to 
contemplate.
    The fact is going to Mars is not that hard. You don't need 
to build giant Battlestar Galactica spaceships to do it. You do 
need a heavy lift vehicle. You could use a Saturn 5, or we 
could create an equivalent to a Saturn 5 very easily out of 
shuttle technology. It's not that hard a thing to create, built 
in the 1960's. We can have another one based on shuttle 
components based on 4 years from today if anybody turned on the 
switch.
    Now, you have got a heavy lift booster with roughly Saturn 
5 capabilities. How do you use it? OK, you use a two-launch 
scenario. This is known as the Mars Direct Plan, which I 
developed when I was working for the Martin Co. doing planetary 
mission design.
    The idea is the following: In a given year, I call it year 
1, call it 2005, you launch one of these boosters off the Cape 
and you use it to throw to Mars an unmanned payload weighing 
about 40 tons. It takes 8 months to get to Mars, it lands on 
Mars. What is it you have landed on Mars? OK, it's your Earth 
return vehicle. What's the Earth return vehicle? It's a little 
rocket ship that has a small cabin with Spartan quarters for a 
crew of four people for a 6-month voyage back to Earth.
    The thing has two unfueled chemical propulsion stages below 
that, and below that, not shown in this picture, you've got a 
nuclear reactor mounted in the back of a light truck. You land 
this thing on Mars, you tell the robots to drive the truck a 
couple yards away, put the reactor on the ground, switch it on, 
now you have power to the ship. And what you do is run a pump 
and you suck in the martian air. Because you send this thing 
out to Mars unfueled, and this is the trick. When you go to 
Mars, you don't bring the fuel with you, because Mars has got 
an atmosphere which is the ideal feedstock for making rocket 
fuel. Bringing rocket fuel to Mars is like bringing oil to 
Saudi Arabia, it makes no sense at all. In fact, it's a lot 
dumber because it's more expensive to bring rocket fuel to 
Mars.
    You run a pump, you suck in the martian air, which is 
carbon dioxide, you react that with a little bit of hydrogen 
you bring with you from Earth, and you turn it to methane and 
oxygen. Methane is not the greatest rocket fuel. You store it 
in your tank. The water you take is split into hydrogen and 
oxygen. We store the oxygen, recycle the hydrogen, round and 
round we go, it's 19th century chemical engineering. It's not 
just something you can write down on equations. Actually, the 
technology has been around for 100 years, but when I was at 
Martin we built the machine.
    This is a full-scale unit you are seeing here. It cost us 
$47,000. You know what $47,000 is in a major aerospace company, 
that's how easy this is. That's nothing.
    So now you have got a fully fueled Earth return vehicle 
sitting and waiting for you on Mars. Once that is done, then at 
the next launch window to Mars, and your launch windows to Mars 
occur every 2 years, so if this launch occurs in 2005, here we 
are in 2007, you launch two more boosters off the cape.
    One sends out another Earth return vehicle with nobody in 
it and the other sends out the crew. They don't have to fly to 
Mars in the Battle Star Galactica, they just fly to Mars in a 
simple adaptation module, like an oversized tuna can fitted out 
with space station life support type equipment. It has a crew 
of four. It's got two decks, each with 8 feet of head room.
    The upper deck is where the two could live, the lower deck 
would probably be more of a cargo hold. Here is the upper deck 
with a stateroom for each of the astronauts, an exercise area, 
a lab and a solar flare storm shelter. A lot of people make a 
big deal out of solar flares. You can map out solar flares with 
5 inches of water or provisions which you have on board the 
ship in any base.
    Now you can also create artificial gravity on your way out 
to Mars by just tethering off the HAB off the upper stage of 
the booster that threw you to Mars, that is coasting off of 
Mars, too. You spin this up, you can create gravity and avoid 
effects of long-term zero gravity exposure and that is my 
preferred way to fly to Mars.
    However, you should know that, look, we have gotten a lot 
of false data from the Russians on the idea that 0-G 
countermeasures don't work. For the past 15 years we have been 
seeing cosmonauts come down from MIRE and we had to take them 
off on stretchers. But here, Shannon Lucid walked off the 
shuttle after 6 months in orbit. Six months is how long it 
takes to fly from Earth to Mars. Shannon spent that long in 
space. She walked off the shuttle. Here she is walking around 
Johnson Space Center the day after she landed, shaking hands 
with Bill Clinton and so on.
    What is going on here, she actually did the exercises. The 
cosmonauts, in fact, were undisciplined and did not do theirs. 
These do work if they are implemented in a rigorous fashion. 
However, I still prefer having the artificial part of it so you 
don't have to do that. But, anyway, this thing flies out to 
Mars, it takes 6 months to get to Mars, which is within our 
existing space experience, and you land it at Mars at site No. 
1, where there are fully fueled Earth return vehicles waiting 
for you.
    The other Earth return vehicle is your backup so that if 
you don't need it, you can land it at a new site, site No. 2 to 
prepare the next human mission, which would fly there 2 years 
later, along with another Earth return vehicle, which is there 
for backup, which otherwise opens up site No. 3. So the idea 
here is you can do this, launching two boosters every 2 years, 
one to open up a new site, one to be at the previous site.
    Two boosters every 2 years is an average of one per year to 
support a continuous program of human exploration of Mars. If 
we can launch them at the same rate as we launch the shuttles, 
which we probably could because it's basically just a shuttle 
with another stage. You are talking about using maybe 16 
percent of your existing heavy lift launch capability to 
support this kind of initiative.
    This is an actual photograph of the Mars space plant. Here 
is your Earth return vehicle sitting on the ground. There is 
your reactor in the background. There is the upper deck 
habitation, lower deck is the garage and the pressurized ground 
rover that can tap off some of the fuel you made on Mars to 
travel around Mars with a vehicle powered by a conbustion 
engine. This is another important thing.
    If you can make fuel on Mars, you cannot only use it to get 
home, you can use it to get around on Mars. A combustion engine 
powered vehicle is going to have a lot more mobility than one 
powered by batteries like a little golf cart or something and 
we are not going to Mars just to say we went there. We are 
going to Mars to explore a planet and if we have capability on 
the planet, we've got to be able to do things on the planet, 
particularly with mobility.
    So to adopt this travel light and live off the land 
approach, it is not only the cheap way to go to Mars, it's the 
potent way. So now you are on Mars, you are going to be there a 
year and a half, because that is how long you have to be there 
until the launch window opens up to go back to Earth. You do 
lots of field exploration, dwarfing the sort of field 
exploration that could never be done by robotic vehicles.
    At the end of that time, you get in the Earth return 
vehicle, you take off and you go home directly to Earth. You 
leave the HAB behind on Mars. So that after a string of these 
missions have occurred, you basically have a string of warming 
huts scattered across the Martian surface that basically are 
within long-distance driving range of each other.
    You are opening up a broad area of Mars to human 
cognizance. We are not actually going to relocate Texas to 
Mars, this is just your district, if you are concerned about 
that. However, after a certain number of the missions have 
occurred--the initial missions you do want to spread out 
because you want to explore both for scientific reasons and for 
prospecting reasons, as it were. But after a certain period of 
time, the key questions that are going to relate to Mars is not 
going to be this question of was there ever life on Mars. 
However, that is a very important question, and it's a question 
of great and philosophical importance, but the real question 
about Mars is will there be life on Mars, because, you see, 
Mars, unlike the Moon, unlike certain of the Earth orbit, Mars 
is the place that has on it all the resources that are needed 
to support not just life, but some day a new branch of 
civilization.
    It's got water, it's got carbon dioxide, it's got nitrogen, 
which are the elements of life, and it's got the elements of 
industry; sulfur, phosphorus, silicone, iron, plutonium, 
alluminum, copper. It's got all this stuff and if we can go to 
Mars and develop the craft on how to use these materials, we 
can turn them into resources because what is and is not a 
resource depends upon the craft you bring to the problem.
    If we go there and we learn not just how to make fuel and 
oxygen on Mars, which is what we need to do to do our very 
first mission feed, but how to grow crops on Mars, how to 
extract water from the soil, how to make bricks, surroundings, 
glasses, plastics, metals, tubes, wires. If we develop that 
craft, by developing what is in your mind, you turn back an 
inhospitable environment to one that can sustain people, and we 
can plant the first branch--the first seeds of the new branch 
of human civilization on a new world, and, frankly, it's within 
our capability and it's a privilege.
    A lot of people are interested in the Moon. I think the 
Moon is a goal with less order than Mars. However, if you do 
this right with the same hardware that you use to build a base 
on Mars, that can also be used to build a lunar base, and I 
really think that should be our approach. That is in the same 
way we created a space station in the afternoon by doing 
Apollo.
    We created the Saturn 5, we can launch a space station like 
that. If we do Mars with this sort of approach, we can also 
establish lunar bases for astronomy or whatever purpose. So to 
be brief, this is the entire set of tools you actually need to 
establish the first human settlements on the Moon and Mars if 
you go at it in this way. You need a heavy lift booster with a 
good throw stage. We know how to develop that.
    You do not need giant explanatory space ships, you do not 
need giant explanatory space ports, you do not need fusion 
power drives or any of this other stuff, just a good booster 
with a good throw stage. You can throw payload to either the 
Moon or Mars. And then you need two fundamental types of 
payloads, an HAB module that you can send to the Moon or Mars, 
although you have to insullate it differently, in a different 
temperature environment, and an Earth return vehicle to come 
back from either the Moon or Mars.
    It is virtually the same vehicle, it has got two stages to 
come back from Mars, one stage to come back from the Moon and 
arrow shell modules used on the Moon. This is not a $450 
billion program here. It does not remotely resemble any such 
thing.
    When I first proposed this plan back in 1990, it was 
considered out in left field by NASA, who are committed to the 
older mode. However, by around 1992, the number of people there 
finally came around and they subjected this to an examination, 
and decided to go with it, but they decided to design their own 
version of the mission, scaled up by a factor of two compared 
to how I designed it, so I called their mission to Mars semi-
direct.
    But even so, it was the same basic approach, direct flow to 
Mars, use of Martian air starting on the very first mission. 
They costed it out, the same people, by the way, who costed out 
the report at $450 billion. They costed out their bloated Mars 
records at $50 billion. I think if you slip it down, you can 
cut that in half.
    So we are talking about the Humans to Mars Program can 
really be done within a decade, not for hundreds of billions of 
dollars, but for tens of billions of dollars, which admittedly 
is not cheap. It is not pocket change, but it is a sum that 
this country can easily afford if we are talking about opening 
up a new planet to humanity and inspiring an entire generation 
to excellence and scientific education. So what needs to be 
done right now? Start phase A.
    NASA programs are all phase A, B, C, D. A is the 
preliminary design, B is the detailed design to decide where 
the rivers go, C, you build it, D, you fly it. Phase A is 
usually less than 1 percent of the program cost, but takes up 
about 25 percent of the program time. We can, with negligible 
impact on the NASA budget, do the phase A of the Humans to Mars 
Program right now, and the idea is to have that report ready to 
throw on the desk of the President-elect in November 2000.
    Why? To do the home work now so that NASA can say to the 
man elected or the woman elected in 2000, look, here is our 
plan. The whole agency is willing to sign off on this level of 
risk. These are our detailed cost estimates. These are our 
designs. We can have people on Mars by 2008, by the end of your 
second term, the choice is yours.
    John F. Kennedy was willing to send people to the Moon or 
committed the Nation around it to send people to the Moon just 
on the feeling that we are Americans and we can do anything, 
OK. But today people like to see the numbers before they make 
the commitment. If we are going to have a commitment from the 
administration to launch something as large as the Humans to 
Mars Program, in my opinion it almost certainly has to come in 
the first year of their turn, when they have the most wind in 
their sails, and such a program would best be carried out by a 
single two-term administration, so you can have a degree in 
political continuity requiring it. Therefore, the ideal time to 
hit the beach is November 2000.
    We have to commission NASA now to do the phase A, to throw 
on the desk of that person, and then you can have a break down 
of the space in the first decade of the 21st century. So I am 
going to conclude with a quote. OK. This is a quote I lifted 
from a book called ``A Plymouth Plantation,'' written by 
William Bradford, the leader of the pilgrams.
    He wrote this book in 1621, 1 year after the Mayflower 
landing. And what he is talking about here is the debate that 
erupted among the pilgrims when they were in Holland, and they 
didn't like the way things were going there, and they didn't 
know where people got them, and what some guy came up with was 
the totally bizarre suggestion that what they ought to do was 
relocate the entire population of the civilized Netherlands 
into the wilds of North America because however hard it might 
be, there they would be able to cut their own path, there they 
would be able to make their own world. And he says the 
following.
    He says,

    This proposition, being made public and coming to the 
scanning of all, it raised many variable opinions amongst men 
and caused many fears and doubts amongst themselves. Some, from 
their reasons and hopes conceived labored the stir-up and 
duress to undertake and prosecute the same. Others, again, out 
of their fears, objected against it and sought to divert from 
it, alleging many things and those neither unreasonable nor 
unprobable and that it was a great design and subject to many 
unconceivable perils and dangers. It was answered that all 
great and honorable actions are accompanied with great 
difficulties and must be both enterprised and overcome with 
answerable courages.

    I put that up there because, look, I have just shown you in 
a very brief way this Humans to Mars plan. If you want to see 
it in more detail, read my book, it's all there. But despite 
the fact it is by far the cheapest way anybody has ever 
proposed to get to Mars, I believe it is the safest because the 
relatively small vessels can be completely checked out on the 
ground, where you can check things out, as opposed to in orbit, 
and there is back-up and artificial gravity and all the rest of 
this.
    But the fact of the matter is, it's got to be a commitment. 
In fact, if we commit to going to Mars, we are undertaking a 
lot of risk and it is going to be very risky to go to Mars the 
first time, and that is going to be true whether we do it my 
way in 2007 or we advocate and start with responsibility and 
leave it to a far future generation or some other nation to do 
it in 3007. But if you look at human history, and I don't care 
where you look, whether you look at 376 years ago or what 
people were doing 52 years ago, one thing is very clear, and 
that is that nothing great has ever been accomplished without 
courage. Thank you for your attention.
    Mr. Weldon. Thank you very much, Dr. Zurbin.
    I would like to next turn to Mr. Rogers.
    Mr. Rogers. Mr. Chairman, I appreciate being invited here 
this morning. We are speaking today about spending very large 
public sums. Therefore, I have a politically pragmatic 5-minute 
statement.
    Half a dozen years ago, our civil space leaders envisioned 
a 10 percent per year program real growth through the decade of 
the nineties. Purchasing power actually made available has been 
steadily decreasing. This trend is expected to continue, 
resulting in a difference of $100 billion over a decade.
    Why this extraordinary reduction in public support, in view 
of the clear, widespread and continuing public interest in 
space? Our Civil Space Program was created at a time of great 
apprehension about the technological capability of the Soviet 
Union. The extraordinarily successful Apollo Program helped 
ease our national security concerns. So, when civil space 
leaders then asked to be allowed to conduct a space exploration 
activity, a grateful American public quickly agreed. But that 
was a quarter of a century ago. And our general public has not 
seen enough produced by the program that is of great and 
continuing interest to it, relative to other publicly supported 
activities.
    Our civil space leaders seemingly find it difficult to 
differentiate between a general public interest in space, which 
continues to be high, and a general public constituency for the 
space program, which continues to erode. That is our challenge, 
to differentiate. Therefore, in cooperation with our private 
sector, the ensemble of space activities conducted by the 
program should be refashioned to give it a greater emphasis on 
those things which many, many more of us personally, and which 
would be pleasing to us, and which have a much greater interest 
in and value to many, many more of us than today.
    Here are three examples of such things in the human space 
flight area. One, you have already heard of this morning. Buzz 
Aldrin and I have recently noted that over 10 million of us 
visit space-related museums and installations throughout the 
country each year. This is a business already, a space tourism 
business of $1 billion a year. Poll after poll suggests that 
some 40 percent of our population wish to take a trip to space. 
Some 80 million people in the United States alone think of that 
in the context of the term ``constituency.'' Such a new space 
business could grow to tens of billions of dollars a year, and 
if it came about, today's view of space would be fundamentally 
changed.
    Second, aging-related life sciences research, in orbit, 
physiological difficulties observed in the human cardiovascular 
system, reduced lung capacity, loss of bone calcium, mimic what 
happens to all of us as we grow older. This reversible 
phenomenon can be thought of as accelerated aging. Large scale 
research studies, conducted under microgravity conditions, 
could be helpful in dealing with the diseases and disabilities 
of our large and rapidly growing elderly population.
    Third, space sports. With the local influence of gravity on 
human movement in low Earth orbit, without it, wholly new 
sports could be created there and new sports records 
established. Communications business interests would see them 
launched throughout the world and widespread interest and 
excitement would be created in space that is dominated today by 
scientists and technologists. God help us, I am one.
    But two problems must be dealt with in order for such kinds 
of economically and socially desirable changes to come about. 
First, we must understand that the unit cost of basic space 
infrastructure and activities remains enormous. They are 1,000 
times to 100,000 times as great as at the surface.
    Two, many civil space people are apprehensive about their 
personal futures, if a large part of today's Federal program is 
taken up by private business interests. Therefore, in this 
context, I would make three suggestions to you. First, our 
Federal Government has a vital role to play in reducing unit 
space costs. It decided to do so for transportation. Now, the 
highest priority of our multibillion-dollar per year Space 
Station Support Program should be that of bringing about 
privatization of the Space Stations operations. Thereby, laying 
a basis for commercialization.
    Second, the Secretaries of Commerce, Energy, and 
Transportation should now be asked to take a greater interest 
in civil space matters.
    Third, and last, today's negative reward structure for 
civil space workers must be changed, so as to encourage space 
commercialization efforts to succeed. Therefore, we should take 
a fundamentally new step forward. We should establish a human 
Moon, Mars exploration and settlement budget line item for 
NASA. We should do it now and then we should fund it in 
proportion to the business revenues generated in the human 
space flight area.
    The new tax revenues generated thereby would pay for it, 
and both our space and public economic interests would benefit.
    Mr. Chairman, I provided the staff with papers that deal 
with these observations and details.
    [The prepared statement of Mr. Rogers follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.109
    
    [GRAPHIC] [TIFF OMITTED] 46559.110
    
    [GRAPHIC] [TIFF OMITTED] 46559.111
    
    [GRAPHIC] [TIFF OMITTED] 46559.112
    
    [GRAPHIC] [TIFF OMITTED] 46559.113
    
    Mr. Weldon. Thank you, Mr. Rogers.
    Dr. Potter.
    Mr. Potter. Mr. Chairman, I want to start out by thanking 
you for inviting me to speak with you this morning. I feel that 
it is especially a privilege to address this committee because 
given its wide jurisdiction, you will be able to put what I say 
into relevant environmental, social and economic issues, not 
just technical issues. The specific issue I want to discuss is 
one of the more innovative energy technologies to be proposed 
during the oil crises of the 1970's. That is the solar power 
satellite.
    I believe Peter Glaser, who first originated this idea in 
1968, described it to you a week ago in the hearing. And as you 
recall, it was intensively studied by NASA and the Department 
of Energy during the 1970's. The result of the study was a 
reference, straw-man solar power satellite concept, which would 
orbit the Earth at an altitude of 22,000 miles, the traditional 
geostationery orbit of communication satellites, so they would 
always stay over one spot on the Earth.
    The problem was that given this--the way the energy is 
transmitted back to the Earth, that is low density radio waves 
at microwave frequency, the beam will spread out to several 
miles at the surface of the Earth. This is true whether you put 
one watt into the beam or billions, so you are going to have to 
put 5,000 megawatts of electricity into this beam in order to 
make economical use of the land that is going to be needed to 
soak up the energy.
    At the Earth's surface, you have a large field of small 
antennas known as a rectifying antenna or rectenna, which 
converts the microwaves back to electricity. Now, two things 
happened, which kind of put a damper on this concept. No. 1 was 
the sheer size of it, coupled with the high cost of launch to 
space, which we thought was going to go way down from the 
1970's levels and didn't.
    The other issue was the relatively low cost of oil. When 
the oil crisis ended, space solar power did not look 
competitive. Nevertheless, the idea is receiving increasing 
attention in recent days due to concerns about the 
environmental effect of burning fossil fuels. We are still left 
with large size and hence the large first cost of the idea.
    The idea itself, in my opinion, is very elegant. If you had 
a ring of solar power satellites in geostationary orbit and 
some amount of space infrastructure and space travel capability 
to maintain them and perhaps replace them, you can power 
civilization indefinitely with no cost in fuel, and what I 
believe to be minimal impact on the environment. However, it is 
hard enough to get a 5,000-megawatt power plant financed on 
Earth, let alone at an attitude of 22,000 miles. This is four 
to five times the size of the typical power plant, so if I may 
borrow a phrase Dr. Aldrin used earlier this morning, what we 
need to do figuratively and literally is bring the idea down to 
Earth.
    We have studied this idea for a number of years at New York 
University and we have identified a few major issues as crucial 
to the development of space solar power, and I am going to 
briefly run through them. One I have already alluded to is the 
cost of access to space, since there are usable launch vehicles 
such as the X-33 currently being researched. It is hoped this 
will be less of an issue over the next few years than it is 
now.
    Coupled with this, it is the development of new materials 
that did not exist during the study of the 1970's. You can 
lower the cost of launching a pound of mass to orbit. What you 
can also do is lower the mass of the thing you want to supply 
to power. In recent years, a number of companies have developed 
thin film solar cells, deposited on light weight flexible 
substrates. It is not just the theoretical possibility, it 
looks approximately like this. In fact, it looks exactly like 
this.
    This is an actual production piece of a thin film solar 
cell made by a company in Ames, IA, and you can imagine 
something like this being fashioned into a light weight, 
possibly inflatable structure, and erecting itself into space.
    Our next major issue I have also alluded to briefly is the 
environmental cost of fossil fuel burning implied by the U.N. 
Climate Convention. If, for example, the nations of the Earth 
decide that they want to tax carbon emissions, then the cost of 
power from space becomes somewhat more attractive compared to 
conventional power.
    Our fourth major issue is the demographic facts of life in 
developing nations. According to the Intergovernmental Panel on 
Climate Change, by the year 2025, something like 95 percent of 
the population growth, and 75 percent of the expected carbon 
emissions growth will come from developing nations. Many of 
these people may be able to leapfrog directly over the era of 
conventional fossil fuel burning power plants, directly into 
space solar power.
    Our fifth major issue is the relationship between space 
solar power and communications. A number of companies have 
proposed building large arrays of satellites in low to middle 
Earth orbit. We proposed that you may be able to combine the 
capabilities of power beaming and communications, over the same 
beam. The frequencies and the technologies are similar, you 
just need a lot more power. We were inspired by this rather 
lowly device, which is the telephone cord, which supplies both 
power and the voice signal to your phone.
    For students under 30, I call it a computer modem cord, but 
the idea is the same. So to summarize my remarks, I believe 
that space solar power has the advantage over conventional 
renewables in that you get more power per unit land area and 
also has the advantage over other power sources in that it is 
pollution free and no new physics needs to be studied. The 
technology is right in front of us.
    Mr. Chairman, I want to thank you again for inviting me and 
I would like to request that two papers for me and my colleague 
at New York University be entered into the record.
    Mr. Weldon. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 46559.114
    
    [GRAPHIC] [TIFF OMITTED] 46559.115
    
    [GRAPHIC] [TIFF OMITTED] 46559.116
    
    [GRAPHIC] [TIFF OMITTED] 46559.117
    
    [GRAPHIC] [TIFF OMITTED] 46559.118
    
    [GRAPHIC] [TIFF OMITTED] 46559.119
    
    [GRAPHIC] [TIFF OMITTED] 46559.120
    
    [GRAPHIC] [TIFF OMITTED] 46559.121
    
    [GRAPHIC] [TIFF OMITTED] 46559.122
    
    [GRAPHIC] [TIFF OMITTED] 46559.123
    
    [GRAPHIC] [TIFF OMITTED] 46559.124
    
    [GRAPHIC] [TIFF OMITTED] 46559.125
    
    [GRAPHIC] [TIFF OMITTED] 46559.126
    
    [GRAPHIC] [TIFF OMITTED] 46559.127
    
    [GRAPHIC] [TIFF OMITTED] 46559.128
    
    [GRAPHIC] [TIFF OMITTED] 46559.129
    
    [GRAPHIC] [TIFF OMITTED] 46559.130
    
    [GRAPHIC] [TIFF OMITTED] 46559.131
    
    [GRAPHIC] [TIFF OMITTED] 46559.132
    
    [GRAPHIC] [TIFF OMITTED] 46559.133
    
    [GRAPHIC] [TIFF OMITTED] 46559.134
    
    [GRAPHIC] [TIFF OMITTED] 46559.135
    
    [GRAPHIC] [TIFF OMITTED] 46559.136
    
    [GRAPHIC] [TIFF OMITTED] 46559.137
    
    [GRAPHIC] [TIFF OMITTED] 46559.138
    
    [GRAPHIC] [TIFF OMITTED] 46559.139
    
    [GRAPHIC] [TIFF OMITTED] 46559.140
    
    [GRAPHIC] [TIFF OMITTED] 46559.141
    
    [GRAPHIC] [TIFF OMITTED] 46559.142
    
    [GRAPHIC] [TIFF OMITTED] 46559.143
    
    [GRAPHIC] [TIFF OMITTED] 46559.144
    
    [GRAPHIC] [TIFF OMITTED] 46559.145
    
    [GRAPHIC] [TIFF OMITTED] 46559.146
    
    [GRAPHIC] [TIFF OMITTED] 46559.147
    
    [GRAPHIC] [TIFF OMITTED] 46559.148
    
    [GRAPHIC] [TIFF OMITTED] 46559.149
    
    [GRAPHIC] [TIFF OMITTED] 46559.150
    
    [GRAPHIC] [TIFF OMITTED] 46559.151
    
    [GRAPHIC] [TIFF OMITTED] 46559.152
    
    Next, Dr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman. We are at the threshold 
of a new century that is beginning with space travel, 
hypersonic aviation, nuclear power, electric automobiles, 
genetic engineering, global cellular phone service and personal 
computers. This coming century will be a time of unprecedented 
change.
    It is harder to foresee the events of this next century 
than it was for our grandparents in 1900 to foresee the world 
as it is today, and I don't think I need to remind you, they 
did a terrible job of that. Where will we be at the end of the 
next century? Linear extrapolations of what we are doing now 
don't work. Things can't go on like this and they never have. 
Everything is going to be different and I will give a few brief 
examples.
    I will try not to use the accepted redefinition of 5 
minutes that some others have used and try to keep it within 
the real 5 minutes. Let me first remind you that American 
planetary exploration missions to Mars and Venus have already 
taught us about the devastating effects of chlorine and water 
vapor on the ozone layer. Because of this knowledge, we chose 
not to build a high altitude supersonic transport and we 
drastically curtailed our production of chlorofluorocarbons.
    As a result, the ozone layer will repair itself over the 
next few decades and there will not be a global plague of skin 
cancer and not be global killing of seedling wheat and rice by 
ultraviolet sunlight. We solved these problems, which we did 
not know existed as problems, by doing basic solar system 
research and bringing it home to Earth. Critical discoveries 
were made by the American Mariner spacecraft to Mars and Venus.
    Trying to look ahead to decide what we need to develop in 
the next century places us in the same position we would have 
been in in the 1950's if we had tried to anticipate the threat 
to the ozone layer. We can identify three areas of enormous 
importance that are now emerging, with even more profound 
implications for the future than the example that I gave you 
from our past.
    First, these, as you have heard, is the lowering of launch 
costs, using new technology boosters, airline style operations 
and free and open competition between companies offering launch 
services. The second, which you have not heard about, is the 
discovery and characterization of Earth threatening comets and 
asteroids to predict the potential collisions with Earth and to 
give us a central knowledge of their physical and chemical 
properties.
    The third is the proliferation of micro and nanoelectronics 
to permit automated manufacture of vast numbers of tiny 
machines to serve mankind, and also to permit safe automated 
exploration and exploitation of very hostile alien 
environments. The synergism of these newly emerging 
capabilities will permit astonishing increases in human ability 
to manipulate matter and energy and thereby shape our future 
and change our visions of the possible launch cost decreases, 
give us the ability to build solar power satellites 
economically, offering us, as Potter has told us, cheap, clean 
abundant, electrical power, combined with the knowledge of and 
access to near Earth asteroids, and with autonomous and tele-
operated processing equipment, we could capture metals from 
Earth threatening asteroids into the Earth's orbit.
    With a leverage of 100 to 1, mission studies that have been 
done show that for each ton of equipment devoted to retrieval 
of material from near-Earth asteroids, you can return 100 tons 
of structural metals or propellants to the vicinity of Earth. 
By so doing, we can build solar power satellites at a greatly 
reduced cost, even below those that have been considered in 
NASA-funded studies to date by further minimizing the mass of 
equipment that must be launched out of the Earth's deep gravity 
well at enormous launch costs.
    Cheap, abundant, clean electrical power, as Dr. Potter told 
you, offers us a number of features that I will not do more 
than mention in passing. First, energy independence from 
foreign sources of supply, a strategic issue of the first 
importance for the next century. Enormously diminished 
environmental impact of our energy supply, compared to, for 
example, supertanker fleets, radioactive waste, strip mining 
for coal, these will no longer be needed in what have always 
been continually increasing numbers.
    And as a further environmental benefit, we will see a way 
out of the global warming problem caused by fossil fuel 
combustion. In addition, electrical power delivered by these 
solar-powered satellites, without the intervention of fossil 
fuel-burning makes electrical power available for surface 
vehicles with very small environmental impact. It also makes 
hydrogen available by electrolysis of water which empowers high 
performance aircraft of the future and we don't even need 
hydrocarbons to fly our aircraft fleets in the future.
    It permits a phase down of hydrocarbon production, 
extending our supply a few decades, or at the current use 
rates, indefinitely for use as a valuable industrial feed 
start. The high technology contributions of nanotechnology and 
tailored microorganisms will permit us to do processing, 
biological and physical processing and chemical processing in 
vast areas of industry here, Earthside, as well as in space, 
anything that involves the need for searching, recycling, 
sorting, processing or fabricating enormous masses of material.
    Machines that are at least partially self-replicating, 
based on computer technology that has grown out of the space 
program, will permit these tiny robots to produce themselves in 
profusion, greatly increasing the amount of productivity per 
human worker. They could gather manganese modules from the 
ocean floor, sort our garbage for recycling, extract rocket 
propellants from the atmosphere of Mars or the surface of the 
Moon. They could mine construction metals from nearby 
asteroids, bodies which, if not used up, would eventually 
collide with Earth.
    These international and interplanetary endeavors demand an 
educated work force, competent, of course, in math and science 
and in engineering, but also in languages and law and economics 
and management and so on. These are essential ingredients of 
our future and any nation which fails to understand the 
underlying importance of exploration, research and education 
will remain firmly stuck in the 20th century.
    We are not trying to plan the futures of our descendents, 
but we are trying to open their options. Resource limitations, 
as usually discussed, reflect merely the technologies we have 
available to us. Space technology makes vast new resources 
accessible to us.
    Let me give you one example. There is a near-Earth asteroid 
called Amun, A-M-U-N, that crosses the Earth's orbit twice in 
each trip around the Sun. It is about 1,000 yards in diameter. 
It contains more iron and steel than the total production of 
every nation on Earth for all of history. The market value of 
the metals in Amun, about $5 trillion, and it is the smallest 
known metallic asteroid out of many dozens known. It is more 
accessible to us or approximately as accessible as the surface 
of the Moon. It is about as easy to get to in terms of rocket 
power and rocket compulsion requirements as the surface of the 
Moon and easier to get back from.
    In the asteroid belt, we have countless dozens of asteroids 
much larger than Amun also made of metals. If we ask how many 
people could be supported by the known resources of the 
Asteroid Belt, in a recycling regime in which material is kept 
in circulation, the answer is an astonishing 10 quadrillion 
people. The known resources of the Belt are sufficient to 
support indefinitely a population 1 million times the ultimate 
carrying capacity of Earth.
    When we think about, for example, using the resources of 
the Belt to help make Mars habitable, as Buzz Aldrin commented, 
let me tell you what would happen if you brought the metals of 
the Belt to Mars. You would be able to build a steel frame 
building 80,000 feet tall covering every square inch of the 
surface of Mars.
    In other words, the resources necessary for terraforming 
planets are a trivial, minuscule fraction of the wealth of 
resources available to us in the Belt. Any processing plant in 
place upon Earth-crossing asteroids gets a ride out of the Belt 
on every single trip around the Sun. It automatically goes out 
to the Asteroid Belt. These space resources, both the energy 
resources that Dr. Potter talked about and the material 
resources, are available to us if we use space science and 
technology to access them. It is up to us, and I would like to 
close with a quotation that goes back almost exactly 100 years 
to H.G. Wells, looking at this century, he said, ``The choice 
is the universe or nothing.''
    Mr. Weldon. I want to thank you, Dr. Lewis. That was a very 
intriguing and enlightening and global presentation to wrap up 
this panel.
    I guess to kick off the questioning, let me start with 
Joshua. We began with you, I guess, almost an hour ago, and 
what did you think of this presentation that came after you? A 
lot of us here in this room are going to be looking to your 
generation to implement some of these things, so what are your 
thoughts on going to the Moon, going back to the Moon, going to 
Mars, space-based energy resources, what did you think of the 
panel?
    Mr. Ouellette. Well, I have always been very interested in 
the sciences, so from that standpoint, it was fascinating. The 
way that I am viewing this is they are building it. I am going 
to fly it, I, referring to kids my age and younger. But this is 
actually some of the first real encouraging things I have heard 
on the space program in a long time, especially with Dr. 
Zurbin's ideas on how to make it far less expensive in 
colonizing the Mars martian planet within a relatively short 
span of time. From that standpoint it excites me a lot.
    Mr. Weldon. Let me just ask you, I am not sure if you 
mentioned this in your presentation. What is the first thing 
you remember about the space program as a young man growing up? 
Do you have a first recollection of something that intrigued 
you or excited you about NASA or the shuttle or Apollo or 
anything that you can think of?
    Mr. Ouellette. I mean, of course, it is mainly the shuttle 
because the shuttle was the only thing I have ever seen 
launched. I mean, the Apollo missions all took place a long 
time before me. I mean, I was born in 1981 and the last Apollo 
mission ended 9 years earlier. But it is definitely the space 
shuttle. It is obviously a very powerful tool. It has a lot of 
uses, but I do also, on that note, think that we need to move 
beyond the space shuttle.
    The space shuttle has kept our space program going for 
several decades, but its uses are, as some people have 
mentioned before me, limited to going around in circles and it 
is less the space shuttle itself and more of what happens when 
you stop going around in circles that has interested me all my 
life.
    Mr. Weldon. Do you think we should go back to Mars--have 
never been there. Do you think we should send a manned mission 
to Mars, I guess is the question.
    Mr. Ouellette. Definitely. In some ways, I like the idea of 
thinking of it as an insurance policy, especially now that we 
have all seen the Shoemaker-Levy comet plummet into Jupiter 
that would have annihilated the Earth like nothing, and from 
that standpoint, it is incredibly important, just to the 
survival of us as a species. But I think it is also incredibly 
important to our survival as a Nation.
    I mean, what probably got us through the cold war without 
the cold war becoming a hot war, world war III, was probably 
the space program. That was a constructive, rather than 
destructive aspect of it. And even from an economic standpoint, 
I mean, we have heard mentioned that one near-Earth asteroid 
could basically pay off our national debt, imagine what going 
to Mars can do. With commerce between the planets, sending back 
raw materials, even moving some of our heavy industry to Mars, 
in ways, basically, there isn't--the way I think about it is 
there isn't anything to destroy on Mars with our heavy 
industry. It is probably the most important event in human 
history as far as I am concerned.
    Mr. Weldon. Dr. Potter, I was very interested in your 
presentation on generating electricity in space. We had, in the 
panel last week, two scientists who talked about generating the 
power on the Moon, and then beaming it to satellites in the 
Earth's orbit that then transmit it down to the surface of the 
planet. How is that different from what you are talking about, 
and what are the pros and cons of the two different concepts as 
you see it?
    Mr. Potter. You are probably talking about Dr. Criswell's 
idea.
    Mr. Weldon. Yes.
    Mr. Potter. And I know him reasonably well and I think the 
main difference is one of time. The idea that I am suggesting, 
that is satellites in low to middle Earth orbit, is something 
we can do right now. Because of the sheer amount of power that 
the world is going to need during the next 50 to 100 years, 
eventually I feel we will need to go to higher orbits. We may 
need to go to the Moon, so it is a question of how much versus 
how long.
    Mr. Weldon. And do you think that we could develop today a 
system like you are talking about and a low-Earth orbit, 
providing electricity to a city or a Nation or a community.
    Mr. Potter. I feel we could start this afternoon, if we had 
to, and we could probably have something ready within, say, 5 
years.
    Mr. Weldon. Do you think there is a role for NASA to be 
involved in the initial phases of such a program or would you 
recommend that be handled by the private sector, like a 
consortium of power companies handling it.
    Mr. Potter. I feel there is definitely a role for NASA in 
doing what government has always done best and it was alluded 
to by one of the other panelists, taking the risk out. I think 
once this idea is proven, there is going to be a feeding frenzy 
and communications companies, utilities, companies whose 
existence that we can't even predict will emerge.
    Nobody predicted Internet service providers 10 years ago. 
But the role of NASA should be perhaps to use some of its 
existing capability. Something like a long duration exposure 
facility, right on the international space station that could 
be tended to by astronauts as needed. I should say a prominent 
Russian aerospace engineer, who I can't mention at this point, 
did express interests in such an idea, so there is definitely a 
role for NASA.
    Mr. Weldon. OK. I would like to now recognize the gentleman 
from Texas, Mr. Turner, for questioning.
    Mr. Turner. Thank you. I want to commend Joshua for his 
presentation today. Joshua, I had the good fortune of 
representing the Woodlands in the State Senate a few years ago 
and my congressional district now comes within about 10 or 15 
miles of your home, and so I can't take the credit for you 
being here today. Your Congressman, Kevin Brady, is a good 
friend of mine and I know he is proud that you are here today 
testifying on behalf of the young people, because you truly are 
an outstanding representative of the young people in this 
country, and in many ways, it is inspirational to us to see you 
here because the things we are talking about and doing are 
really things that will be greatly meaningful to you in your 
generation, and I think it is our responsibility to be sure 
that we do the right things, to be sure that your generation is 
able to benefit from our decisions.
    You know, I listened this morning with great interest, and 
it continues to, I guess, cross my mind as one of the panelists 
suggested, that we ask NASA to lay out a definition of a 
mission, so that we can place it on the President's desk in 
2001 and begin to mobilize the Nation in a specific direction. 
I guess I would welcome any of the panelists comments on this 
because I think it is critical, even though, as I said to the 
earlier panel, none of us are great fans of blue ribbon 
commissions, many reports are done and prepared and bound up 
neatly and find they are not paid a whole lot of attention to. 
Obviously we wouldn't want to repeat that kind of process in 
something as important as our future in space exploration. But 
it does seem to me that it is important, not just to have NASA 
lay on the table the direction of the space exploration program 
for this country, but to bring all sectors, public and private, 
together, in a way that we really can develop a national 
consensus.
    After all, one of the problems I think we face today is 
that our space program has matured somewhat and many people 
looked at NASA as just another government agency, and it wasn't 
looked upon that way in the sixties, when we had the excitement 
of the early days of the space program and so it may take more 
consensus building to put us on the road to exploring Mars, and 
I would welcome any comments and suggestions that any of you 
may have about how we might develop that consensus that will 
put us on the right track.
    Mr. Rogers. You won't be able to, is my view, my judgment. 
I tried for 15 years. President Bush tried very hard. There has 
been study after study, commission after commission. It doesn't 
work. There was one day when I was asked to meet with Salley 
Ride after the SEI study. She had been asked by the NASA 
Administrator to see if she could think of a way to move ahead. 
And she asked me would I review her report and I said let me 
ask you a few questions first. Who have you been talking to. 
She said Professor Jones, Dean Smith, and some of them I know.
    I said is the problem one of finding smart, highly 
educated, highly motivated people to spend the money to go to 
the Moon and Mars or is the problem to get authorization and 
appropriations? She said the latter, of course. Well, I said, 
tell me again, who have you been talking to? That is the 
question. You will have a broad enough group of people willing 
to say, yes, let's go to the Moon and Mars, providing they 
don't have to pay for it, and that is why I made the suggestion 
that I did this morning.
    I don't know that Bob Zubrin is ready to break out in 
tears, but we discussed how to get to the Moon and Mars on a 
number of occasions and this is the first time I have been able 
to say, in all honesty, that I think there is a way to get 
there. The way to get there is to say, let us put a line item 
in the NASA budget. Let's start, and now let's fund it in 
proportion to what the life space flight area generates in 
private sector revenues and taxes. That immediately tells you 
that the public doesn't have to pay anything for it because 
there are those taxes and revenues being generated today, and 
it says NASA is now challenged to go out and create, create the 
sustenance for meeting its own desires.
    One of the great difficulties, going back to what I said at 
the beginning of the Federal Civil Space Program today, is it 
doesn't capture nearly well enough the national interest in 
civil space. People think they are the same thing and they are 
not. If we can bring together the very, very smart scientists, 
technology developers, engineers, within NASA, the aerospace 
industry and related universities, marching toward the Moon, 
Mars, at the same time that we say you will get there as fast, 
as fast as you can help our private sector to generate the 
revenues and generate the tax base for so doing. That is my 
view.
    Mr. Zubrin. I have to agree in part with Mr. Rogers that 
the national commission, blue ribbon commission, is of limited 
value. Although, as Buzz pointed out earlier today, the Payne 
report was an exception to that, in that it was sort of a 
remarkable document that could have kicked something off had it 
not landed in the middle of the Challenger disaster. But there 
is no shortage of support in this country for a Humans-to-Mars 
program. I can speak to that directly.
    I have had the experience of going around and giving talks 
on Humans-to-Mars program, not just to space societies and 
engineering groups, but to rotary clubs, plumbers conventions 
and you name it. And the main question I get at a conclusion of 
a talk about Humans to Mars and how and why we can do it is how 
come we are not doing it? People come up to me and say I 
remember Apollo. That was great. Weren't we supposed to go to 
Mars after that? How come there was no follow through?
    This is the sort of thing this country ought to be doing. 
In fact, there is immense ground swell. There is, in fact, a 
feeling of betrayal among people in this country, that it seems 
as if the government has accepted this notion that this country 
has entered the age of limits in which we are no longer capable 
of doing stuff like this.
    Well, we are capable of doing stuff like this, OK. We are 
richer than we were in the 1960's, a lot richer. We have a lot 
larger GNP and we are not facing an adversary of incredible 
strength, and there has never been a country as rich as we are 
today and the challenge to us to undertake sending humans to 
Mars today of all its risks is actually of a lower order than 
the challenge was to send humans to the Moon in the 1960's when 
we had to start from scratch. So we can do it. The popular will 
is there.
    What we need is some political leadership. And what I was 
saying, when I said tell NASA to do phase A, I meant that. I 
did not mean tell NASA to come up with their vision statement 
for the first decade in the 21st century because they will tell 
people whatever they think someone wants to hear or whatever. I 
mean for Congress to tell NASA, I want you to come up with a 
plan, a low cost plan to have humans on Mars within 10 years, 
and I want you to be able to submit that to the President-elect 
in November 2000, and do it.
    In other words, the marching orders really have to come 
from the politicians. The Apollo Program did not come from 
NASA. It came from Kennedy, and, similarly, getting humans to 
Mars is not going to come from NASA. It has to come from you, 
and so it is necessary, and obviously there are people higher 
ranking than individual Congressmen or Committee chairman or so 
forth that have to be brought in, and in the executive branch 
as well, but this is what needs to be put together.
    A piece of political engineering has to be put together and 
I believe that since nobody knows who is going to be President 
in November 2000, that--whether it is going to be a Democrat or 
Republican or which particular individual it is going to be, I 
think an agreement now, to put that in motion, to give that 
person, whoever he is and whichever party he is, the option to 
undertake that step could conceivably have bipartisan support, 
in a way it could not, after that has been decided, so that is 
what I think we need to do.
    Mr. Weldon. Well, I just have a few followup questions I 
would like to direct, and, actually, they are specifically to 
you, Dr. Zurbin. One of the big questions that is always asked 
is why don't we send robots to Mars instead of people to Mars? 
Can you just tell us how you answer that question? I am sure 
you get asked that question as well.
    Mr. Zubrin. Sure. There are two answers to that. Of course, 
this came up a great deal after the discovery of the Mars rocks 
with evidence of life in them last summer, OK. And don't get me 
wrong, I do not oppose sending robots to Mars. In fact, I think 
the current sending of robots to Mars is the most productive 
thing NASA is doing at the moment. However, it is not enough.
    First of all, obviously the robots are not settling Mars, 
they are just there to do scientific work, and if we are 
looking for evidence of life on Mars, if we are fossil hunting 
on Mars, which is what the mission is, look at what you have to 
do to do fossil hunting on Earth. You have to hike long 
distances through unimproved terrain, you have to be able to 
climb up steep hillsides. You have to be able to do heavy work 
like pick-ax work and digging. You have to be able to do 
delicate work, pealing open fossil shells, which are like books 
made of rock which have to be carefully split open to see the 
evidence that has been pasted inside.
    You have to exercise very subtle forms of perception and 
intuition. This is all far beyond the capability of robotic 
rovers. You cannot hunt for fossils with toy cars. If you took 
a rover, like the one they are landing on Mars this summer, the 
Sojourner rover, which is like a toy car with wheels 6 inches 
in diameter, it cannot climb over a rock 1 foot high. It cannot 
get out of sight of the lander and it has no manipulative 
abilities.
    If you landed one of them in the Rockies--if you landed 100 
of them in the Rockies, you would never find a dinosaur fossil, 
despite the fact that the Rockies are bound in dinosaur 
fossils. If we are going to get the answer to whether there was 
life on Mars and also to determine to any realistic effect as 
to how far it evolved, we are going to have to send real life 
human explorers, real live rock hounds. But what is more to the 
point is, if we understand that Mars is not just an object of 
scientific inquiry, it is a world, a world with all the 
resources required to create a new branch of human 
civilization, that can only be tackled by humans.
    Mr. Carpenter. Mr. Chairman, may I overstep my limits as a 
member of the defunct committee to get a defunct panel to give 
an answer to your question? It came from Tom Stafford a long 
time ago, Tom Stafford of Apollo. He made note of the fact that 
in order to have a meaningful and vigorous space program, we 
must enlist the support of the people of this Nation, and he 
said who gives a parade for a robot?
    Mr. Weldon. Good point. Thank you very much.
    Let me ask Dr. Lewis a question regarding Dr. Zurbin's 
proposal to put a nuclear reactor on Mars? Occasionally, on the 
Space Coast, we launch probes and satellites that have nuclear 
reactors on them and there is always a pretty high degree of 
concern. I would think the type of reactor Dr. Zurbin would be 
talking about launching would be something a little bit larger. 
You express some real concerns about the environment and 
protecting the environment. Do you have a problem with putting 
nuclear reactors in space, launching them from the Cape, 
sending them to Mars?
    Mr. Lewis. Launching a live, fully fueled nuclear reactor 
is folly, but there is no necessity to do that. A nuclear 
reactor can be launched without its fuel rods inserted. In 
fact, it can be launched in a completely inert configuration, 
and protected in such a way that even if the booster would 
fail, when it reentered the atmosphere, it would do so intact.
    I should point out, however, that if environmental 
considerations prevented from launching a reactor, you could 
still achieve the goals of this mission with a rather different 
design using solar power.
    Solar power can be used on Mars. You need to be cognizant 
of the existence of dust storms, and you need to allow for 
cleaning off the solar cells, but you could do that if it were 
necessary. It seems unlikely to me that the people who design 
Mars missions are going to have the final word on whether it is 
nuclear powered or not.
    Mr. Weldon. Do you have any rebuttal to some of those 
comments he made?
    Mr. Zubrin. Well, first of all, if you take a nuclear 
reactor that has never been used, it has a much lower 
radioactive inventory than the RTG's that we have launched from 
the Cape already, such as the one on Galileo or Voyager. So, if 
you have the control rods in there and locked into place, it 
cannot go critical. In fact, while I am sure that there will be 
various activist groups that will demonstrate and go to court 
and whatever to oppose the launching of a nuclear reactor from 
Florida, the rational grounds behind their complaint are 
actually of a lower order than the very limited basis for their 
objections to the launching of the RTG.
    The use of solar power on Mars is possible, I don't dispute 
that. It does add weight to the mission. It is true, as John 
says, that you could do a mission of the type that I described 
with solar power. However, it would increase the mass and the 
cost.
    Captain Cernan. Mr. Chairman, there is a precedence already 
set. Twenty-five years ago on Apollo 17 we carried a nuclear 
reactor. I personally fueled it on the surface of the Moon. It 
operated flawlessly and harmlessly for over 10 years, sending 
back information. It finally had to be shut down because of a 
cut in funding.
    Mr. Weldon. Thank you for sharing that. I want to thank 
each and every one of the panel members this morning for your 
very fascinating testimony. I realize that many of you had 
much, much more to share than you were capable of doing within 
the time constraints, but we really do appreciate you coming, 
and the meeting now stands adjourned.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
